No. 21-________
IN THE

Supreme Court of the United States
_________________
STANLEY JOSEPH THOMPSON,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.
_________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
_________________
PETITIONER’S APPENDIX
_________________
David M. Chaiken
Counsel of Record for Petitioner
CHAIKENLAW LTD.
One Atlantic Center
1201 W. Peachtree Street, Suite 2300
Atlanta, GA 30309
(404) 795-5005
david@chaiken.law

INDEX TO PETITIONER’S APPENDIX
Order of the United States Court of Appeals for the
Eleventh Circuit Denying Rehearing En Banc,
August 19, 2020....................................................... 001A
Amended Order of the United States Court of Appeals
for the Eleventh Circuit, August 19, 2020 ............. 002A
Order of the United States Court of Appeals for the
Eleventh Circuit, October 17, 2019 ........................ 024A
Order of the Northern District of Georgia Adopting
Magistrate’s Report & Recommendation Denying
§ 2255 Motion, September 30, 2014 ....................... 041A
Magistrate’s Report & Recommendation Denying
§ 2255 Motion, August 19, 2014 ............................. 043A
Brief for Appellee United States of America (Excerpt),
December 8, 2008 .................................................... 099A
Transcript of Proceedings (Closing Arguments),
February 29, 2008 ................................................... 101A
Transcript of Proceedings (Petitioner’s Opening
Statement), February 26, 2008 .............................. 175A
Government’s Trial Exhibit 15A (Stipulation),
February 25, 2008 ................................................... 180A

USCA11 Case: 14-15179

Date Filed: 11/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 14-15179-EE
________________________
STANLEY JOSEPH THOMPSON,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, GRANT, and SILER,* Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

* Honorable

Eugene E. Siler, Jr., United States Circuit Judge for the Sixth Circuit, sitting by

designation.

ORD-42

001A

Case: 14-15179

Date Filed: 08/19/2020

Page: 1 of 22

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 14-15179
________________________
D.C. Docket Nos. 1:11-cv-02294-TWT; 1:07-cr-00138-TWT-JSA-2

STANLEY JOSEPH THOMPSON,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
_______________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(August 19, 2020)
ON PETITION FOR REHEARING
Before JORDAN, GRANT, and SILER,* Circuit Judges.

*

Honorable Eugene E. Siler, Jr., United States Circuit Judge for the Sixth Circuit, sitting
by designation.

002A

Case: 14-15179

Date Filed: 08/19/2020

Page: 2 of 22

SILER, Circuit Judge:
Petitioner Stanley Joseph Thompson has moved for panel rehearing and/or
rehearing en banc of our prior decision in this case, see Thompson v. United States,
791 F. App’x 20 (11th Cir. 2019). Upon reconsideration, we vacate the prior
opinion, grant panel rehearing on two issues: (1) the Miranda warning issue arising
from questioning during the traffic stop and (2) the severance issue, and file this
amended opinion. In all other respects, the petition for panel rehearing is denied.
Stanley Thompson appeals the district court’s denial of his § 2255 motion to
vacate his sentence and his motion for a new trial. We affirm.
In 2007, the Atlanta area experienced a string of robberies that police believed
were connected. Two men held up a Taco Bell, before six separate area banks were
robbed. R. 145 at 29-30; R. 11. In one robbery, a witness saw someone get in and
out of a red Chevrolet Blazer. The witness recorded the license plate, and police
determined the car belonged to Leary Robinson’s estranged wife.
Shortly after a robbery at SunTrust Bank, Atlanta Police Detective Capus
Long stopped the Blazer along Interstate 20. R. 146 at 281-82. Thompson was
driving; Edwin Epps was the passenger. Officers ordered Thompson and Epps out
of the car and began asking questions. Thompson said the car was “a hot box,” and
Detective Long understood that to mean that the car was stolen. Id. at 283.

2

003A

Case: 14-15179

Date Filed: 08/19/2020

Page: 3 of 22

Thompson was placed in the police car where Long showed Thompson a photograph
of Leary Robinson. Id. at 284. Thompson said that Robinson was staying at the
Intown Suites, and Long gave that information to the FBI. Id. at 284-85.
FBI Agent Chad Fitzgerald then went to Intown Suites, where he learned from
the motel clerk that both Robinson and Thompson had been staying there. R. 146 at
382; 147 at 414. When agents moved in to arrest Robinson, a standoff ensued, but
ended after extended negotiations. R. 146 at 289-91, 310-315. Meanwhile, police
had taken Thompson to the Fulton County Jail and received Thompson’s consent to
a search of his room at the Intown Suites. R. 147 at 424. During that search, police
found a pistol that they believed was used in the robberies. R. 146 at 302-03; 30506. Police also found a baseball hat, camouflage pants, and a yellow tablet all
believed to be connected to the crimes. R. 146 at 300-21. Police later searched the
Blazer and found several items of clothing used in the robberies. Id. at 296-319.
Robinson admitted to the robberies except for the Taco Bell holdup and one
of the bank robberies. R. 146 at 327-31. He also admitted using a gun during the
crimes and that he used the Blazer in most of them. A federal grand jury returned a
12-count indictment against Robinson and Thompson, charging them with all eight
robberies. R. 11.
After a joint jury trial, Thompson was convicted of one count of aiding and
abetting an interference with commerce by robbery under 18 U.S.C. § 1951, four
3

004A

Case: 14-15179

Date Filed: 08/19/2020

Page: 4 of 22

counts of aiding and abetting bank robbery under 18 U.S.C. § 2113(a), two counts
of aiding and abetting bank robbery with a dangerous weapon under 18 U.S.C. §
2113(a), (d), and three counts of aiding and abetting the use or carrying of a firearm
during a crime of violence under 18 U.S.C. § 924(c)(1)(A). R. 109. He was found
not guilty on two other robbery-related counts. Id.
We affirmed on direct appeal. United States v. Thompson, 610 F.3d 1335
(11th Cir. 2010). Thompson then filed this motion to vacate, set aside or correct his
sentence under § 2255. R. 168; 171.
Thompson argues that trial counsel was ineffective for (1) waiving a
suppression hearing regarding whether he had made statements to police without
being advised of his rights under Miranda v. Arizona, 384 U.S. 436 (1966), (2)
admitting Thompson’s guilt to robbery during closing arguments; and (3) failing to
move to sever his trial from Robinson’s trial. R. 168 at 7-10.
Thompson also sought a new trial. That request stemmed from a Freedom of
Information Act request that Thompson filed with the U.S. Department of Justice,
which Thompson claimed showed that his fingerprints were not found on demand
notes used in the bank robbery.
A magistrate judge issued a report and recommendation to the district court,
suggesting that Thompson’s motions be denied. R. 189. And without holding an
evidentiary hearing, the district court adopted the report and recommendation,
4

005A

Case: 14-15179

Date Filed: 08/19/2020

Page: 5 of 22

denied Thompson’s objections, and entered a final judgment. R. 192, 193. The
district court also denied a certificate of appealability (COA). This court granted a
COA on three issues:
(1) Whether Thompson received ineffective assistance of counsel with respect to
counsel’s failure to challenge police officers’ questioning of him without
reading him the requisite Miranda warnings.
(2) Whether Thompson received ineffective assistance of counsel based on
counsel’s decision to concede guilt to the charges associated with the Taco
Bell robbery, due to counsel’s erroneous belief that the government had
insufficient evidence to prove that the armed robbery affected interstate
commerce.
(3) Whether Thompson received ineffective assistance of counsel based on
counsel’s failure to move for severance from codefendant Robinson’s trial.
R. 213; 216
In § 2255 motions, we review counsel’s effectiveness de novo, LeCroy v.
United States, 739 F.3d 1297, 1312 (11th Cir. 2014), and denial of an evidentiary
hearing for abuse of discretion, Castillo v. United States, 816 F.3d 1300, 1303 (11th
Cir. 2016). Courts should grant such hearings “[u]nless the motion and the files and
records of the case conclusively show that the prisoner is entitled to no relief.” Id.
(quoting 28 U.S.C. § 2255(b)). Abuse of discretion review also applies to a denial
5

006A

Case: 14-15179

Date Filed: 08/19/2020

Page: 6 of 22

of a new trial motion. United States v. Campa, 459 F.3d 1121, 1151 (11th Cir. 2006)
(en banc).
To prevail on an ineffective-assistance-of-counsel claim Thompson must
show that his counsel’s performance (1) was deficient, and (2) resulted in prejudice.
Strickland v. Washington, 466 U.S. 668, 687 (1984). Strickland’s deficiency prong
is met only when counsel’s performance fell below an objective reasonableness
standard. Id. at 688. Courts “strongly . . . presume[]” that counsel provides adequate
assistance and “made all significant decisions in the exercise of reasonable
professional judgment.” Id. at 690. Thompson must demonstrate “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. “The prejudice prong requires a petitioner
to demonstrate that seriously deficient performance of his attorney prejudiced the
defense.” LeCroy, 739 F.3d at 1312-13 (quoting Butcher v. United States, 368 F.3d
1290, 1293 (11th Cir. 2004)). In the ineffective assistance of counsel context
involving a constitutional suppression issue, prejudice is shown only when the
petitioner demonstrates that “there is a reasonable probability that the verdict would
have been different absent the excludable evidence.” Kimmelman v. Morrison, 477
U.S. 365, 375 (1986).
1. Miranda Warnings. Thompson argues his attorney first erred in failing to
challenge the police officers’ questioning of him without warnings under Miranda
6

007A

Case: 14-15179

Date Filed: 08/19/2020

Page: 7 of 22

v. Arizona, 384 U.S. 436 (1966). Thompson asserts that authorities failed to provide
Miranda warnings on two separate occasions.

First, he argues that police

interrogated him without Miranda warnings during a traffic stop.

Second,

Thompson argues that agents failed to provide Miranda warnings before seeking his
consent to search his hotel room.
a. Questioning During the Traffic Stop
According to Thompson, the police did not read him his Miranda rights before
questioning him after pulling him over and detaining him. What’s more, Thompson
says his counsel failed to investigate this Miranda problem and never sought
suppression of Thompson’s statements.
The district court rejected this argument, holding that Thompson’s discussion
with Detective Long fell under Miranda’s “routine booking exception.” Under that
doctrine, incriminating information can be used against a defendant who was not
given his Miranda warning when the information came in response to police
officers’ questions designed to obtain basic information. United States v. Sweeting,
933 F.2d 962, 965 (11th Cir. 1991). We agree with the district court that some of
the questions asked by the detective, such as where Thompson was living, satisfy
that exception.
Thompson challenges his attorney’s failure to move to suppress his responses
to other questions as well, however, including when the detective showed him a
7

008A

Case: 14-15179

Date Filed: 08/19/2020

Page: 8 of 22

picture of Robinson and asked him where Robinson was. We concluded that we
need not address whether Thompson was entitled to Miranda warnings before those
questions—because even if he was, he is unable to establish prejudice with regard
to his attorney’s failure to move to suppress his responses. See Strickland v.
Washington, 466 U.S. 668, 687 (1984). The evidence in this case included a witness
testifying that Robinson introduced Thompson as his “partner,” a photo and video
showing Thompson’s and Robinson’s unmasked faces as they robbed a Taco Bell,
and surveillance photos and videos showing Robinson robbing several banks.
Thompson’s fingerprints were also found on some of the demand notes used in those
bank robberies. For three of the bank robberies, witnesses testified that the robber
entered and exited a getaway car from the passenger side—indicating that a getaway
driver assisted in the robberies. Several witnesses identified the getaway car as a red
Chevrolet Blazer—the same car that officers found Thompson driving when they
arrested him. And a later search of the vehicle revealed clothing that matched that
worn by the bank robbers. Because Thompson cannot establish prejudice in light of
the strength of the evidence in this case, Thompson cannot show that his attorney’s
decision not to move for suppression of his initial responses amounts to ineffective
assistance of counsel.
b. Consent to Search Thompson’s Hotel Room

8

009A

Case: 14-15179

Date Filed: 08/19/2020

Page: 9 of 22

Thompson also contends that his counsel was ineffective for failing to object
to admission of statements and physical evidence that arose from a search of
Thompson’s hotel room at Intown Suites.
During the investigation and search for co-defendant Robinson at Intown
Suites, FBI agents learned from hotel staff that Thompson had also been staying at
Intown Suites, in room 463. After Robinson’s arrest, agents went to the Fulton
County jail to seek Thompson’s consent to search his hotel room.
At the jail, agents identified themselves and asked Thompson if he had been
residing in room 463 at Intown Suites. According to agents, Thompson verified that
he had been staying in room 463. Thus, agents presented Thompson with an FBI
FD26 consent to search form, which Thompson signed. Subsequently, the agents
searched Thompson’s hotel room and discovered evidence that was linked to the
robberies they were investigating.
Thompson claims that the consent to search was illegally obtained because he
was in custody when agents asked for his consent and he was not read Miranda
warnings before he gave consent. But Thompson has failed to demonstrate that
counsel’s failure to object to admission of evidence obtained during this search rises
to the level of ineffective assistance of counsel.
Initially, Thompson has failed to demonstrate that counsel’s failure to object
to admission of this evidence constitutes deficient performance because Miranda
9

010A

Case: 14-15179

Date Filed: 08/19/2020

Page: 10 of 22

warnings were not required prior to the agents seeking consent to search at the jail.
This court has previously noted that consent to search is not a self-incriminating
statement. See United States v. Hidalgo, 7 F.3d 1566, 1568 (11th Cir. 1993). As
such, when agents asked Thompson to confirm that he had been staying in room 463
and if he would give consent to search, they could not have known or suspected that
Thompson’s statement would illicit an incriminating response. Of course, it is true
that the subsequent search of Thompson’s hotel room led to discovery of
incriminating physical evidence, but Thompson’s response to agents’ questions
about consent to search could not have been reasonably expected to illicit an
incriminating statement. As a result, Thompson’s argument that this evidence
should have been suppressed has no merit.
And, since Thompson’s argument has no merit, his trial counsel cannot be
found ineffective for failure to raise a meritless argument. See, e.g., Chandler v.
Moore, 240 F.3d 907, 917 (11th Cir. 2001) (holding that counsel was not ineffective
for failing to raise a meritless argument); United States v. Winfield, 960 F.2d 970,
974 (11th Cir. 1992) (same).
Ultimately, agents were not required to provide Miranda warnings prior to
asking Thompson for his consent to search his hotel room. As such, counsel’s failure
to object to admission of evidence obtained as a result of that consent did not fall
below an objective standard of reasonableness.
10

011A

Case: 14-15179

Date Filed: 08/19/2020

Page: 11 of 22

Moreover, even if counsel’s performance was deficient, Thompson cannot
show that he was prejudiced by counsel’s failure to object or move to suppress
evidence. Under the inevitable discovery doctrine, the evidence that Thompson
seeks to suppress would have been discovered by lawful means, even assuming the
consent to search was obtained unlawfully.
The inevitable discovery exception to the exclusionary rule allows evidence
that was illegally obtained to be admitted if the government can demonstrate by a
preponderance of the evidence that such evidence would have been inevitably or
ultimately discovered by lawful means that were being actively pursued before the
illegal conduct occurred. See Nix v. Williams, 467 U.S. 431, 444 (1984).
Here, agents would have inevitably obtained the physical evidence discovered
from the search of Thompson’s hotel room, even without Thompson’s consent to
search. When agents asked for Thompson’s consent to search, both Thompson and
Robinson had been arrested, and Robinson had confessed to some of the robberies.
Additionally, while Robinson was barricaded in room 463—the hotel room that
belonged to Thompson—agents saw Robinson brandish a pistol. But the pistol was
not discovered when Robinson was taken into custody. As a result, officers had
probable cause to obtain a search warrant to search Thompson’s room, even without
Thompson’s consent to search. Furthermore, as the district court found, the public
safety exception would have justified a warrantless search of Thompson’s hotel
11

012A

Case: 14-15179

Date Filed: 08/19/2020

Page: 12 of 22

room since the weapon that Robinson brandished was not found on his person when
he was arrested.
In sum, even if Thompson could demonstrate that agents illegally obtained his
consent to search his hotel room, he cannot demonstrate that this evidence should be
suppressed based on the inevitable discovery exception. As a result, even if
counsel’s failure to object and pursue suppression of the physical evidence was
deficient performance, Thompson cannot demonstrate that he was prejudiced by
counsel’s performance. As a result, Thompson has failed to demonstrate that
counsel’s failure to object to admission of evidence obtained during a search of his
hotel room rises to the level of ineffective assistance of counsel.
2. Admitted Guilt in Taco Bell Robbery. In McCoy v. Louisiana, 138 S. Ct
1500 (2018), the Supreme Court held that criminal defendants “must be allowed to
make [their] own choices about the proper way to protect [their] liberty,” which
includes the right to “insist on maintaining innocence at the guilt phase.” Id. at 1508.
When counsel does not allow a defendant to maintain his innocence, defendant’s
Sixth Amendment rights are violated. Id. Thompson argues that counsel made a
unilateral decision to admit guilt, which was against Thompson’s wishes.
The government argues that this argument is outside the COA, but even if we
considered it, Thompson fails because his counsel did not admit guilt. Instead,
counsel took a trial strategy, arguing that the government could not prove the
12

013A

Case: 14-15179

Date Filed: 08/19/2020

Page: 13 of 22

interstate commerce element of Hobbs Act robbery. That does not rise to the level
of admitting guilt since counsel denied an essential element of the crime.
Turns out, of course, that Thompson’s counsel was wrong—so wrong, in fact,
that Thompson thinks he received constitutionally deficient assistance. Under the
Hobbs Act, it is a crime to affect commerce by robbery. 18 U.S.C. § 1951. Only a
small or minimal effect on commerce is needed to prove that element of the crime,
see United States v. Gray, 260 F.3d 1267, 1272 (11th Cir. 2001), which occurs when,
for example, the robbery reduces the assets of a company involved in interstate
commerce, see United States v. Ransfer, 749 F.3d 914, 936 (11th Cir. 2014).
So, as Thompson argues, his counsel was incorrect regarding the interstate
commerce element of Hobbs Act robbery—the Taco Bell incident certainly could
meet the minimal threshold required. But Thompson still fails to establish prejudice,
a necessary component of his ineffective assistance claim. See Strickland, 466 U.S.
at 687. As the district court determined, a mound of evidence supported Thompson’s
involvement in the Taco Bell robbery—including pictures and videotape. Indeed,
nothing suggests that the jury would have reached a different outcome on the Taco
Bell count or any other charge. Thus, Thompson has not demonstrated prejudice
and his claim fails.
3. Failure to Move for Severance. Finally, Thompson argues that his counsel
was ineffective because he failed to move to have the trial severed from his
13

014A

Case: 14-15179

Date Filed: 08/19/2020

Page: 14 of 22

codefendant, Robinson. Thompson says that he suffered prejudice because the jury
heard overwhelming evidence against Robinson, so the jury must have thought
Thompson was also involved.
But again, Thompson fails to demonstrate ineffective assistance. See id. First,
he cannot show deficient performance, because the severance likely would not have
been granted. The government may try codefendants together “if they are alleged to
have participated in the same act or transaction, or in the same series of acts or
transactions, constituting an offense or offenses.” Fed. R. Crim. P. 8(a). No doubt,
that is this case. True, defendants can move for severance, but a court will grant
such a motion only when joinder will result in prejudice. Fed. R. Crim. P. 14(a).
And usually “people who are charged together are tried together.” United States v.
Novaton, 271 F.3d 968, 989 (11th Cir. 2001) (citation omitted).
Nor can Thompson establish that had the severance been granted the result of
trial would have been different. Thus, he cannot meet Strickland’s prejudice prong.
466 U.S. at 687. Even if Thompson would have had slightly better odds at trial had
he been tried alone, that does not mean the outcome would have been different—a
burden that Thompson must carry in his § 2255 motion. See Zafiro v. United States,
506 U.S. 534, 540 (1993).
Moreover, counsel’s performance was not deficient for not moving to sever
after Robinson testified because Robinson neither identified nor implicated
14

015A

Case: 14-15179

Date Filed: 08/19/2020

Page: 15 of 22

Thompson. The Supreme Court has told us that “where a codefendant takes the
stand in his own defense, denies making an alleged out-of-court statement
implicating the defendant, and proceeds to testify favorably to the defendant
concerning the underlying facts, the defendant has been denied no rights protected
by the Sixth and Fourteenth Amendments.” Nelson v. O’Neil, 402 U.S. 622, 629–
30 (1971). The same principle, we believe, applies with equal force here.
During his testimony, Robinson refused to implicate Thompson while on the
witness stand. Robinson denied that Thompson participated in the Taco Bell
robbery; refused to identify Thompson in a photo; declined to name Thompson as
his get-away driver; and rejected assertions that Thompson was the person he had
previously identified as “J.T.”

This testimony was bolstered during cross-

examination by Thompson’s counsel, as Robinson again testified that he never
provided Thompson’s name to a government agency and never told anyone what
“J.T.” stood for.
Therefore, Robinson’s testimony did not impair any of Thompson’s rights.
See Nelson, 402 U.S. at 626 (“the absence of the defendant at the time the
codefendant allegedly made the out-of-court statement is immaterial, so long as the
declarant can be cross-examined on the witness stand at trial”); Smith v. Kelso, 863
F.2d 1564, 1569 (11th Cir. 1989) (“Severance is compelled only when a codefendant has refuted those portions of a co-defendant’s case that are necessary to
15

016A

Case: 14-15179

Date Filed: 08/19/2020

Page: 16 of 22

find the defendant not guilty of the particular charged offense.”). Even if there was
some other prejudice from Robinson’s testimony, we need not grant a separate trial
“unless the trial judge could not cure the prejudice.” Smith, 863 F.2d at 1572. As
there was no such risk in this case, counsel was not deficient for not moving for
severance at that point. See United States v. Bradley, 905 F.2d 1482, 1488–89 (11th
Cir. 1990) (explaining that a mid-trial severance under Rule 14 requires a “manifest
necessity”).
4. Motion for a New Trial. Finally, Thompson argues he is entitled to a new
trial because he has newly discovered evidence contradicting the government’s
contention that his fingerprints were on demand notes used in two of the robberies.
The district court can grant a new trial based on newly discovered evidence if that
motion is filed within three years of the verdict, see Fed R. Crim. P. 33(a)(1), and
the defendant shows: (1) the evidence was discovered after the trial; (2) the
defendant exercised due diligence to discover the evidence; (3) the evidence is not
merely cumulative or impeaching; (4) the evidence is material to issues before the
court; and (5) the evidence is of such a nature that a new trial would probably
produce a new result, United States v. Taohim, 817 F.3d 1215, 1223 (11th Cir. 2013).
Such motions are highly disfavored and rarely granted. See Campa, 459 F.3d at
1151.

16

017A

Case: 14-15179

Date Filed: 08/19/2020

Page: 17 of 22

Thompson received information from a FOIA request that the FBI was not in
possession of so-called “lift images” of Thompson’s fingerprints that the
government contended were on the demand notes. This information, Thompson
argues, shows that his fingerprints were not on the demand notes, and thus the
government’s evidence at trial is undermined.
But the document that Thompson relies on—an FBI declaration—says only
that the lift prints Thompson requested “were taken and processed by the Cobb
County Police Department (CCPD) rendering any processing by the FBI
unnecessary.” R. 187, Ex. A at 8-9. And lift prints are just one type of print. The
FBI declaration further explains that it had latent prints on a demand note used
during the robbery, and those prints were linked to Thompson. Id. at 10. The only
information the declaration presents is that the only “lift prints” in the case were kept
by CCPD, while the FBI had other prints on the demand notes.
This is hardly newly discovered evidence that would have affected the trial.
Taohim, 817 F.3d at 1223. And the district court’s denial of the new trial motion
does not amount to an abuse of discretion. After all, the information shows that both
the FBI and CCPD had fingerprint information. This does not undermine the jury’s
verdict and is not a basis for granting a new trial.
Upon reconsideration, we GRANT the motion for panel rehearing on the
Miranda warning issue concerning questioning during the traffic stop and the
17

018A

Case: 14-15179

Date Filed: 08/19/2020

Page: 18 of 22

severance issue, VACATE the prior panel opinion, Thompson v. United States, 791
F. App’x 20 (11th Cir. 2019), and issue this amended opinion. In all other respects,
the petition for panel rehearing is DENIED. We AFFIRM the judgment of the
district court.

18

019A

Case: 14-15179

Date Filed: 08/19/2020

Page: 19 of 22

JORDAN, Circuit Judge, concurring in part and dissenting in part:
With one exception, I agree with the court’s opinion denying rehearing. I
would grant rehearing on Mr. Thompson’s claim under McCoy v. Louisiana, 138 S.
Ct. 1500 (2018), because I think we made a mistake in our original panel opinion.
Let me explain why.
In our opinion, we rejected Mr. Thompson’s McCoy claim and concluded that
“counsel did not admit guilt” because, although he conceded a number of factual
elements, he “denied an essential element of the crime [i.e., the interstate commerce
element].” Thompson v. United States, 791 F. App’x 20, 27 (11th Cir. 2019). I
believe Mr. Thompson is correct in asserting in his petition for rehearing that our
McCoy analysis was flawed.
In McCoy, a capital case, the defendant “vociferously insisted that he did not
engage in the charged acts and adamantly objected to any admission of guilt.” 138
S. Ct. at 1505. Nevertheless, his counsel—having concluded that the evidence
against the defendant was “overwhelming” and that “absent a concession at the guilt
stage,” it would be “impossible to avoid” a death sentence at the penalty phase—
told the jury that the defendant had caused the victims’ deaths and that he had
“committed these crimes.” Id. at 1506–07. The Supreme Court held that a defendant
has the right, under the autonomy guaranteed by the Sixth Amendment, to refuse to
admit or concede guilt. So when a defendant “expressly asserts” that he wants “to
19

020A

Case: 14-15179

Date Filed: 08/19/2020

Page: 20 of 22

maintain innocence of the charged criminal acts, his lawyer must abide by that
[decision] and may not override it by conceding guilt.” Id. at 1509. See also id. at
1510 (“[W]e agree with the majority of state courts of last resort that counsel may
not admit her client’s guilt of a charged crime over the client’s intransigent objection
to that admission.”).
The Court also held that counsel’s concession of guilt, in the face of the
defendant’s objection, constituted structural error that necessitated a new trial
without a showing of prejudice. See id. at 1511–12. As Justice Alito’s dissent
pointed out, the Court reached this conclusion even though counsel had not conceded
guilt as to all of the elements necessary for murder—counsel admitted that the
defendant committed one element of the offense, i.e., that he “shot and killed the
three victims,” but “strenuously argued that [the defendant] was not guilty of firstdegree murder because he lacked the intent (the mens rea) required for the offense.”
Id. at 1512 (Alito, J., dissenting).
Here, trial counsel conceded in his opening statement and closing argument
that Mr. Thompson robbed the Taco Bell. But he argued (based on his apparently
mistaken legal judgment) that the government had not proven the interstate
commerce element of Hobbs Act robbery. In other words, like the lawyer in McCoy,
Mr. Thompson’s counsel admitted several elements of the offense while challenging
another element. So the factual and procedural context here is just like McCoy, and
20

021A

Case: 14-15179

Date Filed: 08/19/2020

Page: 21 of 22

I do not believe we can reject Mr. Thompson’s argument by saying that trial counsel
only admitted guilt on some elements of the crime.
In his verified 28 U.S.C. § 2255 motion—which functioned like an affidavit,
see, e.g. Sears v. Roberts, 922 F.3d 1199, 1206 (11th Cir. 2019)—Mr. Thompson
alleged that trial counsel conceded guilt as to the Taco Bell robbery “against [his]
wishes.” Trial counsel allegedly advised Mr. Thompson that the best strategy was
to admit guilt on the Taco Bell robbery while challenging the interstate commerce
element of the robbery.
Given the verified motion to vacate, Mr. Thompson is entitled to an
evidentiary hearing. See 28 U.S.C. § 2255(b) (providing for a hearing “[u]nless the
motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief”) (emphasis added). First, although the district court
characterized trial counsel’s concession strategy as reasonable, that strategy was
likely based on a misunderstanding of the law regarding the interstate commerce
element, and “[d]ecisions that are based on mistaken beliefs certainly are neither
strategic nor tactical.” Green v. Nelson, 595 F.3d 1245, 1251 (11th Cir. 2010)
(citation omitted). Second, although Mr. Thompson stated in his verified § 2255
motion that conceding guilt was against his wishes, the record is not clear as to what
Mr. Thompson said (or how he reacted) when trial counsel purportedly told him that
admitting guilt on the Taco Bell robbery was the best trial strategy. If Mr. Thompson
21

022A

Case: 14-15179

Date Filed: 08/19/2020

Page: 22 of 22

rejected counsel’s advice and continued to insist that there be no concessions as to
the Taco Bell robbery, then counsel’s unilateral choice was likely structural error
that violated Mr. Thompson’s autonomy as guaranteed by the Sixth Amendment.
See McCoy, 138 S. Ct. at 1511–12. On the other hand, if Mr. Thompson said nothing
about counsel’s proposed strategy, then counsel’s performance might need to be
evaluated under Strickland v. Washington, 466 U.S. 669 (1984), and its progeny.
See Florida v. Nixon, 543 U.S. 175, 178, 181, 192 (2004).
In my view, we should remand for an evidentiary hearing so that the district
court can sort out the facts and evaluate the applicability of McCoy. I therefore
respectfully dissent as to the denial of rehearing on Mr. Thompson’s McCoy claim.

22

023A

Case: 14-15179

Date Filed: 10/17/2019

Page: 1 of 17

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 14-15179
________________________
D.C. Docket Nos. 1:11-cv-02294-TWT,
1:07-cr-00138-TWT-JSA-2

STANLEY JOSEPH THOMPSON,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
_______________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(October 17, 2019)
Before JORDAN, GRANT, and SILER,* Circuit Judges.

*

Honorable Eugene E. Siler, Jr., United States Circuit Judge for the Sixth Circuit, sitting
by designation.

024A

Case: 14-15179

Date Filed: 10/17/2019

Page: 2 of 17

SILER, Circuit Judge:
Stanley Thompson appeals the district court’s denial of his § 2255 motion to
vacate his sentence and his motion for a new trial. We affirm.
In 2007, the Atlanta area experienced a string of robberies that police believed
were connected. Two men held up a Taco Bell, before six separate area banks were
robbed. R. 145 at 29-30; R. 11. In one robbery, a witness saw someone get in and
out of a red Chevrolet Blazer. The witness recorded the license plate, and police
determined the car belonged to Leary Robinson’s estranged wife.
Shortly after a robbery at SunTrust Bank, Atlanta Police Detective Capus
Long stopped the Blazer along Interstate 20. R. 146 at 281-82. Thompson was
driving; Edwin Epps was the passenger. Officers ordered Thompson and Epps out
of the car and began asking questions. Thompson said the car was “a hot box,” and
Detective Long understood that to mean that the car was stolen. Id. at 283.
Thompson was placed in the police car where Long showed Thompson a photograph
of Leary Robinson. Id. at 284. Thompson said that Robinson was staying at the
Intown Suites, and Long gave that information to the FBI. Id. at 284-85.
FBI Agent Chad Fitzgerald then went to Intown Suites, where he learned from
the motel clerk that both Robinson and Thompson had been staying there. R. 146 at
382; 147 at 414. When agents moved in to arrest Robinson, a standoff ensued, but
ended after extended negotiations. R. 146 at 289-91, 310-315. Meanwhile, police
2

025A

Case: 14-15179

Date Filed: 10/17/2019

Page: 3 of 17

had taken Thompson to the Fulton County Jail and received Thompson’s consent to
a search of his room at the Intown Suites. R. 147 at 424. During that search, police
found a pistol that they believed was used in the robberies. R. 146 at 302-03; 30506. Police also found a baseball hat, camouflage pants, and a yellow tablet all
believed to be connected to the crimes. R. 146 at 300-21. Police later searched the
Blazer and found several items of clothing used in the robberies. Id. at 296-319.
Robinson admitted to the robberies except for the Taco Bell holdup and one
of the bank robberies. R. 146 at 327-31. He also admitted using a gun during the
crimes and that he used the Blazer in most of them. A federal grand jury returned a
12-count indictment against Robinson and Thompson, charging them with all eight
robberies. R. 11.
After a joint jury trial, Thompson was convicted of one count of aiding and
abetting an interference with commerce by robbery under 18 U.S.C. § 1951, four
counts of aiding and abetting bank robbery under 18 U.S.C. § 2113(a), two counts
of aiding and abetting bank robbery with a dangerous weapon under 18 U.S.C. §
2113(a), (d), and three counts of aiding and abetting the use or carrying of a firearm
during a crime of violence under 18 U.S.C. § 924(c)(1)(A). R. 109. He was found
not guilty on two other robbery-related counts. Id.

3

026A

Case: 14-15179

Date Filed: 10/17/2019

Page: 4 of 17

We affirmed on direct appeal. United States v. Thompson, 610 F.3d 1335
(11th Cir. 2010). Thompson then filed this motion to vacate, set aside or correct his
sentence under § 2255. R. 168; 171.
Thompson argues that trial counsel was ineffective for (1) waiving a
suppression hearing regarding whether he had made statements to police without
being advised of his rights under Miranda v. Arizona, 384 U.S. 436 (1966), (2)
admitting Thompson’s guilt to robbery during closing arguments; and (3) failing to
move to sever his trial from Robinson’s trial. R. 168 at 7-10.
Thompson also sought a new trial. That request stemmed from a Freedom of
Information Act request that Thompson filed with the U.S. Department of Justice,
which Thompson claimed showed that his fingerprints were not found on demand
notes used in the bank robbery.
A magistrate judge issued a report and recommendation to the district court,
suggesting that Thompson’s motions be denied. R. 189. And without holding an
evidentiary hearing, the district court adopted the report and recommendation,
denied Thompson’s objections, and entered a final judgment. R. 192, 193. The
district court also denied a certificate of appealability (COA). This court granted a
COA on three issues:

4

027A

Case: 14-15179

Date Filed: 10/17/2019

Page: 5 of 17

(1) Whether Thompson received ineffective assistance of counsel with respect to
counsel’s failure to challenge police officers’ questioning of him without
reading him the requisite Miranda warnings.
(2) Whether Thompson received ineffective assistance of counsel based on
counsel’s decision to concede guilt to the charges associated with the Taco
Bell robbery, due to counsel’s erroneous belief that the government had
insufficient evidence to prove that the armed robbery affected interstate
commerce.
(3) Whether Thompson received ineffective assistance of counsel based on
counsel’s failure to move for severance from codefendant Robinson’s trial.
R. 213; 216
In § 2255 motions, we review counsel’s effectiveness de novo, LeCroy v.
United States, 739 F.3d 1297, 1312 (11th Cir. 2014), and denial of an evidentiary
hearing for abuse of discretion, Castillo v. United States, 816 F.3d 1300, 1303 (11th
Cir. 2016). Courts should grant such hearings “[u]nless the motion and the files and
records of the case conclusively show that the prisoner is entitled to no relief.” Id.
(quoting 28 U.S.C. § 2255(b)). Abuse of discretion review also applies to a denial
of a new trial motion. United States v. Campa, 459 F.3d 1121, 1151 (11th Cir. 2006)
(en banc).

5

028A

Case: 14-15179

Date Filed: 10/17/2019

Page: 6 of 17

To prevail on an ineffective-assistance-of-counsel claim Thompson must
show that his counsel’s performance (1) was deficient, and (2) resulted in prejudice.
Strickland v. Washington, 466 U.S. 668, 687 (1984). Strickland’s deficiency prong
is met only when counsel’s performance fell below an objective reasonableness
standard. Id. at 688. Courts “strongly . . . presume[]” that counsel provides adequate
assistance and “made all significant decisions in the exercise of reasonable
professional judgment.” Id. at 690. Thompson must demonstrate “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. “The prejudice prong requires a petitioner
to demonstrate that seriously deficient performance of his attorney prejudiced the
defense.” LeCroy, 739 F.3d at 1312-13 (quoting Butcher v. United States, 368 F.3d
1290, 1293 (11th Cir. 2004)). In the ineffective assistance of counsel context
involving a constitutional suppression issue, prejudice is shown only when the
petitioner demonstrates that “there is a reasonable probability that the verdict would
have been different absent the excludable evidence.” Kimmelman v. Morrison, 477
U.S. 365, 375 (1986).
1. Miranda Warnings. Thompson argues his attorney first erred in failing to
challenge the police officers’ questioning of him without warnings under Miranda
v. Arizona, 384 U.S. 436 (1966). Thompson asserts that authorities failed to provide
Miranda warnings on two separate occasions.

First, he argues that police

6

029A

Case: 14-15179

Date Filed: 10/17/2019

Page: 7 of 17

interrogated him without Miranda warnings during a traffic stop.

Second,

Thompson argues that agents failed to provide Miranda warnings before seeking his
consent to search his hotel room.
a. Questioning During the Traffic Stop
According to Thompson, police never read him his rights when he sat in the
back of the police car, so Thompson claims that subsequent events—including the
search of his hotel room—were tainted. What’s more, Thompson says his counsel
failed to investigate this Miranda problem and never sought suppression of
Thompson’s statements.
The district court rejected this argument, holding that Thompson’s discussion
with Detective Long—which included telling police his address and that Robinson
was at the Intown Suites—fell under Miranda’s “routine booking exception.” R.
189 at 32-33. Under that doctrine, incriminating information can be used against a
defendant who was not given his Miranda warning when the information came in
response to police officer’s questions designed to obtain basic information. United
States v. Sweeting, 933 F.2d 962, 965 (11th Cir. 1991).
After all, Miranda applies only when police conduct an “interrogation” while
the suspect is in “custody.” United States v. Lall, 607 F.3d 1277, 1284 (11th Cir.
2010). And when police are merely asking basic questions for routine information,
they are not “interrogating” the suspect. United States v. Doe, 661 F.3d 550, 567
7

030A

Case: 14-15179

Date Filed: 10/17/2019

Page: 8 of 17

(11th Cir. 2011). Thus, when police questions are “reasonably related to the police’s
administrative concerns,” the answers to those questions need not be excluded.
Pennsylvania v. Muniz, 496 U.S. 582, 601-02 (1990). In addition, a suspect is
usually not in custody during “the temporary and relatively nonthreatening detention
involved in a traffic stop or Terry stop.” Howes v. Fields, 565 U.S. 499, 510 (2012)
(citation omitted).
The record does not support Thompson’s Miranda claims. Officers merely
asked Thompson routine questions regarding where he had been living, which is far
from the coercive interrogation context in which Miranda applies. Officers would
not have known that Long’s question was likely to elicit an incriminating response
even if the information ultimately did so. See Rhode Island v. Innis, 446 U.S. 291,
302 (1980). Moreover, Thompson was not in custody for Miranda purposes. Police
had stopped the Blazer based on reasonable suspicion, something permitted under
Terry v. Ohio, 392 U.S. 1 (1968). And in that context, Miranda warnings are
typically not required. United States v. Acosta, 363 F.3d 1141, 1148 (11th Cir. 2004)
(ruling that Miranda does not apply to Terry traffic stops because “the result would
be that Miranda warnings are required before any questioning could occur during
any Terry stop.”).
To determine if a defendant is in custody during a Terry stop, we ask whether
the stop “exerts upon a detained person pressures that sufficiently impair his free
8

031A

Case: 14-15179

Date Filed: 10/17/2019

Page: 9 of 17

exercise of his privilege against self-incrimination to require that he be warned of
his constitutional rights.” Acosta, 363 F.3d at 1149 (quoting Berkemer v. McCarty,
468 U.S. 420, 437 (1984)). Given the totality of the circumstances, we cannot say
Thompson was at the mercy of the police at the time he spoke with Long. The
questions posed to Thompson were minimal, short, and relevant to the reasonable
suspicion they had about the Blazer (the stolen vehicle). After all, police were
investigating whether this was the Blazer involved and whether Thompson knew
anything about it. Acosta, 363 F.3d at 1146. In such investigatory stops, officers do
not have to read Miranda rights from the get-go. Id. at 1148. Here, police had
reasonable suspicion and asked a few short investigatory questions in a public place,
with no weapons drawn and no force applied, so Thompson was not in custody and
Miranda was not violated.
b. Consent to Search Thompson’s Hotel Room
Thompson also contends that his counsel was ineffective for failing to object
to admission of statements and physical evidence that arose from a search of
Thompson’s hotel room at Intown Suites.
During the investigation and search for co-defendant Robinson at Intown
Suites, FBI agents learned from hotel staff that Thompson had also been staying at
Intown Suites, in room 463. After Robinson’s arrest, agents went to the Fulton
County jail to seek Thompson’s consent to search his hotel room.
9

032A

Case: 14-15179

Date Filed: 10/17/2019

Page: 10 of 17

At the jail, agents identified themselves and asked Thompson if he had been
residing in room 463 at Intown Suites. According to agents, Thompson verified that
he had been staying in room 463. Thus, agents presented Thompson with an FBI
FD26 consent to search form, which Thompson signed. Subsequently, the agents
searched Thompson’s hotel room and discovered evidence that was linked to the
robberies they were investigating.
Thompson claims that the consent to search was illegally obtained because he
was in custody when agents asked for his consent and he was not read Miranda
warnings before he gave consent. But Thompson has failed to demonstrate that
counsel’s failure to object to admission of evidence obtained during this search rises
to the level of ineffective assistance of counsel.
Initially, Thompson has failed to demonstrate that counsel’s failure to object
to admission of this evidence constitutes deficient performance because Miranda
warnings were not required prior to the agents seeking consent to search at the jail.
This court has previously noted that consent to search is not a self-incriminating
statement. See United States v. Hidalgo, 7 F.3d 1566, 1568 (11th Cir. 1993). As
such, when agents asked Thompson to confirm that he had been staying in room 463
and if he would give consent to search, they could not have known or suspected that
Thompson’s statement would illicit an incriminating response. Of course, it is true
that the subsequent search of Thompson’s hotel room led to discovery of
10

033A

Case: 14-15179

Date Filed: 10/17/2019

Page: 11 of 17

incriminating physical evidence, but Thompson’s response to agents’ questions
about consent to search could not have been reasonably expected to illicit an
incriminating statement. As a result, Thompson’s argument that this evidence
should have been suppressed has no merit.
And, since Thompson’s argument has no merit, his trial counsel cannot be
found ineffective for failure to raise a meritless argument. See, e.g., Chandler v.
Moore, 240 F.3d 907, 917 (11th Cir. 2001) (holding that counsel was not ineffective
for failing to raise a meritless argument); United States v. Winfield, 960 F.2d 970,
974 (11th Cir. 1992) (same).
Ultimately, agents were not required to provide Miranda warnings prior to
asking Thompson for his consent to search his hotel room. As such, counsel’s failure
to object to admission of evidence obtained as a result of that consent did not fall
below an objective standard of reasonableness.
Moreover, even if counsel’s performance was deficient, Thompson cannot
show that he was prejudiced by counsel’s failure to object or move to suppress
evidence. Under the inevitable discovery doctrine, the evidence that Thompson
seeks to suppress would have been discovered by lawful means, even assuming the
consent to search was obtained unlawfully.
The inevitable discovery exception to the exclusionary rule allows evidence
that was illegally obtained to be admitted if the government can demonstrate by a
11

034A

Case: 14-15179

Date Filed: 10/17/2019

Page: 12 of 17

preponderance of the evidence that such evidence would have been inevitably or
ultimately discovered by lawful means that were being actively pursued before the
illegal conduct occurred. See Nix v. Williams, 467 U.S. 431, 444 (1984).
Here, agents would have inevitably obtained the physical evidence discovered
from the search of Thompson’s hotel room, even without Thompson’s consent to
search. When agents asked for Thompson’s consent to search, both Thompson and
Robinson had been arrested, and Robinson had confessed to some of the robberies.
Additionally, while Robinson was barricaded in room 463—the hotel room that
belonged to Thompson—agents saw Robinson brandish a pistol. But the pistol was
not discovered when Robinson was taken into custody. As a result, officers had
probable cause to obtain a search warrant to search Thompson’s room, even without
Thompson’s consent to search. Furthermore, as the district court found, the public
safety exception would have justified a warrantless search of Thompson’s hotel
room since the weapon that Robinson brandished was not found on his person when
he was arrested.
In sum, even if Thompson could demonstrate that agents illegally obtained his
consent to search his hotel room, he cannot demonstrate that this evidence should be
suppressed based on the inevitable discovery exception. As a result, even if
counsel’s failure to object and pursue suppression of the physical evidence was
deficient performance, Thompson cannot demonstrate that he was prejudiced by
12

035A

Case: 14-15179

Date Filed: 10/17/2019

Page: 13 of 17

counsel’s performance. As a result, Thompson has failed to demonstrate that
counsel’s failure to object to admission of evidence obtained during a search of his
hotel room rises to the level of ineffective assistance of counsel.
2. Admitted Guilt in Taco Bell Robbery. In McCoy v. Louisiana, 138 S. Ct
1500 (2018), the Supreme Court held that criminal defendants “must be allowed to
make [their] own choices about the proper way to protect [their] liberty,” which
includes the right to “insist on maintaining innocence at the guilt phase.” Id. at 1508.
When counsel does not allow a defendant to maintain his innocence, defendant’s
Sixth Amendment rights are violated. Id. Thompson argues that counsel made a
unilateral decision to admit guilt, which was against Thompson’s wishes.
The government argues that this argument is outside the COA, but even if we
considered it, Thompson fails because his counsel did not admit guilt. Instead,
counsel took a trial strategy, arguing that the government could not prove the
interstate commerce element of Hobbs Act robbery. That does not rise to the level
of admitting guilt since counsel denied an essential element of the crime.
Turns out, of course, that Thompson’s counsel was wrong—so wrong, in fact,
that Thompson thinks he received constitutionally deficient assistance. Under the
Hobbs Act, it is a crime to affect commerce by robbery. 18 U.S.C. § 1951. Only a
small or minimal effect on commerce is needed to prove that element of the crime,
see United States v. Gray, 260 F.3d 1267, 1272 (11th Cir. 2001), which occurs when,
13

036A

Case: 14-15179

Date Filed: 10/17/2019

Page: 14 of 17

for example, the robbery reduces the assets of a company involved in interstate
commerce, see United States v. Ransfer, 749 F.3d 914, 936 (11th Cir. 2014).
So, as Thompson argues, his counsel was incorrect regarding the interstate
commerce element of Hobbs Act robbery—the Taco Bell incident certainly could
meet the minimal threshold required. But Thompson still fails to establish prejudice,
a necessary component of his ineffective assistance claim. See Strickland, 466 U.S.
at 687. As the district court determined, a mound of evidence supported Thompson’s
involvement in the Taco Bell robbery—including pictures and videotape. Indeed,
nothing suggests that the jury would have reached a different outcome on the Taco
Bell count or any other charge. Thus, Thompson has not demonstrated prejudice
and his claim fails.
3. Failure to Move for Severance. Finally, Thompson argues that his counsel
was ineffective because he failed to move to have the trial severed from his
codefendant, Robinson. Thompson says that he suffered prejudice because the jury
heard overwhelming evidence against Robinson, so the jury must have thought
Thompson was also involved.
But again, Thompson fails to demonstrate ineffective assistance. See id. First,
he cannot show deficient performance, because the severance likely would not have
been granted. The government may try codefendants together “if they are alleged to
have participated in the same act or transaction, or in the same series of acts or
14

037A

Case: 14-15179

Date Filed: 10/17/2019

Page: 15 of 17

transactions, constituting an offense or offenses.” Fed. R. Crim. P. 8(a). No doubt,
that is this case. True, defendants can move for severance, but a court will grant
such a motion only when joinder will result in prejudice. Fed. R. Crim. P. 14(a).
And usually “people who are charged together are tried together.” United States v.
Novaton, 271 F.3d 968, 989 (11th Cir. 2001) (citation omitted).
Nor can Thompson establish that had the severance been granted the result of
trial would have been different. Thus, he cannot meet Strickland’s prejudice prong.
466 U.S. at 687. Even if Thompson would have had slightly better odds at trial had
he been tried alone, that does not mean the outcome would have been different—a
burden that Thompson must carry in his § 2255 motion. See Zafiro v. United States,
506 U.S. 534, 540 (1993).
4. Motion for a New Trial. Finally, Thompson argues he is entitled to a new
trial because he has newly discovered evidence contradicting the government’s
contention that his fingerprints were on demand notes used in two of the robberies.
The district court can grant a new trial based on newly discovered evidence if that
motion is filed within three years of the verdict, see Fed R. Crim. P. 33(a)(1), and
the defendant shows: (1) the evidence was discovered after the trial; (2) the
defendant exercised due diligence to discover the evidence; (3) the evidence is not
merely cumulative or impeaching; (4) the evidence is material to issues before the
court; and (5) the evidence is of such a nature that a new trial would probably
15

038A

Case: 14-15179

Date Filed: 10/17/2019

Page: 16 of 17

produce a new result, United States v. Taohim, 817 F.3d 1215, 1223 (11th Cir. 2013).
Such motions are highly disfavored and rarely granted. See Campa, 459 F.3d at
1151.
Thompson received information from a FOIA request that the FBI was not in
possession of so-called “lift images” of Thompson’s fingerprints that the
government contended were on the demand notes. This information, Thompson
argues, shows that his fingerprints were not on the demand notes, and thus the
government’s evidence at trial is undermined.
But the document that Thompson relies on—an FBI declaration—says only
that the lift prints Thompson requested “were taken and processed by the Cobb
County Police Department (CCPD) rendering any processing by the FBI
unnecessary.” R. 187, Ex. A at 8-9. And lift prints are just one type of print. The
FBI declaration further explains that it had latent prints on a demand note used
during the robbery, and those prints were linked to Thompson. Id. at 10. The only
information the declaration presents is that the only “lift prints” in the case were kept
by CCPD, while the FBI had other prints on the demand notes.
This is hardly newly discovered evidence that would have affected the trial.
Taohim, 817 F.3d at 1223. And the district court’s denial of the new trial motion
does not amount to an abuse of discretion. After all, the information shows that both

16

039A

Case: 14-15179

Date Filed: 10/17/2019

Page: 17 of 17

the FBI and CCPD had fingerprint information. This does not undermine the jury’s
verdict and is not a basis for granting a new trial.
We AFFIRM.

17

040A

Case 1:07-cr-00138-TWT-JSA Document 192 Filed 09/30/14 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

UNITED STATES OF AMERICA,
CRIMINAL FILE NO.
v.

1:07-CR-138-2-TWT

STANLEY JOSEPH THOMPSON,
Defendant.

ORDER

This is a criminal case.

It is before the Court on the Report and

Recommendation [Doc. 189] of the Magistrate Judge recommending denying the
Defendant’s Motion to Vacate Sentence [Doc. 168]. The Defendant was convicted by
a jury of participating in a crime spree involving the armed robbery of a Taco Bell and
numerous armed and unarmed bank robberies. His conviction and sentence were
affirmed on direct appeal. In his 74 pages of objections to the Report and
Recommendation, the Defendant largely repeats the arguments that were addressed
and rejected by the Magistrate Judge in the thorough and well-reasoned Report and
Recommendation. No useful purpose would be served in simply repeating what the
Magistrate Judge has already said. The Magistrate Judge was not required to address
the many claims of non-constitutional errors allegedly committed by the prosecutor

041A

Case 1:07-cr-00138-TWT-JSA Document 192 Filed 09/30/14 Page 2 of 2

and the trial judge. All of those errors could have been raised on direct appeal. The
Defendant has not met his burden of showing deficient performance by trial counsel
and has not shown prejudice.

The Court approves and adopts the Report and

Recommendation as the judgment of the Court. The Defendant’s Motion to Vacate
Sentence [Doc. 168] is DENIED. The Defendant’s Motion for New Trial [Doc. 171]
is DENIED. The request for a Certificate of Appealability is DENIED.
SO ORDERED, this 30 day of September, 2014.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

T:\ORDERS\USA\Closed\07\07cr138-2\mvs.wpd

-2-

042A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 1 of 56

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
STANLEY JOSEPH THOMPSON,
BOP Reg. # 59212-019,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

:
:
:
:
:
:
:
:

CIVIL ACTION NO.
1:11-CV-2294-TWT-JSA
CRIMINAL ACTION NO.
1:07-CR-138-TWT-JSA-2
MOTION TO VACATE
28 U.S.C. § 2255

MAGISTRATE JUDGE’S FINAL REPORT AND RECOMMENDATION
Movant has filed the following pleadings: (1) a motion to vacate his sentence
under the authority of 28 U.S.C. § 2255 (Doc. 168); (2) a supplement to his motion to
vacate combined with a motion for new trial (Doc. 171); (3) a supporting brief (Docs.
171-1, 171-2); (4) a motion to waive strict compliance and for liberal construction of
his pleadings, with attached exhibits (Doc. 172); (5) two motions for extensions of
time and two motions requesting the Court’s attention (Docs. 175, 178-80); and
(6) two replies (Docs. 181, 188) to the government’s responses (Docs. 177, 187) to his
§ 2255 motion.
For the reasons set forth below, IT IS RECOMMENDED that the § 2255
motion be DENIED and that the other procedural motions that are pending be denied

AO 72A
(Rev.8/82)

043A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 2 of 56

as moot or otherwise resolved as explained further below.1
I.

Procedural History
In a thirteen-count indictment, the government alleged that Movant and his

co-defendant Leary Robinson “aided and abetted . . . each other” in committing the
following twelve crimes:
1.

the February 8, 2007 armed robbery of a Taco Bell Restaurant, in violation of
18 U.S.C. § 1951 (the Hobbs Act) and 18 U.S.C. § 2;

2.

the knowing use and carry of a firearm, a handgun, “during and in relation to a

1

Prior to serving as a U.S. Magistrate Judge, the undersigned served as an Assistant U.S.
Attorney in the same United States Attorney’s Office (“USAO”) that prosecuted Movant, from
February 25, 2004 through June 1, 2012. The undersigned served as deputy chief of the economic
crime section of the USAO for some of that period. The undersigned recalls no personal or
supervisory involvement over defendant’s case and this case was not one that would have come
under the undersigned’s supervisory responsibilities.
Although no request for recusal has been made, the undersigned will briefly explain why
he has not recused sua sponte. Title 18 U.S.C. § 455(b)(3) requires a judge who previously served
in government to recuse only if the judge actually participated in the case. Mangum v. Hargett, 67
F.3d 80, 83 (5th Cir. 1995). In other words, “a judge is not subject to mandatory disqualification
based on the mere fact that another lawyer in his prior government office served as an attorney on
the matter.” United States v. Champlin, 388 F. Supp. 2d 1177, 1180 (D. Haw. 2005). Several
courts have held that “an Assistant United States Attorney is only disqualified from cases on which
he or she actually participated.” Id. at 1181 (citing United States v. Ruzzano, 247 F.3d 688, 695
(7th Cir. 2001) (“As applied to judges who were formerly AUSAs, § 455(b)(3) requires some level
of actual participation in a case to trigger disqualification.”); Mangum, 67 F.3d at 83 (same);
Kendrick v. Carlson, 995 F.2d 1440, 1444 (8th Cir. 1993) (same). “[T]he same rule applies to
former supervisors in the United States Attorney’s office; § 455(b)(3) requires recusal only when
the supervisor actually participated in a case.” Champlin, 388 F. Supp. 2d at 1181; see also United
States v. Scholl, 166 F.3d 964, 977 (9th Cir. 1999); United States v. Di Pasquale, 864 F.2d 271, 279
(3d Cir. 1988). As the undersigned was uninvolved in this case and otherwise perceives no ground
for recusal, the Court does not sua sponte find that recusal is warranted.

2

AO 72A
(Rev.8/82)

044A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 3 of 56

crime of violence,” i.e., the count 1 armed robbery, in violation of 18 U.S.C.
§§ 924(c)(1)(A) & 2;
3.

the February 12, 2007 robbery of a Suntrust Bank, in violation of 18 U.S.C.
§§ 2113(a) & 2;

4.-5. the February 12, 2007 armed robbery of a Bank of America, in violation of
18 U.S.C. §§ 2113(a), (d) & 2, and a second firearm count;
6.-7. the February 21, 2007 armed robbery of a Wachovia Bank, and a third firearm
count;
8.-9. the February 21, 2007 armed robbery of a Bank of America, and a fourth
firearm count;
10.

the March 14, 2007 robbery of a Bank of America;

11.

the March 19, 2007 robbery of a Bank of America;

12.

the March 26, 2007 robbery of a Suntrust Bank.

(Doc. 11).
The government has summarized the factual and procedural history of this case
as follows:
During the month of February, 2007, [Movant] and his codefendant Leary Robinson went on a robbing spree, robbing a Taco Bell
and seven banks. Robinson was the one who usually went into the banks,
four times with a gun, while [Movant] acted as getaway driver and
demand note writer among other roles. In the Taco Bell robbery, Counts
1 and 2, both defendants were armed and both went into the store to
commit the robbery. The robbery was videotaped and shown to the jury.
This [was the] first robbery [and] occurred on February 8, 2007 . . . . The
3

AO 72A
(Rev.8/82)

045A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 4 of 56

rest of the armed and unarmed robberies were of federally insured banks.
On April 24, 2007 [Movant] and his co-defendant . . . were indicted
by a federal grand jury for four counts of armed robbery, four counts of
using a firearm during a crime of violence, and four counts of unarmed
robbery . . . . Attorney Robert Lee Mack was appointed by the Magistrate
Judge to represent [Movant]. The case against both defendants on all
counts went to trial before a jury on February 26, 2008. The jury verdict
was read on February 29, 2008, and [Movant] was found guilty on [all]
Counts . . . . [except] 6 and 7. . . .
[Movant] was sentenced on June 23, 2008 as follows: on Counts
1, 3, 4, 8, 10, 11, and 12 [the robberies] to 135 months imprisonment . . .,
all concurrent; on the 924(c) [firearm] charges: Count 2: 84 months
consecutive to all counts, Count 5: 300 months consecutive to all counts,
[and] Count 9: 300 months consecutive to all counts, for a total of 819
months [68 years and 3 months] . . . .
(Doc. 177 at 4-5 (citations omitted)).
The Eleventh Circuit stated the following with respect to the joint appeal filed
by Movant and Robinson:2
After review of the record, we find that, at the time the
Government rested its case-in-chief, there was sufficient evidence to
support [Movant’s] convictions on the firearms violations charged in
counts five and nine. With respect to count five, a Bank of America teller
testified during the Government’s case-in-chief that she was robbed by
Robinson on February 12, 2007, and that Robinson had a black gun

2

The Eleventh Circuit noted that the defendants had moved for a judgment of acquittal only on
firearm counts 2, 5, 7 and 9 and robbery counts 1 and 6, and not on robbery counts 3, 4, 8, 10, 11
and 12; that they had argued insufficiency of the evidence only on the firearm counts and robbery
count 6; and that they had been acquitted of counts 6 and 7. (Doc. 167 at 5-7).

4

AO 72A
(Rev.8/82)

046A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 5 of 56

during the robbery. With respect to count nine, a different Bank of
America teller testified that he was robbed on February 21, 2007. That
teller identified Robinson as the robber and said that, during the robbery,
Robinson had pulled a black gun that “looked like a Glock” out of a
folder and pointed it at the teller. Photos introduced during the teller’s
testimony depict Robinson, pointing a gun at the teller. Robinson gave a
statement to law enforcement that he used a .380 semi-automatic pistol
in seven of the robberies with which he was charged; and he said that was
the gun shown in one of the photos of the robbery associated with count
nine. Evidence of these statements was introduced in the Government’s
case-in-chief.
This was sufficient evidence for a reasonable jury to conclude,
beyond a reasonable doubt, that Robinson used a firearm during these
robberies. And, we find meritless [Movant’s] argument that no evidence
presented in the Government’s case-in-chief suggested that [Movant]
knew Robinson would use a firearm during these robberies. During the
Government’s case-in-chief, the jury heard witness testimony and saw
video evidence that [Movant] had participated in the previous Taco Bell
robbery with Robinson and that firearms were used in that robbery.
Indeed, [Movant] does not challenge his convictions for those crimes,
charged in counts one and two. Because [Movant] had previously
committed an armed robbery with Robinson, a reasonable jury could
conclude that [Movant] knew that Robinson would use a firearm in
subsequent robberies.
And, we find no manifest miscarriage of justice in upholding
[Movant’s] convictions on the bank robbery convictions that [Movant]
now challenges (counts three, four, eight, ten, eleven, and twelve).
Witnesses to several of the robberies testified that, in arriving at or
leaving the robberies, Robinson entered or exited from the passenger side
of the vehicle used in the crime. Several witnesses testified that the
getaway vehicle was a red SUV, possibly a Chevrolet Blazer. When
[Movant] was arrested, he was driving a red Chevrolet Blazer that
belonged to Robinson or Robinson’s wife. [Movant’s] fingerprints were
5

AO 72A
(Rev.8/82)

047A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 6 of 56

on the demand notes used in the count four and twelve robberies.
Robinson testified that he committed each of these robberies, that
he was driven to each of the robberies by another person, and that he split
the proceeds of each of the robberies with that same person. Robinson
also testified that the same person who drove him to the robberies wrote
the demand notes used in the robberies. And, while Robinson denied that
[Movant] was his accomplice in these crimes, he admitted that his
accomplice went by the nickname J.T. and that [Movant] “probably”
went by that nickname.
Witness Kevin Dunbar testified that he overheard a telephone
conversation between Robinson and someone called J.T. in which
Robinson discussed that Robinson and J.T. had used a third party’s car
to do something wrong and that the third party did not want anything to
do with that. And, Dunbar testified that, on one occasion, he dropped
[Movant] off at a hotel, and [Movant] introduced Robinson as his partner.
The record evidence supports the conclusion that [Movant] was
Robinson’s partner in the crimes—planning the robberies, driving the
getaway cars, penning the demand notes, and splitting the proceeds.
Therefore, we find no manifest miscarriage of justice in upholding
[Movant’s] convictions.
(Doc. 167 at 8-10 (citations omitted)).
II.

Movant’s Claims
Movant alleges that trial counsel provided ineffective assistance by

1.

failing to protect Movant’s Sixth Amendment Confrontation Clause rights by
allowing Det. Allen, a fingerprint analyst with the Cobb County Police
Department (“CCPD”), to testify that Officer Bishop (formerly also of the
CCPD), who did not testify, found two latent prints (belonging to Robinson) on
the front of the February 12 demand note “and then he [Allen] came along and
6

AO 72A
(Rev.8/82)

048A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 7 of 56

found the ‘3rd’ p[r]int,” which testimony Movant argues was false because the
record “clearly shows” that Allen found the first two prints himself;
2.

allowing Allen to testify that Eric Rich verified the third print, even though Rich
was not at Movant’s trial and his qualifications are unknown, in violation of (a)
Movant’s Confrontation Clause rights because Allen “testified to the ‘finding’
of another analyst” and (b) Daubert3 and Fed. R. Evid. 7024 “because [Allen’s]
finding was not verified” by a second qualified examiner;

3.

allowing Melissa Gische of the Federal Bureau of Investigation (“FBI”) to
testify “to the ‘processing’ aspect of the demand note for the 3-26-07 Suntrust
robbery” despite there being “no evidence of who processed this note,” in
violation of Daubert and Fed. R. Evid. 702 “because she negated the analysis
aspect of ACE-V [analysis, comparison, evaluation and verification] which
requires a qualitative and quanti[ta]tive assessment of the processing technique
applied,” impossible here because “it is not established who[] processed the
note”;

4.

allowing into evidence “without proper authentication” a “tablet” “said to
contain divided numbers similar to bank robbery proceeds”;

3

Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993), requires trial courts to screen
out speculative, unreliable expert testimony.

4

Federal Rule of Evidence 702 (Testimony of Expert Witnesses) provides as follows:
A witness who is qualified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge
will help the trier of fact to understand the evidence or to determine
a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the
facts of the case.

7

AO 72A
(Rev.8/82)

049A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 8 of 56

5.

not putting to the test whether Movant’s consent to search was valid and not
ensuring that Movant had been given the proper Miranda5 warnings before
being interrogated;

6.

allowing Det. Allen to testify that he found a third print on the February 12
demand note one year after the note was first processed, despite there being no
latent prints or lifts to compare to Movant’s fingerprints and despite Allen’s
failure to “give an assessment of the processing techniques,” in violation of
Daubert and Fed. R. Evid. 702;

7.

not objecting or moving for a mistrial or moving to strike the testimony of a
“government witness who offered ‘evaluation’ without ‘surrogate proof’ ”;

8.

not objecting to Det. Allen’s testimony that deviated from the verification
requirement of the ACE-V methodology used to identify fingerprints;

9.-10.

not objecting to Gische’s testimony that deviated from ACE-V
methodology, in particular by failing to present testimony as to who
verified her work;6

11.

admitting Movant’s guilt to the count 1 armed robbery;

12.

not moving for acquittal on all counts and not offering argument or evidence in
support of Movant’s motion for acquittal except as to count 1;

13.

not objecting properly to the delay in Movant’s receipt of, and to the contents
of, his Presentence Investigation Report (“PSR”);

14.

not moving to sever his trial from Robinson’s;

5

Miranda v. Arizona, 384 U.S. 436 (1966), prohibits the questioning of a person in custody about
his suspected crimes without first advising him of his right to remain silent and his right to an
attorney.
6

In his supporting brief, Movant adds a claim 9a regarding the chain of custody for the March 26
demand note that Gische allegedly analyzed for fingerprints. (Doc. 171-2 at 39 et seq.).

8

AO 72A
(Rev.8/82)

050A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 9 of 56

15.

not objecting to misleading jury instructions; and

16.

not requesting funds for the services of an expert and not preparing an adequate
defense.

(Doc. 168 at 4-5, 7-11; Doc. 172 at 2-4; see Doc. 177 at 2-3). Movant has also raised
Brady and Giglio claims and moved for a new trial based on newly discovered
evidence (Doc. 171 at 1-19), as discussed below.
III.

Standard of Review: Ineffective Assistance of Counsel
A federal prisoner may file a motion to vacate his sentence “upon the ground

that the sentence was imposed in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise subject to
collateral attack.” 28 U.S.C. § 2255(a). It is well-settled that “to obtain collateral relief,
a prisoner must clear a significantly higher hurdle than would exist on direct appeal.”
United States v. Frady, 456 U.S. 152, 166 (1982). “[N]onconstitutional claims can be
raised on collateral review only when the alleged error constitutes a ‘fundamental
defect which inherently results in a complete miscarriage of justice [or] an omission
inconsistent with the rudimentary demands of fair procedure.’ Reed v. Farley, 512
U.S. 339, 348 (1994).” Burke v. United States, 152 F.3d 1329, 1331 (11th Cir. 1998)

9

AO 72A
(Rev.8/82)

051A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 10 of 56

(citation altered and internal quotations omitted).
The Supreme Court set forth the standard for evaluating claims of ineffective
assistance of counsel in Strickland v. Washington, 466 U.S. 668 (1984); see Dell v.
United States, 710 F.3d 1267, 1272 (11th Cir. 2013) (applying Strickland standard of
review to ineffective-assistance-of-counsel claim raised in § 2255 motion). “An
ineffectiveness claim . . . is an attack on the fundamental fairness of the proceeding
whose result is challenged.” Strickland, 466 U.S. at 697. The analysis involves two
components, but a court need not address both if the movant “makes an insufficient
showing on one.” Id.
First, the court determines “whether, in light of all the circumstances, the
identified acts or omissions [of counsel] were outside the wide range of professionally
competent assistance.” Id. at 690. The court “must be highly deferential” in
scrutinizing counsel’s performance and “must indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance.”
Id. at 689. In other words, the movant “must overcome the presumption that, under the
circumstances, the challenged action might be considered sound trial strategy.” Id.
(Internal quotations omitted). “Given the strong presumption in favor of competence,
the

[movant’s] burden

of

persuasion—though

the

presumption

is

10

AO 72A
(Rev.8/82)

052A

not

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 11 of 56

insurmountable—is a heavy one.” Chandler v. United States, 218 F.3d 1305, 1314
(11th Cir. 2000) (en banc). Second, the court determines whether counsel’s challenged
acts or omissions prejudiced the movant, i.e., whether “there is a reasonable
probability”—one “sufficient to undermine confidence in the outcome”—that “but for
counsel’s unprofessional errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694.
Surmounting Strickland’s high bar is never an easy task. An ineffectiveassistance claim can function as a way to escape rules of waiver and
forfeiture and raise issues not presented at trial, and so the Strickland
standard must be applied with scrupulous care, lest intrusive post-trial
inquiry threaten the integrity of the very adversary process the right to
counsel is meant to serve. Even under de novo review, the standard for
judging counsel’s representation is a most deferential one. Unlike a later
reviewing court, the attorney observed the relevant proceedings, knew of
materials outside the record, and interacted with the client, with opposing
counsel, and with the judge. It is all too tempting to second-guess
counsel’s assistance after conviction or adverse sentence. The question
is whether an attorney’s representation amounted to incompetence under
prevailing professional norms, not whether it deviated from best practices
or most common custom.
Harrington v. Richter, 131 S. Ct. 770, 788 (2011) (citations and internal quotations
omitted).
“In reviewing whether counsel’s performance was deficient, [courts in this
circuit are to] give particular deference to counsel’s decisions on matters of trial

11

AO 72A
(Rev.8/82)

053A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 12 of 56

strategy.” Perez v. United States, 435 Fed. Appx. 820, 823 (11th Cir. 2011) (citing
Rogers v. Zant, 13 F.3d 384, 386 (11th Cir. 1994); Strickland, 466 U.S. at 690
(“[S]trategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengable.”)). “ ‘[C]ounsel cannot be adjudged
incompetent for acting in a particular way in a case, as long as the approach taken
might be considered sound trial strategy.’ ” Zakrzewski v. McDonough, 455 F.3d
1254, 1258 (11th Cir. 2006) (quoting Chandler, 218 F.3d at 1314) (internal quotations
omitted).
The burden of establishing prejudice under the Strickland test is “heavy where
the [movant] alleges ineffective assistance in failing to call a witness because often
allegations of what a witness would have testified to are largely speculative.” Sullivan
v. Deloach, 459 F.3d 1097, 1109 (11th Cir. 2006) (internal quotations omitted); see
also Conklin v. Schofield, 366 F.3d 1191, 1204 (11th Cir. 2004) (“ ‘Which witnesses,
if any, to call, and when to call them, is the epitome of a strategic decision, and it is
one that we will seldom, if ever, second guess.’ ” (emphasis added) (quoting Waters v.
Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995) (en banc)); see Thomas, 46 F.3d at 1514
(“The mere fact that other witnesses might have been available or that other testimony
might have been elicited from those who testified is not a sufficient ground to prove
12

AO 72A
(Rev.8/82)

054A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 13 of 56

ineffectiveness of counsel.” (internal quotations omitted)).
Likewise, a claim based on counsel’s failure to properly cross-examine a
prosecution witness is a difficult one to establish.
Absent a showing of a single specific instance where cross-examination
arguably could have affected the outcome of either the guilt or sentencing
phase of the trial, a [movant] is unable to show prejudice necessary to
satisfy the second prong of Strickland. Ineffective assistance . . . will not
be found merely because other testimony might have been elicited from
those who testified, though [the Eleventh Circuit has] found ineffective
assistance where counsel failed to impeach the key prosecution witness
with prior inconsistent testimony where the earlier testimony was much
more favorable to the defendant. Though counsel may have performed
deficiently in failing to impeach a witness, the defendant must still
demonstrate that prejudice resulted from the deficient cross-examination.
Broadwater v. United States, 347 Fed. Appx. 516, 519-20 (11th Cir. 2009) (citation
and internal quotations omitted); see also Fugate v. Head, 261 F.3d 1206, 1219 (11th
Cir. 2001).
IV.

Discussion
A.

Grounds 1-3, 6-10, 16: The Expert Fingerprint Testimony

Movant has presented lengthy arguments regarding the alleged discovery of his
fingerprints on the February 12 and March 26 bank robbery demand notes. (Doc. 1711 at 34-66; Doc. 171-2 at 2-59). He argues that the testimony of Allen and Gische
about the prints does not qualify as expert fingerprint testimony for a number of
13

AO 72A
(Rev.8/82)

055A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 14 of 56

reasons, including (1) the questionable qualifications of each witness; (2) the
mysterious circumstances surrounding Allen’s eleventh-hour discovery of Movant’s
fingerprint on the back of the February 12 note, a year after the use of a developing
agent that causes prints to fade over time; (3) the failure of the method used in
identifying his fingerprints on each note to conform to the ACE-V methodology for
fingerprint identification; (4) the failure of Gische to identify who processed the prints
on the March 26 note and the processing method used; and (5) the absence of proof of
the chain of custody for the March 26 note presented at trial to authenticate it as the
same note recovered from the March 26 bank robbery.
Movant also claims that his Sixth Amendment Confrontation Clause rights were
violated because neither Eric Rich, who allegedly verified Allen’s identification of
Movant’s print on the February 12 note, nor the unknown person who processed the
prints on the March 26 note nor the agent who verified Gische’s fingerprint
identification was called to testify. Movant asserts that allowing Allen’s and Gische’s
testimony into the trial regarding the identification of Movant’s fingerprints on the two
demand notes without a serious challenge from trial counsel constituted ineffective
assistance. (See generally Doc. 171-1 at 34-66; Doc. 171-2 at 2-59).
Movant states further that the two demand notes that allegedly contained his
14

AO 72A
(Rev.8/82)

056A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 15 of 56

fingerprints were critical pieces of evidence at his trial. Nevertheless, trial counsel did
not hire a defense fingerprint expert as a counter weight to the testimony of the
fingerprint experts who testified for the government and to help counsel prepare a
more vigorous and probing cross-examination of the government experts on a range
of topics relevant to the proper methodology for fingerprint identification. (Doc. 171-2
at 129-36). According to Movant:
An independent examiner would have been able to determine if [his]
fingerprints were indeed on the demand note, also the independent
examiner would have helped counsel to understand the process of
fingerprint identification. This·understanding would have given counsel
‘interknowledge’ [sic] of the science of fingerprinting which would have
resulted in an adequate defense. Counsel would have known the
probability of a[] print retaining clarity after one year’s time, or if it is
even possible. The independent examiner would have relayed to counsel
how processing is done, so the theory that no one looked on the back of
the note would have prompted counsel to cross-examine not only
vigorously, but with precise or ‘scientific’ questioning. Movant’s counsel
basically sat in trial and listened to a field of evidence in which he had no
familiarity; a reasonable attorney/counsel would have moved for an ex
parte hearing, so the court could determine if an independent examiner’s
services were applicable or needed for an adequate defense for the case
at hand pursuant to U.S.C. § 3006A(e). It is below professional norms for
counsel to take a case in which fingerprint evidence is relied on heavily
by the government and not take one step to learn about the evidence
himself or to get his own tests done by an examiner.
(Id. at 131-32).
Another judge in this Court has recently explained the use of fingerprint
15

AO 72A
(Rev.8/82)

057A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 16 of 56

identification evidence as follows:
In Daubert, the Supreme Court “emphasized the district court’s
‘gatekeeping’ role to ensure that scientific testimony is relevant and
reliable before it is admitted as evidence.” Sciele Pharma, Inc. v.
Brookstone Pharm., LLC, No. 1:09-CV-3283-JEC, 2011 U.S. Dist.
LEXIS 97216, at *6 (N.D. Ga. Aug. 30, 2011) (citation omitted) (quoting
Daubert, 509 U.S. at 589-90). “In determining the admissibility of expert
testimony under Rule 702, district courts must consider whether the
expert can testify competently on the areas he intends to discuss, whether
the expert’s methodology is sufficiently reliable, and whether the expert’s
testimony, through the application of his scientific, technical, or
specialized expertise, will assist the trier of fact to understand the
evidence.” United States v. Jayyousi, 657 F.3d 1085, 1106 (11th Cir.
2011) (citation omitted). In addition, the Daubert opinion identifies
several factors that may be relevant in determining the admissibility of
expert testimony under Rule 702:
(1) whether the expert’s technique or theory can be or has
been tested—that is, whether the expert’s theory can be
challenged in some objective sense, or whether it is instead
simply a subjective, conclusory approach that cannot
reasonably be assessed for reliability; (2) whether the
technique or theory has been subject to peer review and
publication; (3) the known or potential rate of error of the
technique or theory when applied; (4) the existence and
maintenance of standards and controls; and (5) whether the
technique or theory has been generally accepted in the
scientific community.
Adams v. Lab. Corp. of Am., No. 1:10-cv-3309-WSD, 2012 U.S. Dist.
LEXIS 13582, at *9 (N.D. Ga. Feb. 3, 2012) (citing Daubert, 509 U.S. at
593-94).
“The Daubert inquiry is a flexible one, giving district courts great latitude
16

AO 72A
(Rev.8/82)

058A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 17 of 56

in determining which of the Daubert factors, if any, are appropriate in
assessing the admissibility of expert testimony in a particular case.” Diaz,
2008 U.S. Dist. LEXIS 27477, at *2 (citing Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 141 (1999) (“noting that ‘Daubert’s list of
specific factors neither necessarily nor exclusively applies to all experts
or in every case.’”)); see also Adams, 2012 U.S. Dist. LEXIS 13582, at
*9. “[W]hether the Daubert factors are even pertinent to assessing
reliability in a given case will ‘depend[ ] on the nature of the issue, the
expert’s particular expertise, and the subject of his testimony.’” United
States v. Reddy, No. 1:09-CR-0483-ODE/AJB, 2011 U.S. Dist. LEXIS
68978, at *11 (N.D. Ga. Feb. 24, 2011), adopted by 2011 U.S. Dist.
LEXIS 67187, at *9 (N.D. Ga. June 23, 2011) (second alteration in
original) (quoting Kumho Tire Co., 526 U.S. at 153 (internal marks
omitted)); see also United States v. Brown, 415 F.3d 1257, 1268 (11th
Cir. 2005). Therefore, the court has “considerable leeway in deciding in
a particular case how to go about determining whether particular expert
testimony is reliable.” Kumho Tire Co., 526 U.S. at 152.
Additionally, “Daubert hearings are not required.” Cook ex rel. Estate
of Tessier v. Sheriff of Monroe Cnty., Fla., 402 F.3d 1092, 1113 (11th
Cir. 2005) (citation and internal marks omitted); see also United States
v. Kyler, 429 F. App’x 828, 830 (11th Cir. 2011) (per curiam)
(unpublished) (citation omitted) (“[A] formal Daubert hearing is not
required in every case.”). Rather, “[t]he decision of whether to conduct
a Daubert hearing in a particular case is discretionary.” Abrams v. Ciba
Specialty Chems. Corp., No. 08-0068-WS-B, 2010 U.S. Dist. LEXIS
19165, at *1 n.1 (S.D. Ala. Mar. 2, 2010) (collecting cases); see also
United States v. Hansen, 262 F.3d 1217, 1234 (11th Cir. 2001) (per
curiam). Thus, “[a]lthough the Court must ensure that expert testimony
is reliable and admissible, there is nothing in Kumho Tire or Daubert that
requires the Court to conduct a pre-trial evidentiary hearing if the expert
testimony is based on well-established principles.” United States v.
Cooper, 91 F. Supp. 2d 79, 82 (D.D.C. 2000) (citing United States v.
Nichols, 169 F.3d 1255, 1263 (10th Cir. 1999) (“pre-trial hearing not
required because ‘the challenged evidence does not involve any new
17

AO 72A
(Rev.8/82)

059A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 18 of 56

scientific theory and the testing methodologies are neither new nor
novel’”)). “‘Accordingly, where expert testimony is based on
well-established science, the courts generally have concluded that
reliability problems go to weight, not admissibility.’” Id. (quoting 29
Charles A. Wright & Victor James Gold, Federal Practice and Procedure
§ 6266 (1st ed. 1982)).
United States v. Campbell, No. 1:11-cr-00460-AT-RGV, 2012 U.S. Dist. LEXIS
86799, at *10-14 & n.5 (N.D. Ga. April 19) (footnote omitted) (emphasis added)
(citations altered or omitted) (noting “that ‘there are instances in which a district court
may determine the reliability prong under Daubert based primarily upon an expert’s
experience and general knowledge in the field.’” Reddy, 2011 U.S. Dist. LEXIS 68978,
at *11 n.16 (citing Kilpatrick v. Breg, Inc., 613 F.3d 1329, 1336 (11th Cir. 2010)
(citation omitted))), adopted by 2012 U.S. Dist. LEXIS 86798 (N.D. Ga. June 22,
2012).
In Campbell, a government fingerprint expert prepared a report that described
in detail the ACE-V methodology he used to identify the defendant’s latent prints:
(1) the analysis phase, in which he found “a sufficient quality and quantity of friction
ridge detail in the fingerprints to individualize them”; (2) the comparison phase, in
which he compared the lift prints with the rolled prints of the defendant on “three
separate levels”; (3) the evaluation phase, “at which time he reached his conclusion as

18

AO 72A
(Rev.8/82)

060A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 19 of 56

to the identity of the fingerprints”; and (4) the verification phase, during which a
“second examiner proceeded through the three phases of the identification process
listed above and came to his/her own conclusion as to the identification of the
fingerprints.” Id. at *6-8, 19 (recommending that no Daubert hearing was necessary
in that case).
Campbell made no mention of a report or proffered testimony of the second
examiner who verified the analyst’s results or of any agent who might have prepared
the latent prints for analysis. See Galiana v. McNeil, No. 08-20705-CIV, 2010 U.S.
Dist. LEXIS 82333, at *57 (S.D. Fla. July 5) (“Persuasive authority exists that the
Confrontation Clause does not require an expert to have performed the actual
laboratory work to permissibly testify with regard to conclusions he or she has drawn
from the results of that laboratory work.”),7 adopted by 2010 U.S. Dist. LEXIS 82325
7

See McNeil, 2010 U.S. Dist. LEXIS 82333, at *61-62, citing United States v. Turner, 591 F.3d 928,
930 (7th Cir. 2010), where a supervising chemist testified about the substances purchased from a
defendant even though he had not performed the actual test on the substances. The supervisor, a
senior chemist who headed the drug identification unit in a state crime laboratory, testified about
the procedures employed in his laboratory for processing and testing substances, including the
calibration of machines each day they were used and the use of blank samples to avoid
contamination or carryover from previous testing. Id. He also described how substances were tested,
and explained that each chemist's analysis was required to undergo a peer review. Id. at 930-31.
Based on his peer review of the work of the chemist who had tested the sample connected with the
defendant, including that other chemist's report, her handwritten notes, and the machine-generated
data, the supervisor was able to reach an opinion about the nature of the substance connected to the
defendant. Id. at 931. . . . [T]he court found no Confrontation Clause problem with allowing the
government’s expert witness to rely on information gathered and produced by a laboratory

19

AO 72A
(Rev.8/82)

061A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 20 of 56

(S.D. Fla. Aug. 12, 2010).
Detective McEntyre of the CCPD testified that his investigators discovered the
two demand notes at issue here at bank robberies on February 12 and March 26 (Gov’t
Exs. 16-A and 14-A, respectively), and he identified them at trial by his name on the
outside of the bag containing Exhibit 16-A and by his recollection of a photograph
taken of Exhibit 14-A at the crime scene. (Doc. 146 (Trial Tr. II) at 30-36). McEntyre
testified that he processed the February 12 note at the CCPD with Ninhydrin, a fixing
agent that turns fingerprints purple, and a steam iron, to accelerate the chemical
process by which prints become visible, and then hung the note up to dry. (Id. at 30-31
(noting that “Ninhydrin can possibly take days to actually react and sometimes weeks,
in my experience, to show prints”), at 33-34). McEntyre testified that the March 26
note also had been processed, although he had not processed it. (Id. at 36).
Gische’s experience and credentials as a fingerprint expert appeared to be more
than sufficient and there was no winning objection to be made, and none was offered,
to her being declared an expert in the field of fingerprint identification. (Id. at 59-63).
Gische testified that she recognized the March 26 demand note (Gov’t Ex. 14-A) by
her initials on the back of the note. (Id. at 66). After explaining how she applied the
employee who did not testify. Id. at 932-33.

20

AO 72A
(Rev.8/82)

062A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 21 of 56

ACE-V methodology to the note, she testified that she had identified four of Movant’s
prints on the note. (Id. at 63-68; see id. at 70-71).
Movant’s many claims on the fingerprint issue involve the failure of trial
counsel to object to the testimony of the government experts due to the alleged
inadequacy of their credentials or findings, his failure to cross-examine them
vigorously enough, or his failure to object to their testimony about the findings or work
of other agents or fingerprint experts who did not testify at Movant’s trial.8 In short,
these were all matters of trial strategy, and as the caselaw set forth above indicates,
such matters are not to be second-guessed except in the most extreme circumstances.
Such circumstances do not exist here.
For instance, Movant objects to the failure of his attorney to object to Det.
Allen’s testimony referring to a verification by Eric Rich of the fingerprint on the
February 12 note. Movant cites no cases, and the Court can find none sua sponte,

8

In his reply brief, Movant emphasizes that he does not object to fingerprint identification in
general, but only to the way it was conducted by the two fingerprint experts who claimed to have
identified his prints on two separate demand notes because their testimony was insufficient
regarding the analysis and verification phases of the ACE-V methodology, in large part because
there was no testimony from the expert who verified the findings of either testifying expert or from
the unknown agent who prepared the lift prints for Gische to analyze. He also objects to the faulty
chain of custody regarding the note that Gische analyzed, arguing that there is no proof that she
actually analyzed a note taken from the March 26 bank robbery scene. (Doc. 181 at 8-24; 54-61;
63-71).

21

AO 72A
(Rev.8/82)

063A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 22 of 56

finding that a fingerprint examiner’s mere reference that his examination was verified
pursuant to the ACE-V procedure violates the Confrontation Clause. Nevertheless, the
Court assumes for purposes of this discussion that Rich’s fingerprint verification was
a testimonial statement pursuant to Crawford v. Washington, 541 U.S. 36, 61 (2004).9
The question remains whether it could have been a plausible trial strategy for
counsel not to object. The Court finds that this could have been the result of a rational,
tactical decision. At the outset, the lack of clear precedent on the applicability of the
Sixth Amendment on this question at the time of trial is relevant and may have
rationally contributed to a decision that the chance of success for an objection was
unclear. And counsel could have rationally considered that an objection on this ground
– successful or not – might only have caused the prosecution to actually call Eric Rich
as a witness, in which case he might have explained his verification and his own
credentials in far more detail than the brief reference at trial. In that circumstance,

9

Not all forensic work by law enforcement experts constitutes testimonial hearsay, notwithstanding
that it is necessarily conducted under the shadow of potential future court action. The Supreme
Court, in cases decided mostly after Movant’s trial, has distinguished between forensic reports
prepared for the purpose of attempting to prove the guilt of a particular defendant at trial, which are
generally testimonial in nature, and work conducted for the purposes of investigating and
attempting to identify the perpetrators of a crime, which is generally not. See Williams v. Illinois,
132 S. Ct. 2221, 2242 (2012). Moreover, “[f]or violations of the Confrontation Clause, harmless
error occurs where it is clear beyond a reasonable doubt that the error complained of did not
contribute to the verdict obtained.” United States v. Caraballo, 595 F.3d 1214, 1229 (11th Cir.
2010) (internal quotations omitted).

22

AO 72A
(Rev.8/82)

064A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 23 of 56

Movant would be faced with the live testimony of not just one examiner but two
examiners who the jury might find qualified. Counsel could have rationally considered
that Movant was better off dealing with the testimony of only one live expert on this
issue, who was subject to substantial impeachment.
Indeed, trial counsel extensively cross-examined Allen about the confusion
regarding how many fingerprints had been discovered on the February 12 note, when
they were discovered, and by whom. (See Doc. 146 at 116-21). A focus of this crossexamination was on what Movant clearly believes to be suspicious circumstances, in
which the investigators somehow only found Movant’s print on the note shortly before
trial notwithstanding that it had been analyzed originally many months before. (Id.)
It appears that counsel sought to impeach Allen specifically and the investigation
generally with this line of questioning. By not objecting to Allen’s brief reference to
Rich, counsel may have helped ensure that the only witness on the issue of Movant’s
fingerprints on the February 12 note was one subject to this line of impeachment.
Moreover, even if an objection had succeeded in excluding this testimony, that would
have denied counsel the opportunity to highlight the supposedly late-discovered
fingerprint to the jury as a suggestion of investigative incompetence (or worse).
Counsel may have decided as a matter of trial tactics that the admission of this
23

AO 72A
(Rev.8/82)

065A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 24 of 56

evidence, on balance, helped Movant in this regard, especially if it was limited to the
testimony of just Allen.
As for Gische’s testimony, she did not even refer to the findings of another
fingerprint expert. Instead, she described how she matched the fingerprints she was
given on the February 26 note to Movant. (See id. at 66-71). She also testified that the
February 26 note that was introduced into evidence as Exhibit 14-A had her initials on
the back of the note, so she knew that it was the same note that she had examined to
find Movant’s prints. (Id. at 66). Movant provides no basis for this Court to find that
counsel had a winning objection to make with regard to this testimony.
As for the failure of trial counsel to obtain a defense expert on fingerprint
analysis, Movant offers nothing more than speculation as to what that hypothetical
expert may have testified to. It may simply have been impossible to find one who
would testify that the methodology used by Allen and Gische was anything less than
the proper method to match lift prints to known fingerprints or that the matched prints
did not belong to Movant. Movant has offered no real evidence to indicate otherwise
except for his own beliefs as to what procedures should have been employed.10 That

10

It appears that Movant misunderstands the analysis phase of the ACE-V methodology. Analysis
requires a determination of whether a lift print has sufficient qualitative and quantitative clarity to
be used for identification, which determination may require consideration of any “noise” introduced

24

AO 72A
(Rev.8/82)

066A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 25 of 56

is not enough to establish that counsel was unconstitutionally incompetent for failing
to procure and call a fingerprint expert.
Finally, even if counsel could be said to have acted deficiently with regard to his
opposition to the prosecution’s fingerprint evidence, Movant fails to surmount his
burden to show actual prejudice. With the lack of clear precedent at the time of trial,
it is not clear whether a Confrontation Clause objection would have been sustained.
More generally, it is not evident that Allen’s mere reference to Rich’s out-of-court
“verification” would have added any weight to the government’s case above and
beyond the jury’s assessment of Allen’s independent work and his credibility at trial.
If the jury believed Allen, then it likely would have credited his own independent
analysis, and Rich’s “verification” would have been immaterial. If the jury disbelieved
Allen or found him to be incompetent, then it would seem unlikely that the jury would
nevertheless have credited his fingerprint examination merely because he conclusorily
testified that another officer with unknown credentials “verified” it. And this
fingerprint evidence was only part of the evidence introduced against Movant. As the
Eleventh Circuit found in sustaining Movant’s convictions, the jury saw and heard

into the print by the processing of it. Nothing Movant cites establishes that the testifying expert
must personally process the print.

25

AO 72A
(Rev.8/82)

067A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 26 of 56

witness testimony and other evidence that Movant committed other armed robberies
with Robinson; Robinson and other witnesses testified that his accomplice in this
robbery was “J.T.” and that Movant went by that nickname; Movant was found driving
Robinson’s car that was used in the robbery; and Robinson was found in a hotel room
rented in Movant’s name. Movant cannot sustain his heavy burden to establish trial
prejudice relating specifically to the introduction of the fingerprint testimony.
All of Movant’s ineffective assistance claims regarding the fingerprint expert
witness testimony therefore fail on both the performance and prejudice prongs of such
claims.11
B.

Ground 4: Admission of the Tablet

Movant next challenges trial counsel’s failure “to object to the admission or
authentication of the tablet,” a notepad which allegedly contained calculations
regarding the division between Movant and Robinson of the proceeds from one of the
indicted bank robberies, and counsel’s failure to “attempt[] to interview the agent

11

Although Movant couches at least two of his claims in terms of alleged violations of the Sixth
Amendment Confrontation Clause, he was required to raise these substantive claims on direct
appeal and he may not raise them in a § 2255 absent a showing that entitles him to do so, which he
has not made. See McCoy v. United States, 266 F.3d 1245, 1258 (11th Cir. 2001) (“A claim not
raised on direct appeal is procedurally defaulted unless the petitioner can establish cause and
prejudice for his failure to assert his claims on direct appeal.”) Thus, the undersigned considers
these claims on the merits only insofar as they relate to Movant’s ineffectiveness of counsel claims.

26

AO 72A
(Rev.8/82)

068A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 27 of 56

who[] recovered the tablet.” (Doc. 171-1 at 67-68). Movant asserts that the agent who
discovered the tablet did not testify at trial (noting that Agent Myers, who testified
about the tablet, was not present during the search of his hotel room) and that there is
no evidence that the two pages of calculations entered into evidence came from a tablet
that could be tied to the defendants. (Id. at 69-71). He argues that because the
“ledgers” are not business records they “are prohibited as testimonial evidence.” He
also denies that they are admissible as the statements of a co-conspirator. (Id. at 7273). Movant argues that because the prosecutor mentioned the ledgers twice in closing
argument, trial counsel’s failure to properly challenge the admission of the tablet was
not harmless error. (Id. at 78-81).
Movant fails to show any constitutional deficiency by counsel with respect to
the admission of the “tablet” because there was no clear, winning objection to be made.
The prosecution introduced the evidence through the testimony of FBI agent Myers,
who testified that the tablet and two pages of writing within were recovered from the
hotel room that Movant had rented and where Robinson had been found. (Doc. 146
at 201-202). This testimony provided at least arguable foundation for the authenticity

27

AO 72A
(Rev.8/82)

069A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 28 of 56

of the document.12 Contrary to Movant’s argument, this tablet cannot be considered
“testimonial” hearsay subject to exclusion under the Confrontation Clause. It was a
worksheet containing numbers, created as an apparent record of some activity, clearly
not created for purposes of litigation or testimony. At least Movant shows no facts
suggesting that a valid Confrontation Clause objection could be made.
Moreover, the inculpatory force of the tablet evidence was so slight as compared
to the other evidence against Movant that he cannot persuasively argue that the
outcome of his trial would have been different had the tablet evidence been excluded.
The tablet contained no direct statements referring to any robbery or to Movant
personally. The apparent significance to the prosecution’s case was summarized by
Agent Myers as follows: “There are several numbers written on the sheets. In
particular, on 48-C there is the number 2304, and it’s divided by two. And that is done

12

As Agent Myers was not present for the search itself (Doc. 146 at 197), she presumably had no
personal eyewitness knowledge of what was obtained during the search. Nevertheless, she may
have had some other arguably admissible basis for testifying that the materials were found in the
hotel room. Moreover, even if an objection could have been made as to lack of foundation or
authenticity, it was not constitutionally defective for counsel to refrain from making such an
objection here. On this record, the prosecution appeared to have other alternative means of
authenticating the exhibit, including by calling one of the three searching agents and/or by using
contemporaneous records or notes of the evidence seized. Whether to lodge a technical objection
to the admission of an exhibit on foundational grounds, given the likelihood that a foundation could
ultimately be established, is a quintessential tactical decision left to counsel’s discretion, especially
given the minor significance of this particular document.

28

AO 72A
(Rev.8/82)

070A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 29 of 56

several times on the sheet, dividing the [2304] . . . by two, which on this sheet comes
up to 1152. . . . On . . . the last bank robbery the loss was $2,311.” (Doc. 146 at 20102). In other words, the government suggested that the fact that the 2,304 number was
close to, although did not actually equal, the loss amount of the last robbery, and was
divided in two, suggests that it reflected a record of what each Defendant was due to
receive from that crime. Movant’s trial counsel cross-examined Agent Myers got her
to admit that she did not really know when the numbers were written there or what
they meant, other than her speculation that 2,304 was a miscount of the $2,311 loss
amount from the last bank robbery on March 26. (Id. at 215-19). This evidence was
plainly not what the jury’s verdict turned on. And counsel could have rationally
calculated that – even if a winning objection could be made to the document’s
admission – Movant’s defense could have been better off with the ability to highlight
this weak and speculative aspect of the prosecution’s case. This ground fails.
C.

Ground 5: Motion to Suppress

Movant challenges trial counsel’s failure to move to suppress the consent
Movant gave for a search of his hotel room without first being advised of his Miranda
rights. (Doc. 171-1 at 82-84).
As background, on March 26, 2007, an Atlanta police officer spotted the red
29

AO 72A
(Rev.8/82)

071A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 30 of 56

Chevrolet blazer that belonged to Robinson or his ex-wife and that had been used as
the getaway vehicle in at least two of the bank robberies. With the help of other
officers, he stopped the vehicle and detained Movant, who was driving the vehicle,
after Movant told him that the vehicle was stolen. (Doc. 146 at 176-82). He asked
Movant where he was living, and Movant replied at the Intown Suites on Piedmont
Circle, at which point the officer contacted the FBI. Several FBI agents then went to
that location. (Id. at 182-83).
An FBI agent testified that after Robinson was arrested in Movant’s Intown
Suites room the next day, he and another agent obtained from Movant a consent to
search the room. (Doc. 147 (Trial Tr. III) at 17-18 (“We met with [Movant,] identified
ourselves, informed him of why we were there, asked him if he had rented room 463.
He verified that he had rented 463. We asked him if he would voluntar[il]y consent
to a search of the room. He accepted and he signed a form that we have called an
FD26, consent-to-search form.”)).
Movant states that he was in jail on a suspended license charge, after having
been stopped because he was driving a vehicle suspected of being used in a recent
string of armed robberies, when he was approached to sign a consent to search his
hotel room and told that doing so would give him “a chance to present himself in [a]
30

AO 72A
(Rev.8/82)

072A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 31 of 56

good light, [whereas] a refusal [would] only make [him] look suspicious.” (Doc. 171-1
at 87). Noting that the search led to the discovery of a .380 caliber firearm allegedly
used, and a baseball cap allegedly worn, in the bank robberies, as well as the
aforementioned tablet containing numeric calculations (id. at 88), and that the
prosecutor was able to tie Movant to the robberies by noting that his room was where
the firearm was found and where Robinson was hiding out when the police came to
arrest him (id. at 90), Movant argues that his trial counsel was ineffective for failing
to test the circumstances under which the consent was obtained (id.).
The government argues that because Movant was not interrogated, his Miranda
rights were not implicated, and the consent to search form that he signed after his
arrest, even if invalid, would not have prevented the admission of the evidence seized
from his hotel room because, under the theory of inevitable discovery, the evidence
would have ultimately been recovered by lawful means. As Movant was in custody,
the agents could have obtained a search warrant if he had refused consent. Further, as
they were arresting Robinson with probable cause in that very room, and Robinson was
armed with a handgun, the agents could have lawfully entered the room as a search
incident to arrest. (Doc. 177 at 15 (citations omitted)); see United States v. Timmann,
741 F.3d 1170, 1182-83 & n.7 (11th Cir. 2013) (noting that “evidence may be
31

AO 72A
(Rev.8/82)

073A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 32 of 56

admissible if the government inevitably would have discovered it without the aid of
the unlawful police conduct, pursuant to [this circuit’s] limited version of the
‘inevitable discovery’ rule[,]” and noting that this circuit does “not require absolute
inevitability of discovery but simply a reasonable probability that the evidence in
question would have been discovered other than by the tainted source” (internal
quotations omitted)); United States v. Dixon, 491 Fed. Appx. 120, 122 (11th Cir. 2012)
(“The inevitable discovery exception to the exclusionary rule permits admission of
evidence that in fact resulted from an illegal search but would have been discovered
without that illegal police action.”).
Movant replies to this inevitable discovery argument that when he was arrested
he was not a suspect in the bank robberies and the authorities had no information about
where he was living, so that without the information about his hotel and room number
coerced from him illegally, the authorities would not have discovered that information
and would not have located Robinson in Movant’s hotel room. He also notes that
Robinson was arrested outside of the room, so there was no basis for a search of the
room in a protective sweep. (Doc. 181 at 29-53).
“[T]here are exceptions [to the Miranda requirement, and a]mong those is the
‘well-established routine booking exception,’ under which a defendant’s answers to
32

AO 72A
(Rev.8/82)

074A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 33 of 56

questions designed to elicit the information necessary to complete booking may be
used against him, even if those answers turn out to be incriminating.” United States
v. Brotemarkle, 449 Fed. Appx. 893, 896 (11th Cir. 2011) (quoting United States v.
Doe, 661 F.3d 550, 567 (11th Cir. 2011) (internal quotations omitted)). The Eleventh
Circuit has “held that a suspect’s pre-Miranda warning responses to an officer’s
request for his address was admissible when there was no evidence that the question
was intended to elicit an incriminating response.” Id. at 896-97 (citing United States
v. Sweeting, 933 F.2d 965 (11th Cir. 1991)).
Given that Movant told a law enforcement officer upon his initial arrest that he
was living at the Intown Suites and that, apparently, a subsequent investigation
revealed his room number there, Movant cannot show prejudice from the failure of
trial counsel to challenge the consent to search form that Movant signed allowing the
search of his hotel room. First, the officers’ entry into the room was inevitable.
Plainly, the police had probable cause to obtain a warrant to search the room where
Robinson, a robbery suspect whom they had just arrested and who they believed had
used a handgun, was residing. Even if Robinson was arrested outside the room itself,
the fact that the gun was not recovered during the arrest might also have justified a
warrantless search on public safety grounds to find the gun, especially where the police
33

AO 72A
(Rev.8/82)

075A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 34 of 56

knew that the room was rented in someone else’s name. See, e.g., United States v.
McConnell, 903 F.2d 566, 569 (8th Cir. 1990) (probable cause that an arrestee kept a
loaded firearm in hotel room justified warrantless search on public safety grounds).
Moreover, Movant presents no facts to suggest that any challenge to his consent-tosearch would have been successful, given the testimony that he executed a written FBI
consent-to-search form, by which he acknowledged the voluntariness of his consent
in writing. (See Gov’t Ex. 41). Movant also cannot show deficient performance on
these facts, where he fails to show that his counsel was aware of any specific evidence
that would have rebutted the voluntariness of his written consent to search. Movant
can show neither deficient performance nor prejudice on this claim.
D.

Ground 11: Trial Counsel’s Admission of Guilt

Movant alleges that the only evidence against him with respect to the Taco Bell
armed robbery was his counsel’s admission that he committed it. (Doc. 171-2 at 60).
Movant argues that trial counsel’s strategy—acknowledging that Movant committed
the Taco Bell robbery because there was no evidence that the robbery affected
interstate commerce, so that a conviction on the Taco Bell counts in federal court
would not “stick” anyway, in order to disassociate Movant from the bank
robberies—was so great an error that it deprived Movant of the effective assistance of
34

AO 72A
(Rev.8/82)

076A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 35 of 56

counsel, especially after Movant told counsel “repeatedly that he had nothing to do
with any of the robberies.” (Id. at 60-61). Movant argues that trial counsel’s theory,
that the government could not meet its burden of demonstrating an effect on interstate
commerce to sustain a conviction in the Taco Bell robbery, was completely misguided
and any competent counsel would have known this. This mistake was compounded
by the fact that the government used Movant’s and Robinson’s participation and use
of firearms in the Taco Bell robbery to argue that Movant knew that Robinson would
use a firearm in the bank robberies as well, even though Movant never entered any of
the banks that were robbed. (Id. at 62-68).
The evidence of Movant’s commission of the Taco Bell robbery was
overwhelming, including a clear photo of Movant and Robinson in the restaurant
shortly before the robbery took place (Gov’t Ex. 2B) and a videotape of the robbery
itself (Gov’t Ex. 1). As trial counsel indicated in his opening statement:
[T]he evidence that we expect to come before you today during the trial
of this case will show you this: that [Movant] was at the Taco Bell on
February the 8th of 2007. You will see a video and it’s going to show that
[Movant] did in fact take the money from the Taco Bell on February the
8th of 2007. There’s no dispute in that. But where the dispute comes is
that the government wants you to believe that [Movant] participated in
seven other bank robberies. [Movant] did not participate in any bank
robbery. The evidence will show you this.

35

AO 72A
(Rev.8/82)

077A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 36 of 56

(Doc. 145 (Trial Tr. I) at 16).
Trial counsel’s insistence that Movant was innocent of the Taco Bell robbery
may well have backfired and tainted Movant’s entire defense. It is a natural subject
of trial tactics for counsel to pick battles, that is, pick the issues that stand the most
chance of success and attempt to gain credibility with the court or jury by not
contesting those points that lack a chance of success. The court will not second guess
trial counsel’s reasonable strategy to deflect guilt away from Movant with respect to
the bank robberies by admitting it with respect to the Taco Bell robbery. See, e.g.,
Zakrzewski, 455 F.3d at 1258. This claim also fails.
E.

Ground 12: Motion for Judgment of Acquittal

Next, Movant argues that trial counsel was ineffective for failing to present any
argument as to the insufficiency of the evidence to convict Movant on counts 2, 5 and
8-12, and he presents the arguments that he claims counsel should have made to this
Court in support of a motion for judgment of acquittal. Movant notes that other than
presenting the useless argument regarding the effect on interstate commerce that trial
counsel made on count 1, counsel merely adopted the arguments that counsel for
Robinson presented on counts 2, 5, 6, 7 and 9. (Doc. 171-2 at 69-92).
As noted above, Movant and Robinson moved for a judgment of acquittal only
36

AO 72A
(Rev.8/82)

078A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 37 of 56

on firearm counts 2, 5, 7 and 9 and robbery counts 1 and 6 (and not on robbery counts
3, 4, 8, 10, 11 and 12), and they argued insufficiency of the evidence only on the four
firearm counts and robbery count 6 (and not on robbery count 1—the Taco Bell
robbery—for which they argued an insufficient nexus with interstate commerce to
support the charge). Movant and Robinson were acquitted on counts 6 and 7. On
appeal, Movant did not challenge his convictions on counts 1 and 2. The Eleventh
Circuit therefore reviewed de novo only his convictions on counts 5 and 9, applying
a sufficiency of the evidence standard. Because Movant had not moved in this Court
for a judgment of acquittal on counts 3, 4, 8, 10, 11 and 12, the Eleventh Circuit
reviewed those robbery convictions using a less demanding “manifest miscarriage of
justice” standard. (See Doc. 167 at 5-7, 11 n.2).
“[I]t is not professionally unreasonable for a lawyer to fail to pursue issues
which have little or no chance of success, and a criminal defendant is not prejudiced
by counsel’s failure to pursue non-meritorious claims or those on which they likely
would not have prevailed.” Nix v. United States, 12-81106-CIV, 09-80015-CR, 2013
U.S. Dist. LEXIS 168018, at *10-11 n.3 (S.D. Fla. July 19),13 adopted by 2013 U.S.

13

For support, the Magistrate Judge in Nix cited
Strickland, 466 U.S. at 690 (“counsel is strongly presumed to have rendered

37

AO 72A
(Rev.8/82)

079A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 38 of 56

Dist. LEXIS 168021 (S.D. Fla. Aug. 23, 2013). The Eleventh Circuit has ruled, after
de novo review of Movant’s count 5 and 9 firearm convictions, that this Court did not
err in denying his motion for judgment of acquittal on those counts. Other than
rehashing the trial evidence that the jury, this Court and the Eleventh Circuit found
sufficient to support his convictions, Movant has offered no argument to throw these
conclusions into doubt. It is also clear from the tenor of the Eleventh Circuit’s review
of those robbery convictions that Movant did not challenge via a motion for judgment
of acquittal, as well as its discussion of the evidence supporting Movant’s convictions
on counts 1 and 2, that a motion for judgment of acquittal on the remaining robbery
counts, based on the alleged insufficiency of the evidence, more likely than not would
have failed. As a defense attorney is not required to waste the Court’s time with
adequate assistance and made all significant decisions in the exercise of reasonable
professional judgment”); Knowles v. Mirzayance, 556 U.S. 111 (2009) (the law does
not require counsel to raise every available non-frivolous defense); Chandler v.
Moore, 240 F.3d 907, 917 (11th Cir. 2001) (counsel is not ineffective for failing to
raise a non-meritorious objection); United States v. Winfield, 960 F.2d 970, 974
(11th Cir. 1992) (failure to raise meritless issues cannot prejudice a client); Card v.
Dugger, 911 F.2d 1494, 1520 (11th Cir. 1990) (counsel is not required to raise
meritless issues); Iron Wing v. United States, 34 F.3d 662, 665 (8th Cir. 1994)
(movant not prejudiced by counsel’s failure to file motion to suppress that would
have been denied); James v. Borg, 24 F.3d 20, 27 (9th Cir. 1994)(counsel’s failure
to make futile motions does not constitute ineffective assistance); United States v.
Hart, 933 F.2d 80, 83 (1st Cir. 1991) (counsel is not required to waste the court’s
time with futile or frivolous motions).
Nix, 2013 U.S. Dist. LEXIS 168018, at *11-12 n.3.

38

AO 72A
(Rev.8/82)

080A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 39 of 56

frivolous motions in order to provide effective assistance, trial counsel here was not
ineffective for failing to file a motion challenging the sufficiency of the evidence on
the bank robbery charges of which Movant was convicted. This claim also fails.
F.

Ground 13: Sentencing

Movant “is steadfast in his assertion that he did not have the opportunity to read
and consult with counsel concerning the pre-sentence memorandum.” (Doc. 171-2 at
94). He argues that because he was afforded insufficient time to read his PSR and
consult with his trial counsel, his sentence was based on “false information and false
assumptions.” (Id. at 95). Movant asserts that there is no evidence to support the twolevel sentencing enhancement he received for making one of the Taco Bell robbery
victims get on the ground and then get back up to unlock the cash register. (Id. at 9698). Movant states that this Court did not consider his objections, as required by Fed.
R. Crim. P. 32(c)(1), but instead “either summarily adopted the findings of the [PSR]
or simply declared that the enhancement in question was supported by a preponderance
of the evidence.” (Id. at 98). Movant attributes his failure to present many of his
objections to the Court “to counsel not discussing the [PSR] with him.” (Id. at 99).
He also faults the Court for failing to allow both his counsel and himself 10 days to
review the PSR for factual errors, as required by U.S.C. § 3552(d), which failure
39

AO 72A
(Rev.8/82)

081A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 40 of 56

Movant asserts should have prompted counsel to move for a mistrial based on a due
process violation. (Id. at 99-100). Movant asserts that he was prejudiced at sentencing
by counsel’s deficient performance in failing to hold the Court to the standard of Fed.
R. Crim. P. 32(c)(1) and thereby allowing Movant to be “sentenced upon unresolved
and uncontested factual issues” and for failing to consult with Movant regarding the
factual inaccuracies in the PSR. (Id. at 99, 101-02).
Although Movant claims that he was prejudiced at sentencing because of factual
inaccuracies in the PSR, as noted above, he mentions only one – whether there was
evidence in the record to support an enhancement for ordering a Taco Bell robbery
victim to get on the ground and then to get up and unlock the cash registers and safe.
He acknowledges, however, that trial counsel did object to this enhancement. (Id. at
96-97, 99; see Doc. 151 (Sent. Hr’g Tr.) at 5-9).14 As Movant cannot show deficient
14

Trial counsel also objected that although he had received the PSR in April, well ahead of the June
19, 2008 sentencing hearing, Movant himself had received it 8 days before the hearing, not 10 days
as required by statute. (Doc. 151 at 1-4). Noting the numerous postponements of the hearing, the
Court proceeded with sentencing anyway (id. at 2-4) and overruled as follows Movant’s objections
to the sentencing enhancements related to his use of a firearm at the Taco Bell robbery and his
physical restraint of a Taco Bell employee:
You know, to say that we’re enhancing [Movant] for brandishing really doesn’t
reflect what we’re doing, because under that provision of the sentencing guidelines
he could be enhanced for up to five levels if a firearm was brandished. And really
the probation officer only enhanced him three points for using it or possessing a
dangerous weapon. And, frankly, you know, under this he could be increased five
points if Mr. Robinson possessed the firearm.

40

AO 72A
(Rev.8/82)

082A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 41 of 56

performance for trial counsel’s failure to object to the sentencing enhancements he
received – when counsel did in fact object to the specific enhancement Movant
complains about – and he has offered no other basis for finding trial counsel ineffective
with respect to his sentencing on the robbery charges, this claim also fails.
G.

Ground 14: Severance

Movant next argues that counsel was ineffective for “not filing a motion to

....
Well, I appreciate your argument, Mr. Mack [Movant’s trial counsel]. But if it
wasn’t . . . Mr. Robinson, that pretty much leaves [Movant as the one who
physically restrained a Taco Bell employee], and [that Taco Bell employee’s coworker who testified] didn’t know [Movant’s] name to call him by name. So I think
the enhancement is appropriate.
(Doc. 151 at 6, 9). One of the prosecutors summarized the trial evidence regarding the restraint
enhancement as follows:
If you will recall, [the Taco Bell witness] testified that when she was down on the
ground and Mr. Robinson had the gun to her, she heard [her Taco Bell co-worker]
say, here, take the keys, and [Movant] said, no, you get up, you unlock the register.
And as they come around, [the other prosecutor] showed the jury in the video where
you see [Movant] place the firearm, I believe, into his pocket as he’s going to empty
one of the registers while [the Taco Bell employee] is . . . unlocking the registers for
him.
(Id. at 8; see Doc. 145 at 29-33 (Taco Bell employee’s description of events, including the fact that
each robber had a firearm and one of them brandished his firearm in her presence)). Because
Movant claimed that trial counsel had not conferred with him in any meaningful way about the two
dozen or so objections he had to the PSR, The Court allowed Movant to present some of those
objections himself, but when it became apparent that he was objecting to the facts underlying his
convictions and not to those relevant to his sentencing calculations, the Court declined to allow him
to enumerate each objection. (Doc. 151 at 9-17).

41

AO 72A
(Rev.8/82)

083A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 42 of 56

severe [sic.] [his] trial . . . [from the trial of his] co-defendant (Robinson), because the
evidence against Robinson prejudiced him, the evidence against [Movant] was weak
and circumstantial, [and] the evidence against Robinson cause[d] a ‘spill-over effect’
which deprived [him] of a fair trial.” (Doc. 171-2 at 103).
Robinson’s defense theory was that he did all of the robberies except for
one (Wachovia Bank, Count 6), and that he did not use a real gun.
[Movant’s] defense theory was that he committed an armed robbery
(Count 1, see argument in brief) but he did not do any of the bank
robberies and had no participation or knowledge at all [as] to counts 2-12.
It is obvious that the jury did not believe Robinson’s fake gun theory, he
changed his story many times prior to trial and the prosecutor
high-lighted this point to the jury in closing argument.
(Id. at 105-06 (citations omitted) (noting that Robinson flip-flopped on the witness
stand as to whether he knew a J. T. and whether Movant was the J. T. who participated
in the bank robberies and also noting that Robinson was arrested in Movant’s hotel
room with a real firearm in his possession)). Movant argues that it was not a
reasonable trial strategy for counsel to allow Movant to be tainted with the
inflammatory testimony and evidence against Robinson. (Id. at 107).
In his reply brief, Movant notes that Robinson’s prior identification of Movant
as his accomplice, J. T., came out during the cross-examination of Robinson, even
though Robinson denied that Movant was the accomplice at trial. Movant argues that

42

AO 72A
(Rev.8/82)

084A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 43 of 56

a severance most likely would have meant that Robinson would not have testified at
Movant’s trial, eliminating crucial evidence against him, leaving only circumstantial
and weak evidence for the jury to consider. He also attacks the admissibility of the
results of Robinson’s post-arrest interview because Robinson’s Miranda rights
allegedly were violated. (Doc. 181 at 87-130).
The controlling caselaw provides as follows:
Generally, . . . persons indicted together should be tried together. United
States v. Cobb, 185 F.3d 1193, 1196 (11th Cir. 1999) (citation omitted);
United States v. Cassano, 132 F.3d 646, 650-651 (11th Cir. 1998). This
is particularly true in conspiracy cases. United States v. Baker, 432 F.3d
1189, 1236 (11th Cir. 2005). Severance of co-defendants’ trial may be
granted if a single trial would prejudice a defendant. Fed. R. Crim. P.
14(a). However, mutually antagonistic defenses are not per se prejudicial
such that severance is required. Zafiro v. United States, 506 U.S. 534, 537
(1993).
In order to be entitled to severance pursuant to Rule 14(a), a defendant
must meet the heavy burden of showing that a joint trial will result in
“specific and compelling prejudice.” United States v. Liss, 265 F.3d 1220,
1228 (11th Cir. 2001). “Compelling prejudice occurs when the jury is
unable to separately appraise the evidence as to each defendant and
render a fair and impartial verdict.” Id. (citation omitted.)
Houston v. United States, No. 8:12-CV-561-T-24TBM, 8:09-CR-379-T-24TBM, 2014
U.S. Dist. LEXIS 17989, at *21-23 (M.D. Fla. Feb. 12, 2014) (holding that counsel
was not ineffective for failing to seek a severance because the “defenses were not so

43

AO 72A
(Rev.8/82)

085A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 44 of 56

antagonistic to one another as to create undue, compelling prejudice”).
Movant argues that he was prejudiced by the inflammatory testimony and
evidence against Robinson, but the same evidence to establish the commission of the
indicted crimes would likely have been introduced at a trial of Movant alone.
Movant’s suggestion that Robinson would not have testified at Movant’s trial is
speculative, as the prosecution may simply have tried Robinson first and then
compelled him to testify in a subsequent trial against Movant. Moreover, both
Robinson and the agent to whom Robinson gave his initial statement about his
accomplice were subject to cross-examination at trial by Movant’s attorney. Also,
whatever Robinson initially stated to officers about his accomplice’s identity,
Robinson denied on the stand that it was Movant. Most basically, counsel may have
rationally calculated that Movant’s trial chances were improved in a joint trial because
there was clearly more evidence in the record about Robinson. The jury may have
contrasted the relative strength of the evidence against Robinson against the lesser
evidence against Movant, and any need for compromise within the jury room may have
resulted in a decision to treat Movant more favorably. Or at least counsel could have
reasoned these things.

For all of these reasons, Movant has not established

“compelling prejudice” or deficient performance arising from his joint trial, and this
44

AO 72A
(Rev.8/82)

086A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 45 of 56

claim fails.
H.

Ground 15: Jury Instructions

Movant states that when the jury during its deliberations inquired of the Court
about the elements of an 18 U.S.C. § 924(c) firearm conviction, the Court referred the
jury to the pattern instruction on aiding and abetting, allowing the jury to convict
Movant on three firearm counts without proof of all the elements of those counts, and
Movant’s trial counsel had “nothing further” to say on the matter when the Court asked
for input on the Court’s response to the jury’s note of inquiry. (Doc. 171-2 at 109-111
(noting that the jury asked whether, if it believed that Robinson had a real gun and also
believed that Movant knew that Robinson had a real gun, those two conclusions made
Movant “guilty of those [firearm] charges (2, 5 & 9) (Aiding & Abetting)”)).
Movant argues that counsel did not make sure that the jury understood that it
could not convict Movant of aiding and abetting a § 924(c) crime merely because it
believed that Movant had aided and abetted the underlying violent felony unless it also
found that Movant possessed the “specific intent to aid the firearms crime.” (Id. at
114-15). Movant notes that the jury was obviously confused about what was required
to convict him of aiding and abetting on the § 924(c) charges and argues:
It is obvious from the record that counsel’s performance fell below an
45

AO 72A
(Rev.8/82)

087A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 46 of 56

objective standard of reasonableness. (1) during the most critical time of
trial (deliberations) counsel did not even bother to view the note the jury
sent to the judge, even when the judge openly stated that she can’t
remember exactly what it said. (2) Counsel never moved for an
instruction on 924(c)(l) aiding and abetting and conspiracy liability,
although by law defendant is supposed to have one . . . .
(Id. at 127).
The Supreme Court of the United States recently “clarified the proof necessary
for the intent element of aiding and abetting a section 924(c) violation—i.e., the
defendant’s knowledge that a co-conspirator will carry a gun.”15 United States v.
Mack, No. 12-16602, 2014 U.S. App. LEXIS 14087, at *37 (11th Cir. July 24, 2014)
(quoting Rosemond v. United States, 134 S. Ct. 1240, 1249 (2014)).
“[The d]efendant’s knowledge of a firearm must be advance
knowledge”—that is, knowledge at a time when the accomplice “can
attempt to alter [the] plan, . . . withdraw from the enterprise[, or] go ahead
with his role in the venture.” An accomplice’s knowledge of “a
15

Section 924(c)(1)(A) defines Movant’s firearm crimes of conviction as follows:
[A]ny person who, during and in relation to any crime of violence or drug
trafficking crime (including a crime of violence or drug trafficking crime that
provides for an enhanced punishment if committed by the use of a deadly or
dangerous weapon or device) for which the person may be prosecuted in a court of
the United States, uses or carries a firearm, or who, in furtherance of any such crime,
possesses a firearm, shall, in addition to the punishment provided for such crime of
violence or drug trafficking crime– . . .
(ii)
if the firearm is brandished, be sentenced to a term of imprisonment
of not less than 7 years; . . . .

Section 924(c)(1)(C) requires a 25-year sentence for any subsequent conviction.

46

AO 72A
(Rev.8/82)

088A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 47 of 56

confederate’s design to carry a gun” is not “advance” if it does not afford
him “a realistic opportunity to quit the crime.”
Id. (citation omitted) (noting that the Supreme Court “concluded that the district
court’s jury instructions were erroneous because they did not direct the jury to
determine when [the defendant] obtained the requisite knowledge and to decide
whether [he] knew about the gun in sufficient time to withdraw from the crime”).
The Court here instructed the jury as follows regarding aiding and abetting:
The guilt of a Defendant in a criminal case may be proved without
evidence that the Defendant personally did every act involved in the
commission of the crime charged. The law recognizes that, ordinarily,
anything a person can do for one’s self may also be accomplished through
direction of another person as an agent, or by acting together with, or
under the direction of, another person or persons in a joint effort.
So, if the acts or conduct of an agent, employee or other associate
of a Defendant are willfully directed or authorized by that Defendant, or
if a Defendant aids and abets another person by willfully joining together
with that person in the commission of a crime, then the law holds that
Defendant responsible for the conduct of that other person just as though
the Defendant had personally engaged in such conduct.
However, before any Defendant can be held criminally responsible
for the conduct of others it is necessary that the Defendant willfully
associate in some way with the crime, and willfully participate in it. Mere
presence at the scene of a crime and even knowledge that a crime is being
committed are not sufficient to establish that a Defendant either directed
or aided and abetted the crime. You must find beyond a reasonable doubt
that any Defendant was a willful participant and not merely a knowing
spectator.
47

AO 72A
(Rev.8/82)

089A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 48 of 56

The word “willfully” as that term has been used in these
instructions, means that the act was committed voluntarily and purposely,
with the specific intent to do something the law forbids; that is with bad
purpose either to disobey or disregard the law.
(Doc. 101 at 14-15 (emphasis added); see Doc. 148 (Trial Tr. IV) at 84-85).
During jury deliberations, the jury sent the Court the following note:
If we believe that Robinson used a real gun in Counts 2, 5 & 9 —
And we believe that [Movant] knew Robinson had a gun —
Does that make [Movant] guilty of those charges? (2, 5 & 9)
(Aiding and Abetting)
(Doc. 172-1 at 20). The Court responded:
I would refer you to the aiding and abetting charge . . . specifically the
portion that knowledge alone is not sufficient. You must find a defendant
was a willful participant and not merely a knowing spectator.
(Id. at 60). By the time trial counsel arrived in the court room, the Court had “sent the
note back in,” which the Court described as “generally asking whether the fact that [the
jurors] believed [Movant] had knowledge of Robinson’s possession of a gun, and they
specifically referred to counts . . . two, five, and nine, if that made him guilty.” (Doc.
148 at 104). The Court informed trial counsel that it had directed the jury to the aiding
and abetting charge, which the jurors had with them in the jury room, “and specifically
that portion of the charge that dealt with knowledge.” (Id. at 104-05). The Court
asked counsel if there was anything he would like to add, and he responded, “Nothing
48

AO 72A
(Rev.8/82)

090A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 49 of 56

further.” (Id. at 105).
In his reply brief, Petitioner argues that his conviction for aiding and abetting
a § 924(c) charge required that the jury find that he “took some affirmative action to
facilitate or encourage the use or carrying of a firearm.” (Doc. 181 at 132). As stated
below, this argument is misplaced.
Here, the evidence, the jury instruction on aiding and abetting, and the exchange
of notes between the jury and the Court during deliberations all suggest with little
room for doubt that the jury (1) understood that to convict Movant of the firearm
counts it must find that he willfully participated in crimes of violence that involved the
use of a firearm and (2) concluded that Movant knew about the intended use of a
firearm in the robberies “in sufficient time to withdraw from the crime.” See Mack,
2014 U.S. App. LEXIS 14087, at *37. And “ ‘[j]ury instructions are subject to
harmless error review.’ ” United States v. Dickerson, No. 13-11873, 2014 U.S. App.
LEXIS 9705, at *4-5 (11th Cir. May 27, 2014) (quoting United States v. Webb, 655
F.3d 1238, 1249 n.8 (11th Cir. 2011), and concluding that jury instruction, which may
have misstated the elements of defendant’s crime of conviction, was at most harmless

49

AO 72A
(Rev.8/82)

091A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 50 of 56

error because there was sufficient evidence to satisfy all of the elements of the crime).16
Even if counsel should have demanded to see the actual notes rather than rely
on the Court’s rendition of them from memory, there is no reasonable likelihood that
the outcome of Movant’s trial on the firearm counts would have been different had
counsel done so. It was reasonable for the jury to conclude that Movant knew, far
enough ahead of time to withdraw from his criminal enterprise with Robinson, that
Robinson had used and might well again use a firearm in the robberies charged against
him, robberies in which Movant willfully participated at least by serving as a getaway
driver, if not by also preparing the demand notes. This ground also fails.
I.

Brady and Giglio Claims

Movant also asks the Court to vacate his judgment of conviction because, he
alleges, the government withheld exculpatory evidence from the defense and solicited
perjured testimony or failed to correct that testimony after learning it was false. (Doc.
171 at 1-2). Movant argues that although Allen and Gische testified that his
fingerprints were on the demand notes for the February 12 and March 26 bank

16

Movant’s citation to United States v. Bancalari, 110 F.3d 1425, 1429-30 (9th Cir. 1997), holding
that “to be guilty of aiding and abetting under § 924(c), the defendant must have ‘directly facilitated
or encouraged the use’ of the firearm and not simply be aware of its use” (Doc. 171-2 at 114), is
unavailing because there is no evidence that that test was employed in this Circuit before the
Supreme Court in Rosemond stated the test differently.

50

AO 72A
(Rev.8/82)

092A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 51 of 56

robberies, the government withheld evidence that “there were no lift prints of
[Movant] in this case.” (Id. at 4).
Movant notes that the government’s theory of the case was that because his
fingerprints were found on the notes used in the first and last bank robberies in the
alleged spree, he was guilty of participating in all of the bank robberies in that spree.
Movant contends that he attempted to obtain copies of his lift prints both from the
CCPD and the FBI but was told in each case that none could be found. (Id. at 5-6).
Movant contends that during his trial the government never provided copies of the
prints themselves but only the expert reports regarding the alleged prints. (Id. at 6-7).
He claims a violation of Brady v. Maryland, 373 U.S. 83 (1963), which requires the
government to reveal arguably exculpatory evidence to the defense in a criminal trial
if the defense could not, via reasonably diligent effort, obtain that evidence on its own,
and of Giglio v. United States, 405 U.S. 150 (1972), which extends the Brady rule to
testimony that the government knows or learns is false. Movant contends that Det.
Allen’s testimony that he found Movant’s finger print on the February 12 demand note
one year after the fact is false and the prosecution knew it to be false. (Doc. 171 at 79). Movant claims likewise for Gische’s testimony that she found his thumb prints on
the March 26 demand note. (Id. at 12-13).
51

AO 72A
(Rev.8/82)

093A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 52 of 56

Movant relies on a response to his Freedom of Information Act (“FOIA”)
request to the FBI indicating that “[n]o lift prints were located” in researching his
request. (Doc. 187-1 (Decl. of David M. Hardy) at 10). The declaration also indicates,
however, that “[t]he lift images in [Movant’s] case were taken and processed by the
[CCPD] rendering any processing by the FBI unnecessary. Additionally, it is the
standard operating procedure of the Latent Print Operations Unit (‘LPOU’) not to
conduct any further processing on images that have already been processed by another
agency.” (Id. at 8-9). The declaration further notes that the LPOU “did find friction
ridge impressions pertaining to [Movant’s] case.

The LPOU forwarded two

photographs of friction ridge impressions that were located on a demand note used
during one of the robberies[,]” which photographs were released to Movant on July 7,
2011. (Id. at 10).
Movant claims in his second reply brief that the responses to the FOIA requests
that he sent to the CCPD and the FBI reveal that neither agency retained a copy of the
February 12 and March 26 demand notes or his lift prints allegedly discovered on those
notes. He argues therefore that the government knew that the testimony of Allen and
Gische was false because the fingerprint matches about which they testified did not
exist. (Doc. 188 at 23-37).
52

AO 72A
(Rev.8/82)

094A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 53 of 56

Movant’s Brady and Giglio claims are without merit. Movant fails to show that
the government withheld evidence during his trial, or elicited or accepted perjured
testimony.

As the trial evidence recounted above amply demonstrates, the

government’s fingerprint experts testified about lift prints taken from evidence
gathered by the CCPD during its investigation of two of the bank robberies. Nothing
about the FOIA responses or other correspondence cited by Movant suggests that these
CCPD prints never existed. To the contrary, the FBI responses indicated that CCPD
took and lifted prints. Movant obtained copies of certain prints. To the extent copies
of other prints were not maintained, Movant does not establish that this itself was a
Brady or other violation. To the extent Movant suggests that CCPD or others are lying
in their responses, that is nothing more than speculation and does not warrant relief.

J.

Motion for a New Trial

In the alternative, Movant asks for a new trial based on the newly discovered
evidence revealing that there are no latent prints belonging to him on the February 12
and March 26 demand notes, no established chain of custody for the March 26 note
and no evidence of processing for the February 12 note. (Doc. 171 at 16).
To succeed on a motion for a new trial based on newly discovered
53

AO 72A
(Rev.8/82)

095A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 54 of 56

evidence, the movant must establish that (1) the evidence was discovered
after trial, (2) the failure of the defendant to discover the evidence was
not due to a lack of due diligence, (3) the evidence is not merely
cumulative or impeaching, (4) the evidence is material to issues before
the court, and (5) the evidence is such that a new trial would probably
produce a different result. United States v. Gates, 10 F.3d 765, 767 (11th
Cir. 1993), modified on reh’g in part, 20 F.3d 1550 (11th Cir. 1994)
(citation omitted). “The failure to satisfy any one of these elements is
fatal to a motion for a new trial.” United States v. Lee, 68 F.3d 1267,
1274 (11th Cir. 1995) (citation omitted).
Mack, No. 12-16602, 2014 U.S. App. LEXIS 14087, at *63-64. Movant fails to meet
the most basic of these requirements—he has not discovered any new evidence. For
that reason and for the reasons stated elsewhere in this Report, Movant is not entitled
to a new trial.
V.

Certificate of Appealability
A federal prisoner must obtain a certificate of appealability (COA) before

appealing the denial of a motion to vacate.

28 U.S.C. § 2255(d); 28 U.S.C.

§ 2253(c)(1)(B). A COA may issue only when the movant makes a “substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). This standard
is met when “reasonable jurists could debate whether (or, for that matter, agree that)
the [motion to vacate] should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.” Slack

54

AO 72A
(Rev.8/82)

096A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 55 of 56

v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotations omitted). A movant need
not “show he will ultimately succeed on appeal” because “[t]he question is the
debatability of the underlying constitutional claim, not the resolution of that debate.”
Lamarca v. Sec’y, Dep’t of Corr., 568 F.3d 929, 934 (11th Cir.) (citing Miller-El v.
Cockrell, 537 U.S. 322, 337, 342 (2003)).
When the district court denies a habeas petition on procedural grounds
without reaching the prisoner’s underlying constitutional claim, . . . a
certificate of appealability should issue only when the prisoner shows
both that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists
of reason would find it debatable whether the district court was correct in
its procedural ruling.
Jimenez v. Quarterman, 555 U.S. 113, 118 n.3 (2009) (internal quotations omitted)
(citing Slack, 529 U.S. at 484). Although Slack involved an appeal from the denial of
a 28 U.S.C. § 2254 petition, the same standard applies here. See Jones v. United
States, 224 F.3d 1251, 1254 (11th Cir. 2000) (applying Slack standard in § 2255 case).
Because Movant has not raised a claim of arguable merit regarding the
effectiveness of his trial counsel’s representation or his Brady and Giglio claims, a
COA is not warranted here.
VI.

Conclusion
For the foregoing reasons, IT IS RECOMMENDED that the Court DENY
55

AO 72A
(Rev.8/82)

097A

Case 1:07-cr-00138-TWT-JSA Document 189 Filed 08/19/14 Page 56 of 56

Movant’s 28 U.S.C. § 2255 motion (Doc. 168); DENY his motion for a new trial (Doc.
171); GRANT nunc pro tunc his motion to waive strict compliance and for liberal
construction of his pleadings (Doc. 172) and his motions for an extension of time to
file his reply briefs (Docs. 178, 179); DENY as moot his motions for the Court’s
attention (Docs. 175, 180); DISMISS this action; and DENY Movant a certificate of
appealability.
The Clerk is DIRECTED to terminate the referral to the Magistrate Judge.
SO RECOMMENDED this 19th day of August, 2014.

___________________________________
JUSTIN S. ANAND
UNITED STATES MAGISTRATE JUDGE

56

AO 72A
(Rev.8/82)

098A

IN THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
NO. 08-13658-AA
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
STANLEY JOSEPH THOMPSON,
Defendant-Appellant.
NO. 08-13659-AA
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
LEARY ROBINSON,
Defendant-Appellant.
On Appeal From The United States District Court
For The Northern District of Georgia
BRIEF FOR APPELLEE
DAVID E. NAHMIAS
UNITED STATES ATTORNEY
KATHERINE MONAHAN HOFFER
ASSISTANT UNITED STATES ATTORNEY
JAMILA M. HALL
ASSISTANT UNITED STATES ATTORNEY
600 Richard B. Russell Bldg.
75 Spring Street, S.W.
Atlanta, Georgia 30303
404/581-6000
Attorneys for Appellee

099A

The court was in the best position to evaluate the potential
prejudicial effect of McGuire’s emotional breakdown and correctly
determined that Defendants suffered no prejudice.

Defendants have

not, and cannot, show that but for McGuire's emotional breakdown,
the outcome of the trial would have been different.

There was

overwhelming, independent evidence of Defendants' guilt beyond a
reasonable doubt.

In their opening statements, counsel for both

Defendants admitted that they committed the Taco Bell robbery, and
counsel for Robinson admitted that Robinson committed six of the
seven bank robberies charged in the Indictment.

(Doc. 145-15-16).

The government presented video surveillance footage, photographs,
and fingerprint evidence connecting both Defendants to the Taco
Bell and bank robberies.

(Ex. 1, 2B, 10B, 11, 13C, 17, 18C, 24,

25B, 28B, 27, 29, 30C; Doc. 145-170, 212).

In addition, Thompson

was arrested after being found in the red Chevrolet Blazer that was
used in several of the robberies.

(Doc. 146-280-83).

Inside the

vehicle was clothing worn by Thompson in the Taco Bell robbery and
by Robinson in the bank robberies.

(Id. at 146-295-97, 299).

A

search warrant executed on Defendants' rooms at the motel yielded
a firearm used in the robberies, clothing worn in the robberies,
money, and a notebook with calculations appearing to be dividing
the proceeds of one of the robberies.
440; Ex. 48A, 48B, 48C).

(Doc. 146-300-03; Doc. 147-

Robinson testified and admitted to

committing the robberies and was impeached regarding the use of the

48

100A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 1 of 108

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

UNITED STATES OF AMERICA,

)
)
PLAINTIFF, )
VS.
)
)
LEARY ROBINSON, ET AL.,
)
)
DEFENDANTS. )
)
)
_____________________________)

DOCKET NUMBER
1:07-CR-138-BBM-1,2
ATLANTA, GEORGIA
FEBRUARY 29, 2008

VOLUME FOUR OF FOUR
TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE BEVERLY B. MARTIN,
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF:

KATHERINE HOFFER & JAMILA HALL
UNITED STATES ATTORNEY'S OFFICE
ATLANTA, GEORGIA 30303

FOR DEFENDANT ROBINSON:

TIMOTHY SAVIELLO
FEDERAL DEFENDER PROGRAM
ATLANTA, GEORGIA 30303

FOR DEFENDANT THOMPSON:

ROBERT MACK
MACK & HARRIS
STOCKBRIDGE, GEORGIA

OFFICIAL COURT REPORTER:

30281

MONTRELL VANN, CCR,RPR,RMR,CRR
2394 UNITED STATES COURTHOUSE
75 SPRING STREET, SW
ATLANTA, GEORGIA 30303
(404)215-1549

101A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 6 of 108

606

1

MS. HOFFER, CAN I JUST SEE YOU AND MR. SAVIELLO?

2

(BENCH CONFERENCE OUT OF THE HEARING

3

OF THE COURT REPORTER.)

4

MS. HOFFER:

YOUR HONOR, THIS WOULD BE MY ADDITION

5

AFTER THIS PARAGRAPH, .380 HIGH POINT HANDGUN IS A FIREARM, AND

6

HERE IS MR. SAVIELLO'S.

7

THE COURT:

8

MS. HOFFER:

9

I THINK RIGHT AFTER THE .380 IS A

FIREARM.

10
11

DO YOU KNOW WHERE HE WANTS THIS?

MR. SAVIELLO:

JUST THE HIGHLIGHTED PORTION, THERE,

JUDGE.

12

THE COURT:

13

SURE I TELL MS. CARVER RIGHT?

14

LET'S BRING THE JURY IN.

15

(JURY PRESENT.)

16
17

CAN YOU ALL COME UP HERE AND JUST MAKE

THE COURT:

GOOD MORNING.

WELCOME BACK.

MS. HOFFER.

18

MS. HOFFER:

THANK YOU, YOUR HONOR.

MAY IT PLEASE THE

19

COURT.

COUNSEL, LADIES AND GENTLEMEN OF THE JURY, GOOD MORNING.

20

I'D LIKE TO THANK YOU FOR YOUR ATTENTION AND PATIENCE IN THIS

21

TRIAL ON BEHALF OF THE UNITED STATES.

22

YOUR PRESENCE HERE.

23

BECAUSE WE'VE HAD SO MANY WITNESSES.

24

OUT OF ORDER DUE TO SCHEDULING CONFLICTS AND ILLNESS AND LIFE,

25

SO I HOPE THAT WE HAVEN'T CONFUSED YOU TOO MUCH.

WE CERTAINLY APPRECIATE

THIS TRIAL HAS BEEN A LITTLE BIT CONVOLUTED
WE'VE HAD TO PRESENT SOME

BUT I THINK

102A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 7 of 108

607

1
2

THAT MY ARGUMENT WILL BE ABLE TO PUT THINGS IN ORDER FOR YOU.
WE HAD SO MANY ROBBERIES IN THIS CASE AND THE DATES MAY

3

HAVE BEEN CONFUSING, AND WE'VE DEVELOPED THIS TIME LINE CHART.

4

I DON'T KNOW IF YOU CAN SEE IT OR NOT.

5

BUT THE DATES ARE CONFUSING BECAUSE HERE YOU HAVE TWO ROBBERIES

6

ON 2/12, TWO ROBBERIES ON 2/21.

7

SAME BANK.

8

ROBBERIES BEING COMMITTED BY THE SAME TWO PEOPLE, LEARY ROBINSON

9

AND STANLEY JOSEPH THOMPSON.

WE MAY END UP MOVING IT.

YOU HAVE TWO ROBBERIES OF THE

BUT, LADIES AND GENTLEMEN, WE ALSO HAVE THE

THESE ROBBERIES OCCURRED ALL OVER

10

METRO ATLANTA, DIFFERENT COUNTIES, DIFFERENT POLICE

11

JURISDICTIONS.

12

ENFORCEMENT OFFICERS, MORE THAN APPEARED HERE DURING THE TRIAL

13

WERE INVOLVED IN THIS CASE.

14

TOGETHER.

15

THE EVIDENCE, THOUGH, I AM SURE THAT YOU WILL COME TO THE

16

CONCLUSION THAT THE DEFENDANTS ARE GUILTY ON ALL COUNTS.

17

THIS IS THE TIME LINE OF THE ROBBERIES BEGINNING ON

WE HAD COBB COUNTY A.P.D., F.B.I., A LOT OF LAW

IT TOOK A LOT OF EFFORT TO PUT IT

ONCE YOU GO BACK IN THE JURY ROOM AND YOU HAVE ALL

18

FEBRUARY THE 8TH OF 2007 AT THE TACO BELL.

IT GOES ALL THE WAY

19

THROUGH THE SUNTRUST ON 3/26.

20

LET ME JUST SAY THIS:

21

COUNT FOUR AND FIVE, COUNT EIGHT AND NINE, COUNT SIX AND SEVEN.

22

THE DEFENSE ANNOUNCED IN THE OPENING STATEMENTS THAT THEY WERE

23

GUILTY OF CERTAIN COUNTS.

24

PROVE THEM GUILTY, BUT AFTER ALL IS SAID AND DONE MR. ROBINSON

25

HAS ADMITTED IT AND YOU CAN GO AHEAD AND FIND HIM GUILTY ON THE

YOU KNOW HE USED A GUN -- WELL,

YOU KNOW THE GUN WAS USED IN COUNT ONE,

THE GOVERNMENT IS STILL REQUIRED TO

103A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 8 of 108

608

1

ONES THAT HE'S ADMITTED AND THE ONES THAT WE HAVE PROVEN, WHICH

2

IS ALL OF THEM.

BUT HE CONFESSED ON THE STAND TO YOU.

3

DEFENDANT THOMPSON'S COUNSEL IN HIS OPENING STATEMENT SAID

4

HE WAS GUILTY OF TAKING MONEY FROM THE TACO BELL, BUT HE DIDN'T

5

ROB IT WITH A GUN AND HE DIDN'T COMMIT ANY OF THE ROBBERIES.

6

THESE ARE THE ELEMENTS OF BANK ROBBERY:

7

INTIMIDATION DID TAKE MONEY FROM A FEDERALLY INSURED BANK.

8

SIMPLE.

9

THAT ISSUE WAS STIPULATED TO BY ALL PARTIES, SO IT'S BEEN PROVEN

BY FORCE, VIOLENCE AND
VERY

ALL OF THE BANKS IN THIS CASE ARE FEDERALLY INSURED.

10

AS MATTER OF -- BEYOND A REASONABLE DOUBT.

11

ROBBERIES HAVE THE ADDITIONAL COUNT OF USING THE WEAPON, AND THE

12

LAW IS DID ASSAULT AND PUT IN JEOPARDY THE LIVES OF ANOTHER

13

PERSON OR PERSONS BY USE OF A DANGEROUS WEAPON.

14

ALLEGED FIREARMS IN, SOME WE HAVEN'T.

15

THE ARMED BANK

SOME WE'VE

COUNTS FOUR, SIX AND EIGHT ARE THE ARMED ROBBERIES IN THIS

16

CASE.

COUNT ONE IS SLIGHTLY DIFFERENT, THE TACO BELL.

IT'S

17

CHARGED UNDER A DIFFERENT STATUTE.

18

INTERSTATE COMMERCE BY ROBBERY, BY MEANS OF ACTUAL AND

19

THREATENED FORCE, VIOLENCE AND FEAR OF INJURY, WHICH WE CLEARLY

20

HAD AT THE TACO BELL.

21

INTERSTATE COMMERCE AND THE INTERRUPTION OF INTERSTATE COMMERCE.

22

ALL WE HAVE TO DO IS SHOW THAT THE BUSINESS, THE TACO BELL, WAS

23

ENGAGED IN A BUSINESS OR INDUSTRY WHICH IS IN INTERSTATE

24

COMMERCE, THE BUSINESS IS ENGAGED IN INTERSTATE COMMERCE.

25

HAVE THE CONTROLLER OF T.M.E. ENTERPRISES UP HERE TO TELL YOU

IT'S INTERFERENCE WITH

IT'S A VERY LOW THRESHOLD TO PROVE

WE

104A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 9 of 108

609

1

THAT TACO BELL IS A FRANCHISE OF A NATIONAL CORPORATION.

WE

2

HAVE THE FRANCHISE AGREEMENT HERE THAT PROVES THAT IT IS A --

3

EXCUSE ME, A NATIONAL CORPORATION ENGAGED IN INTERSTATE

4

COMMERCE.

5

CALIFORNIA TO THE HEADQUARTERS OF TACO BELL.

6

INVOICE, THE GOVERNMENT'S EXHIBIT 57, WHICH CAME FROM MCCLAIN

7

FOOD SERVICE INDUSTRIES WHICH INDICATES THAT THEY DISTRIBUTE

8

FROM SMYRNA, GEORGIA, BUT THEIR ADDRESS AND WHERE YOU WOULD

9

REMIT PAYMENT TO AND WHERE TACO BELL REMITS PAYMENT TO IS LISTED

THEY PAY ROYALTIES AND FEES WHICH GO OUT OF STATE TO
YOU ALSO HAVE THIS

10

AS MCCLAIN FOOD SERVICES IN DALLAS, TEXAS.

11

INTERSTATE COMMERCE HERE.

12

TAKE A LOOK AT EXHIBIT 60-A, B AND C, YOU'LL SEE THE LOSS.

13

YOU'LL SEE THAT THE TACO BELL WAS FORCED TO CLOSE EARLY.

14

YOU HEARD THE TESTIMONY FROM MR. GIBSON.

15

HAS BEEN PROVEN BEYOND A REASONABLE DOUBT.

16

INTERFERENCE WITH INTERSTATE COMMERCE.

17

VIOLENCE, FEAR OF INJURY AND FORCE BECAUSE THEY USED THE TWO

18

GUNS.

19

SO WE HAVE LOTS OF

WE ALSO HAVE A LOSS -- IF YOU JUST

AND

THE TACO BELL ROBBERY
THERE WAS

THERE WAS USE OF

NOW, YOU HEARD SHRONDA HALL'S TESTIMONY.

SHE LOOKS UP AND

20

THERE'S A GUN IN HER FACE.

THAT IS VIOLENCE, FORCE AND FEAR OF

21

INJURY.

SHE WAS VERY SCARED.

22

SCARED.

TWO MEN COME IN AND HOLD GUNS TO THEIR FACES AND ORDER

23

THEM TO DO THINGS.

24

INDICATION THAT SHE WAS VERY SCARED.

25

TO OPEN THE SAFE AND THE REGISTERS WITH HIS OWN KEY, AND THE

CURTIS MCGUIRE WAS OBVIOUSLY VERY

SHRONDA HALL SAID SHE JUST HIT THE FLOOR,
CURTIS MCGUIRE WAS FORCED

105A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 10 of 108

610

1

ROBBERS STOOD THERE AND HELD THEM AT GUNPOINT, THE ROBBERS,

2

STANLEY JOSEPH THOMPSON AND LEARY ROBINSON.

3

NOW, I WANT TO SHOW YOU BRIEFLY -- I'M NOT GOING TO SHOW

4

YOU ALL THE VIDEOS IN THIS CLOSING ARGUMENT.

YOU'VE ALREADY

5

SEEN THEM.

6

YOU LOOK YOU CAN SEE THE MEN, THE DEFENDANTS, ENTER THE TACO

7

BELL.

8

HIDING THEIR GUNS.

9

GO TO THE BACK WHERE YOU CAN'T SEE THEM ANYMORE IN THE VIDEO.

10

THAT'S WHAT SHRONDA HALL SAID, GUN TO HER HEAD, SHE'S ON THE

11

FLOOR.

12

YELLING AT CURTIS MCGUIRE TO OPEN THE SAFE.

13

OUT, YOU COULD SEE THE DEFENDANT STANDING WITH HIS RIGHT HAND

14

DOWN AND YOU CAN SEE THE GUN.

15

LEFT HAND ONLY TO GET THE MONEY OUT OF THE CASH REGISTER THAT IS

16

AT THE DRIVE-THRU.

17

PUTTING THE GUN BACK IN HIS POCKET SO HE CAN THEN GRAB THE

18

REGISTER WITH BOTH HIS HANDS.

19

WILL JUST TAKE A SECOND TO SWITCH TO IT.

20

IT BETTER ON YOUR SCREEN.

21

HERE THEY COME.

I WANT TO SHOW YOU THE TACO BELL ROBBERY, BECAUSE IF

THEY'VE GOT THEIR RIGHT HANDS IN THEIR POCKETS.

THEY ARE

THEY COME IN LIKE THIS, BOTH OF THEM.

THEY

THAT'S WHERE SHE TESTIFIED SHE COULD HEAR THE OTHER MAN
WHEN THEY COME BACK

YOU CAN ALSO SEE HIM USING HIS

THEN WHEN HE TURNS AROUND YOU CAN SEE HIM

22

POCKETS.

23

BACK.

24

MCGUIRE.

25

HOLDING THE GUN DOWN.

SO LET'S WATCH THIS VIDEO.

IT

YOU CAN PROBABLY SEE

YOU SEE THEIR RIGHT HANDS ARE IN THEIR

THAT'S LEARY ROBINSON IN THE FRONT, THOMPSON IN THE

THEY ARE IN THE BACK NOW WITH SHRONDA HALL AND CURTIS
WHEN THEY COME BACK, WATCH HIM AT THE REGISTER.

HE IS

YOU CAN SEE THE LENGTH OF IT DOWN TO

106A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 11 of 108

611

1

ABOUT MID THIGH.

AND HE COMES BACK OVER.

2

GUN IN HIS HAND.

HE'S ONLY USING HIS LEFT HAND TO GET THE MONEY

3

OUT OF THE CASH REGISTER.

4

SO HE COULD USE TWO HANDS.

5

HE'S STILL GOT THE

NOW HE PUT THE GUN BACK IN HIS POCKET

LADIES AND GENTLEMEN, YOU COULD CLEARLY SEE THAT THE

6

DEFENDANTS WERE CARRYING WEAPONS.

THE DEFENDANT ROBINSON

7

ADMITTED TO THE F.B.I. AFTER HIS ARREST ON MARCH 29TH THAT HE

8

DID HAVE A GUN.

9

HE COMMITTED, HIS .380 HIGH POINT THAT HE BOUGHT FROM A PAWN

IN FACT, HE USED IT IN ALL THE ROBBERIES THAT

10

SHOP.

11

DURING THE SEPTEMBER 18TH PROFFER THAT HE GAVE.

12

B.B. GUN CAME IN.

13

YOU'LL RECALL.

14

USED A REAL GUN.

15

I'M SORRY, AT THE BANK OF AMERICA ON 2/12, KELLIE ANDERSON SAID

16

HE FLASHED A GUN LIKE THIS, A BLACK FLAT GUN.

17

VIDEOTAPE, BUT THAT WAS HER TESTIMONY, AND IT'S UP TO YOU TO

18

DECIDE IF THERE WAS A REAL GUN.

19

RECOGNIZE THE GUN THAT WE SHOWED HER, THE .380 HIGH POINT, AND

20

SAID THAT COULD HAVE BEEN THE GUN, IT LOOKED LIKE THE GUN.

21

ALL OF THAT HAS BEEN PROVEN.

HE DID CHANGE HIS STORY
THAT'S WHEN THE

HE CHANGED HIS STORY ON THE STAND TOO IF

FIRST OF ALL, HIS STATEMENT WAS THAT HE NEVER
THE TESTIMONY AT THE WACHOVIA BANK WAS FROM --

IT'S NOT ON THE

HOWEVER, SHE DID -- SHE DID

NOW, ON THE STAND, THOUGH, HE SAYS HE DIDN'T SHOW THE GUN

22

AND HE SAYS HE USED A B.B. GUN.

SO WHICH IS IT?

YOU'VE GOT TO

23

DECIDE THE CREDIBILITY OF THE WITNESSES IN THIS CASE AS WELL AS

24

THAT OF THE DEFENDANT ROBINSON.

25

YOUR COMMON SENSE:

THINK OF IT THIS WAY AND USE

ON 3/29 HE WAS MORE LIKELY TO COME CLEAN AND

107A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 12 of 108

612

1

TELL THE TRUTH.

2

HIS STORY, THINK THROUGH WHAT DETAIL DO I NEED TO CHANGE SO I

3

WON'T BE IN TROUBLE.

4

THE STORY HAD CHANGED TO THE B.B. GUN.

5

CHANGED FROM USING THE B.B. GUN TO USING NO GUN.

6

CAN SEE THE GUNS IN COUNT TWO AT THE TACO BELL.

7

GENTLEMEN, THESE WERE REAL GUNS.

8

THESE ARE NOT THE ACTIONS OF MEN WHO HAVE A TOY IN THEIR POCKET

9

OR AN AIR PISTOL IN THEIR POCKET.

10
11

HE HADN'T HAD TIME TO MAKE UP A STORY, CHANGE

THAT WAS MARCH 29TH OF '07.

BY SEPTEMBER

ON THE STAND THE STORY
CLEARLY YOU
LADIES AND

THEY DIDN'T USE B.B. GUNS.

THESE ARE THE ACTIONS OF MEN

USING REAL GUNS.
COUNT THREE, THE SUNTRUST BANK, WE HAVE NOT ALLEGED A GUN.

12

THERE WAS NO TESTIMONY ABOUT THE USE OF A GUN.

13

ROBINSON HAS ADMITTED HE ROBBED THIS BANK -- HE ROBBED THIS BANK

14

WITH A NOTE.

15

ALSO CONFESSED ON THE STAND AND TO THE F.B.I.

16

WERE ON THAT DEMAND NOTE.

17

ROBINSON GOT INTO THE PASSENGER SIDE OF THE RED CHEVY BLAZER.

18

PHYLLIS JAMES VICTIMIZED TWICE.

19

TWICE.

20

BANK ON FEBRUARY 12TH OF '07 AND AGAIN ON 3/26 OF '07.

21

DEFENDANTS WENT BACK TO THE SAME BANK.

22

ONE THAT HAD TO GIVE HIM THE MONEY.

23

LAYTON WHITMAN WHEN HE CAME IN THE SECOND TIME.

24

MR. ROBINSON.

25

DEFENDANT

CLEARLY YOU CAN FIND HIM GUILTY ON THAT.

HE'S

HIS FINGERPRINTS

WE'VE GOT A GET-AWAY DRIVER.

LAYTON WHITMAN VICTIMIZED

THESE ARE THE VICTIMS THAT WERE ROBBED AT THE SUNTRUST
THE

LAYTON WHITMAN WAS THE

HE WENT RIGHT BACK TO
THAT WAS

MS. JAMES, WHO WAS OBVIOUSLY UPSET AT THE MEMORY OF THE

108A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 13 of 108

613

1

ROBBERIES, SAW HIM GETTING INTO THE PASSENGER SIDE OF THE RED

2

BLAZER.

3

STANLEY JOSEPH THOMPSON.

4

MR. ROBINSON AND I'M NOT GOING TO GO THROUGH THOSE BECAUSE

5

OBVIOUSLY HE'S CONFESSED.

6

THE PHOTOS FROM THAT ROBBERY AND THE BLACK COAT WHICH WE FOUND.

7

OBVIOUSLY TWO PEOPLE.

OBVIOUSLY THE GET-AWAY DRIVER IS

WE HAD A LOT OF IDENTIFICATIONS OF

YOU CAN FIND HIM GUILTY.

THESE ARE

NOW THIS -- COUNTS FOUR AND FIVE, THE BANK OF AMERICA AT

8

WADE GREEN IS THE ONE I JUST MENTIONED, KELLIE ANDERSON WHO SAYS

9

HE FLASHED A FLAT BLACK GUN.

WELL, THAT'S EXACTLY WHAT THE HIGH

10

POINT .380 IS, A FLAT BLACK GUN.

11

TO HER.

12

STATEMENT ON.

13

STATEMENT TO THE B.B. GUN, THEN HIS TESTIMONY, WHICH I SUBMIT TO

14

YOU IS NOT CREDIBLE, IS THAT HE DIDN'T USE A GUN AT ALL.

15

WAS A TWO-SECOND DELAY IN THE PHOTOGRAPH.

16

TO BELIEVE KELLIE ANDERSON.

17

SHE WAS SCARED.

IT DIDN'T LOOK LIKE A B.B. GUN

THIS IS THE ONE HE CHANGED HIS

FIRST HE USED A REAL GUN, THEN HE CHANGED HIS

THERE

THERE'S NO REASON NOT

THE DEFENDANT USED A REAL GUN.

WE'VE ALSO GOT MR. THOMPSON'S FINGERPRINTS ON THIS DEMAND

18

NOTE.

WE'VE ALSO GOT -- I'M SORRY.

STRIKE THAT.

THESE

19

FINGERPRINTS WERE NOT EVEN CONTESTED BY MR. ROBINSON.

20

MR. THOMPSON OBVIOUSLY EITHER WROTE THE NOTE OR GAVE HIM THE

21

PIECE OF PAPER TO USE TO WRITE THE NOTE.

22

DRIVER.

23

JOSEPH THOMPSON'S FINGERPRINTS ON THE NOTE?

24

GENTLEMEN, USE YOUR COMMON SENSE.

25

WROTE THE NOTE OR GAVE THE NOTE.

HE WAS THE GET-AWAY

I'M GETTING A LITTLE AHEAD OF MYSELF.

WHY WERE STANLEY

LADIES AND

HE WAS IN THE CAR.

HE EITHER

AND THESE ARE THE PHOTOGRAPHS

109A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 14 of 108

614

1

FROM THE BANK OF AMERICA, IF YOU'LL RECALL THE TWO-SECOND DELAY.

2

YOU CAN TELL THAT HE IS DOING SOMETHING BETWEEN PHOTOGRAPHS

3

BECAUSE IT JUMPS.

4

WAS COMPLETELY CREDIBLE.

5

IT DOESN'T GET EVERY MOVE.

AND MS. ANDERSON

COUNT SIX AND SEVEN, THE WACHOVIA BANK ON POWERS FERRY

6

ROAD, ANOTHER ARMED ROBBERY WITH A GUN AND A NOTE.

7

A CITIZEN, HE SAW THEM GETTING INTO THE TOYOTA THAT BELONGED TO

8

VIRNA ROBINSON.

9

WE HAVE A GET-AWAY DRIVER HERE, STANLEY JOSEPH ROBINSON.

10

THIS ROBBERY, THE ROBBER, THE FACE CANNOT BE SEEN IN THE

11

PHOTOGRAPHS.

12

THE ROBBER EXCEPT FOR THE FACT THAT THE ROBBER HAD ON ROBINSON'S

13

CLOTHING, AND MR. ROBINSON TESTIFIED YESTERDAY THAT THE SAME

14

PERSON WAS WITH HIM IN ALL THE ROBBERIES EVEN THOUGH HE REFUSED

15

TO POINT THE FINGER AT HIS CO-DEFENDANT.

16

THAT YOU COULD DETERMINE THAT, DEDUCT THAT, AND KNOW THAT FROM

17

THE EVIDENCE THAT THOMPSON WAS THE GET-AWAY DRIVER.

18

TOLD THE F.B.I. AT ONE POINT THAT HE HAD GIVEN HIS CLOTHING, HIS

19

GUN AND HIS CAR TO THOMPSON.

20

BANK.

21

DONALD RUDE,

THE ROBBER, AGAIN, GOT IN THE PASSENGER SIDE.
NOW,

NOBODY HAS BEEN ABLE TO IDENTIFY WHO ACTUALLY WAS

THE TESTIMONY WAS SUCH

HE EVEN

HE KNEW HE WAS GOING TO ROB THE

THAT'S AIDING AND ABETTING.

AIDING AND ABETTING, LADIES AND GENTLEMEN -- I THINK I

22

SKIPPED MY SLIDE ON THAT -- IS TITLE 18, UNITED STATES CODE,

23

SECTION TWO, AND IT'S CHARGED IN ALL THE COUNTS.

24

MEANS THEY AIDED AND ASSISTED EACH OTHER IN COMMITTING THE

25

CRIME.

IT SIMPLY

AND IF YOU FOUND -- IF YOU FIND THAT MR. THOMPSON WAS

110A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 15 of 108

615

1

THE GET-AWAY DRIVER, HE CAN THEN BE FOUND GUILTY OF THE ROBBERY

2

AND THE GUN COUNT, AIDING AND ABETTING, AIDING AND ASSISTING

3

EACH OTHER IN COMPLETING THE CRIMINAL ACT.

4

EITHER ONE OF THEM HAD ANY PART IN ANY OF THE ROBBERIES, YOU CAN

5

FIND THEM GUILTY ON THE ROBBERY AND THE GUN COUNT EVEN IF THEY

6

DIDN'T HAVE THE GUN IN THEIR HAND.

7

PHOTOGRAPH.

8

IF YOU FIND THAT

YOU CAN SEE THE GUN IN THIS

KRISTINA PARKER, SHE WAS THE ONE THAT WAS SCARED FOR

9

HERSELF AND HER UNBORN CHILD.

10

GUN ON TOP OF THE PORTFOLIO.

11

ALSO IDENTICAL TO THE GUN THAT WE HAVE.

12

CAN SEE THE SHAPE AND YOU CAN SEE THE SILVER STRIP.

13

GUN THAT WE HAVE.

14

FOUND AT THE HOTEL ROOM WHEN ROBINSON WAS ARRESTED.

15

NISSAN THAT BELONGED TO VIRNA ROBINSON.

16

WITNESSES SAW IT.

17

FEBRUARY 21ST, COUNTS EIGHT AND NINE, BANK OF AMERICA, ROSWELL

18

ROAD.

19

THE COURTROOM.

20

WILL SHOOT YOU.

21

SHOOT ME, HE SAID.

22

LOOK AT 22-C.

YOU CAN SEE THE

IT IS AS SHE TESTIFIED.

IT'S A REAL GUN.

IT IS

IF YOU LOOK CLOSELY YOU
THAT IS THE

IT'S THE ONLY GUN THAT WAS
HERE IS THE

SHE IDENTIFIED IT.

IT WAS USED IN BOTH OF THE ROBBERIES ON

COREY WEBB SAW A GUN.

HE IDENTIFIED LEARY ROBINSON IN

HE SAID HE TOLD HIM, GIVE ME YOUR MONEY OR I
FORCE, VIOLENCE, FEAR OF INJURY.
HE WAS SCARED.

PLEASE DON'T

DON'T SHOOT ME.

THE GUN IN THIS CASE WAS THE SAME GUN THAT WAS USED IN ALL

23

THE ROBBERIES.

IT LOOKED LIKE A REAL GUN.

24

GREEN HAS COMPARED IT TO PHOTOGRAPHS.

25

EXPERIENCE, THEY MATCH.

SPECIAL AGENT MIKE

IN HIS OPINION, HIS

THERE'S THE GUN.

THERE'S COREY WEBB.

111A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 16 of 108

616

1

HE'S POINTING IT RIGHT AT HIM.

2

STRIPE.

3

PURCHASED AND ADMITTED TO BY LEARY ROBINSON.

4

TO HAVE A GUN POINTED IN YOUR FACE.

5

THE CAR.

6

AND GENTLEMEN.

7

DEFENDANTS ARE THE PEOPLE THAT COMMITTED THESE ROBBERIES.

8

THERE'S MORE THAN OVERWHELMING EVIDENCE TO PROVE THAT IN THIS

9

CASE.

10

AGAIN, YOU CAN SEE THE SILVER

THAT IS THE .380 AUTOMATIC HANDGUN REGISTERED AND
IT'S A SCARY THING

AGAIN, PASSENGER SIDE OF

IT TOOK TWO PEOPLE TO COMMIT THESE ROBBERIES, LADIES
YOU CAN LOGICALLY CONCLUDE THAT THE TWO

THE LAST THREE ROBBERIES ARE NOT ARMED ROBBERIES.

ROBINSON

11

HAS CONFESSED TO THEM.

12

BY HIS EX-WIFE.

13

YOU CAN SEE THE PORTFOLIO THAT HE USED, THAT A LOT OF PEOPLE

14

TESTIFIED HE USED, HIS PLAID L.A. HAT WHICH WE HAVE.

15

REALLY NO ISSUE AS TO THE ROBBERY IN THAT CASE.

16

BANK ROBBERY ON WEST PACES FERRY.

17

ONCE AGAIN, THE DEMAND NOTE WAS SIMILAR TO PREVIOUSLY USED

18

DEMAND NOTES BY THE TWO ROBBERS.

19

PACKS, EMPTY YOUR DRAWERS.

20

ISSUE.

21

HE'S BEEN IDENTIFIED BY THE PHOTOGRAPHS

WHAT ABOUT THE GET-AWAY DRIVER IN THOSE COUNTS?

THERE IS

COUNT ELEVEN,

THE RED BLAZER WAS USED.

AND

THIS IS A ROBBERY, NO INK

AGAIN, HERE'S THE PORTFOLIO.

NO

COUNT 12, BACK TO THE SUNTRUST BANK, SAME BANK AS COUNT

22

THREE, SAME VICTIMS, SAME CAR.

DEFENDANT GOT IN THE PASSENGER

23

SIDE OF THE CHEVY BLAZER AND TOLD THE F.B.I. THAT THOMPSON WAS

24

THE GET-AWAY DRIVER.

25

CASE IS THAT THOMPSON IS THE GET-AWAY DRIVER.

SO THE ONLY LOGICAL CONCLUSION IN THIS
WE'VE GOT HIS

112A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 17 of 108

617

1

FINGERPRINTS.

2

WE'VE GOT HIM IN THE FIRST ROBBERY, THE TACO BELL.

3

INTERESTINGLY ENOUGH, HIS FINGERPRINTS WERE FOUND HERE ON 2/12,

4

HERE ON 3/26.

5

WHAT ARE THE ODDS THAT HIS FINGERPRINTS WOULD BE ON THOSE TWO

6

NOTES AND THAT HE WOULD HAVE BEEN IN THE TACO BELL?

7

WE'VE GOT HIM DRIVING THE RED CHEVY BLAZER.
AND

LADIES AND GENTLEMEN, HE DIDN'T TAKE A BREAK.

THIS IS THE NOTEPAD THAT WAS FOUND WHERE -- YOU CAN

8

CONCLUDE FOR YOURSELVES WHAT THIS MEANS.

HOWEVER, IT WAS FOUND

9

IN THE HOTEL ROOM AND IT CERTAINLY LOOKED LIKE THEY WERE

10

DIVIDING UP MONEY.

THE 2304 DIVIDED BY TWO SEVERAL PLACES,

11

SIMILAR TO THE AMOUNT TAKEN IN ONE OF THE ROBBERIES, IN THE LAST

12

ROBBERY.

13

GET-AWAY CAR.

14

LAW ENFORCEMENT TO THE INTOWN SUITES WHERE THEY ARRESTED

15

MR. ROBINSON WHO WAS BARRICADED IN HIS ROOM WITH HIS HANDGUN,

16

WITH HIS .380 HIGH POINT HANDGUN WHICH CHAD FITZGERALD, SPECIAL

17

AGENT FITZGERALD CLAIMED HE HEARD A SHOT FIRED.

18

COME OUT.

19

BULLETS, AND THE HOLSTER WERE FOUND IN THE ROOM.

20

MR. ROBINSON WAS BARRICADED WAS REGISTERED TO STANLEY JOSEPH

21

THOMPSON.

22

TALKING ABOUT A REAL GUN HERE.

23

ABOUT A REAL GUN WITH REAL BULLETS, REAL DANGER.

24

TALKING ABOUT B.B. GUNS.

25

CASE.

AND, OF COURSE, MR. THOMPSON WAS ARRESTED DRIVING THE
HE WAS DRIVING THE RED CHEVY BLAZER.

AGENT MYERS HAD TO COAX HIM OUT.

THE GUN WAS LOADED.

THIS LED

HE REFUSED TO

THE GUN, THE
463 WHERE

LADIES AND GENTLEMEN, WE ARE
YOU SAW THE GUN.

WE ARE TALKING
WE ARE NOT

THERE WERE NO B.B. GUNS USED IN THIS

113A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 18 of 108

618

1

I'VE TALKED A LITTLE BIT ABOUT HIS CONFESSION.

HE

2

CONFESSED TO AGENTS CARMAN AND MYERS WHEN HE WAS FIRST ARRESTED.

3

THEY READ HIM HIS MIRANDA RIGHTS.

4

HIM.

5

CONFESS TO SIX OUT OF THE SEVEN ROBBERIES.

6

THE GUN IN ALL OF THE ROBBERIES.

7

PRIOR TO THE ROBBERIES.

8
9

THERE WAS NO PRESSURE PUT ON

HE CONSENTED TO THE SEARCH OF THE ROOM.

HE PROCEEDED TO

HE ADMITTED TO USING

IT WAS HIS OWN GUN PURCHASED

SPECIAL AGENT GREEN, HE OBTAINED THE CONSENT TO SEARCH FROM
STANLEY JOSEPH THOMPSON, ALL OF THAT FOUND IN THE ROOM, GUN,

10

BULLETS, CLOTHING, HAT.

11

GUNS FOUND AND THERE WAS $2,800 IN THE SAFE.

12

BLAZER, CLOTHES WORN IN THE ROBBERIES, THE GREEN HOODED

13

SWEATSHIRT.

14

WERE IN THIS TOGETHER.

15

BULLETS.

16

INTERESTING ENOUGH, THERE WERE NO B.B.
FOUND IN THE RED

THOMPSON WORE IT IN THE TACO BELL ROBBERY.

THEY

THE ONLY GUN FOUND, REAL GUN, REAL

AND WHAT LINKS STANLEY JOSEPH THOMPSON?

I THINK I'VE

17

ALREADY BEEN THROUGH ALL OF THIS.

HE'S CLEARLY IN THE TACO

18

BELL.

19

THREE, ROBINSON GOT IN THE PASSENGER SIDE OF THE RED CHEVY

20

BLAZER.

21

COUNTS FOUR AND FIVE, BOTH OF THEIR FINGERPRINTS ARE ON THE

22

DEMAND NOTE.

23

GOING TO BE UP TO YOU TO DECIDE IF IT WAS LEARY ROBINSON,

24

STANLEY JOSEPH THOMPSON, OR SOMEONE ELSE BECAUSE OF THE FACT

25

THAT THE FACE WAS NOT CLEAR IN THE PHOTOS.

THEY CLEARLY HAVE REAL GUNS IN THE TACO BELL.

COUNT

HE CLAIMED THAT THOMPSON WAS THE GET-AWAY DRIVER.

COUNT SIX AND SEVEN, THE WACHOVIA BANK.

IT'S

HOWEVER, LOOK AT

114A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 19 of 108

619

1

THIS, ROBINSON CLOTHING, ROBINSON'S NAME TAG, THE CAMOUFLAGE

2

CLOTHES THAT WERE RECOVERED.

3

PASSENGER DOOR ON ROBINSON'S TOYOTA AND THERE WAS ANOTHER

4

DRIVER.

5

ROBBERY.

6

HAD GIVEN THE CLOTHING AND THE GUN TO THE ROBBER.

7

HIM AN AIDER AND ABETTOR.

8

FOUND IN THE ROOM.

9

HAVE DUPLICATED SOME OF MY SLIDES.

THE ROBBER LEFT AND GOT IN THE

NOW, MR. ROBINSON HAS NEVER ADMITTED TO DOING THAT
HOWEVER, HE DID ADMIT THAT HE KNEW WHO DID IT AND HE
THAT MAKES

THESE ARE ALL THE THINGS THAT WERE

YOU'VE HEARD THAT EVIDENCE.

I THINK I MAY

HERE IS MY AIDING AND

10

ABETTING.

11

GOES IN.

12

GUILTY.

13

THEY BORROWED CLOTHING.

14

DEMAND NOTES.

15

EACH OTHER IN OBTAINING CARS AND SWITCHING CARS.

16

HOTEL ROOMS AT THE INTOWN SUITES, BUT ROBINSON WAS ARRESTED IN

17

THOMPSON'S ROOM WITH THE GUN.

18

IF THEY WERE IN ON IT TOGETHER, IT DOESN'T MATTER WHO
IF THE OTHER PERSON IS WAITING IN THE CAR, THEY ARE

THEY WERE PARTNERS IN CRIME.

THEY SPLIT THE MONEY.

THEY BOTH HAD A HAND IN WRITING THE

ONE WAS ALWAYS WAITING IN THE CAR.

THEY ASSISTED
THEY HAD TWO

THE ONLY EVIDENCE YOU HAVE IN THIS CASE OF A B.B. GUN IS

19

LEARY ROBINSON'S TESTIMONY, WHICH WAS CHANGED FROM HIS INITIAL

20

STATEMENT THAT HE USED A REAL GUN.

21

POCKETS AT THE TACO BELL.

22

CARRYING B.B. GUNS.

23

POINT, AND I SUBMIT TO YOU IT WAS WHILE HE WAS ON THE STAND IN

24

THIS COURTROOM YESTERDAY.

25

LAST STORY EXCULPATES HIMSELF OF ANY REAL GUN, BUT THAT CAME OUT

YOU SAW THEIR HANDS IN THE

THOSE ARE NOT THE ACTIONS OF MEN

LEARY ROBINSON WAS OBVIOUSLY LYING AT SOME

THE STORY CHANGED THREE TIMES.

THE

115A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 20 of 108

620

1

OF HIS MOUTH AFTER HE CHANGED HIS STORY TWICE.

2

YOU, YOU DO NOT HAVE TO GIVE HIM ANY CREDIBILITY IF YOU FIND

3

THAT HE IS NOT CREDIBLE.

4

YOU.

5

AND I SUBMIT TO

I SUBMIT TO YOU THAT HE HAS LIED TO

THE DEFENDANT'S TESTIMONY WAS FAIRLY CHILLING.

I DON'T

6

KNOW IF YOU RECALL -- I'M SURE YOU DO -- HE WENT AWOL FROM THE

7

ARMY BECAUSE IT JUST WASN'T HIS THING.

8

A FIREARM FOR PROTECTION.

9

ABOUT ROBBING BANKS.

HE JUST LEFT.

HE BOUGHT

THEN PEOPLE STARTED TALKING TO HIM

HE SEEMED PROUD.

10

TACO BELL.

11

TALKED ABOUT USING A B.B. GUN.

12

THEY'LL LAY DOWN.

13

ROBBER.

14

HE WENT TO WAL-MART, STOLE A LICENSE PLATE, BOUGHT A B.B. GUN

15

HOLSTER AND GOT A HAIRCUT, VERY MATTER OF FACT, VERY COLD.

16

SAID HE FLASHED THE GUN IN THE SUNTRUST BECAUSE ALL YOU'VE GOT

17

TO DO IS GIVE THEM A NOTE, BUT IF YOU FLASH, THEN YOU SHOW THEM

18

YOU'VE GOT SOMETHING.

19

I'M THE GOOD-LOOKING ONE.

YEAH, THAT'S ME IN THE
ANY REMORSE THERE?

HE

YOU POINT ANYTHING AT THEM,

VERY SURE, VERY CONFIDENT OF HIMSELF AS A

HE PREPARED FOR THE SECOND ROBBERY.

HE GOT NEW TIRES.

HE

THAT IS MEANT TO SCARE PEOPLE.

LADIES AND GENTLEMEN, I'M NOT GOING TO BELABOR THE POINT

20

ABOUT MR. ROBINSON'S GUILT.

CLEARLY HE'S GUILTY OF ALL THE

21

ROBBERIES.

22

THE WACHOVIA.

23

FIND THAT HE WAS INVOLVED IN THAT ROBBERY.

24

WERE USED IN THIS CASE.

25

THE ONLY TESTIMONY WAS FROM MR. ROBINSON.

YOU HAVE TO DECIDE IF HE'S GUILTY OF THE ROBBERY IN
YOU CAN FIND HE WAS AN AIDER AND ABETTOR IF YOU
CLEARLY REAL GUNS

THERE HAVE BEEN NO B.B. GUNS FOUND.
THE REAL GUN MATCHES

116A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 21 of 108

621

1

OUR SURVEILLANCE PHOTOGRAPHS.

2

ROBBERY EVEN IF THEY DID USE A B.B. GUN, BUT THE SEPARATE GUN

3

COUNT YOU MUST FIND THEY USED A REAL GUN.

4

ABETTED EACH OTHER THEY ARE BOTH GUILTY OF EVERY SINGLE COUNT.

5

YOU CAN FIND THEM GUILTY OF ARMED

IF THEY AIDED AND

LADIES AND GENTLEMEN, THANK YOU FOR YOUR TIME AND ATTENTION

6

IN THIS CASE.

I WILL SPEAK TO YOU AGAIN AT THE CLOSE OF THE

7

DEFENSE COUNSEL'S ARGUMENTS, BUT I ASK YOU TO USE YOUR COMMON

8

SENSE IN THIS CASE.

9

EVIDENCE CAN BE GIVEN JUST AS MUCH WEIGHT AS DIRECT EVIDENCE.

YOU CAN MAKE DEDUCTIONS.

CIRCUMSTANTIAL

10

WE HAVE A LOT OF CIRCUMSTANTIAL EVIDENCE IN THIS CASE.

YOU CAN

11

CERTAINLY CONSIDER THAT, BUT IT'S UP TO YOU TO DECIDE.

IT'S UP

12

TO YOU TO CONSIDER THE EVIDENCE AND GIVE IT THE WEIGHT THAT YOU

13

THINK IT DESERVES, BUT I'M SURE THAT AT THE END WHEN YOU HAVE

14

LOOKED AT ALL THE EVIDENCE YOU WILL CONCLUDE THAT THE GOVERNMENT

15

HAS PROVEN ITS CASE BEYOND A REASONABLE DOUBT.

16

FIND THEM GUILTY OF ALL COUNTS IN THE INDICTMENT.

17

THE COURT:

18

MR. SAVIELLO:

AND I ASK YOU TO
THANK YOU.

THANK YOU, MS. HOFFER.
NOW, LADIES AND GENTLEMEN, I TOLD YOU

19

AT THE BEGINNING OF THIS CASE THAT MR. ROBINSON WAS GUILTY OF

20

ALL THE ROBBERIES EXCEPT FOR THE WACHOVIA ROBBERY ON

21

FEBRUARY 21ST.

22

THOSE ROBBERIES.

23

DOCUMENTS THAT WERE ADMITTED, THE TESTIMONY THAT CAME, THE

24

VIDEOS THAT YOU SAW, ALL OF THAT TAKEN IN TOTAL SUPPORTS WHAT I

25

TOLD YOU AT THE BEGINNING OF THE CASE.

I TOLD YOU THAT HE DIDN'T USE A GUN IN ANY OF
THE EVIDENCE THAT YOU HAVE BEFORE YOU, THE

AND NOW IS THE TIME WHEN

117A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 22 of 108

622

1

YOU JUDGE FOR YOURSELVES WHAT THE EVIDENCE SAYS AND WHAT

2

CONCLUSIONS CAN BE REACHED.

3

SAY ARE MERELY SUMMARIES OF THIS.

4

FOR YOURSELVES, AND I ASK YOU TO USE YOUR COMMON SENSE WHEN YOU

5

DO THIS.

6

DO THAT YOU'LL SEE THAT THE GOVERNMENT HAS FAILED TO MEET ITS

7

BURDEN IN PROVING THAT LEARY ROBINSON IS THE ONE THAT ROBBED THE

8

WACHOVIA ON THE 21ST OR THAT HE CARRIED A REAL GUN INTO ANY OF

9

THE PLACES THAT WERE ROBBED AT ANY POINT IN THIS CASE.

10

TAKE YOUR TIME.

WHAT THE GOVERNMENT SAYS AND WHAT I
YOU MUST BE THE ONES TO JUDGE

LOOK AT THE EVIDENCE.

AND WHEN YOU

MR. ROBINSON CAME IN HERE AND ADMITTED THAT HE DID THOSE

11

ROBBERIES.

12

ACTIONS.

13

THAT HE'S GOING TO PRISON FOR THESE ROBBERIES EXCEPT FOR THE

14

WACHOVIA BANK.

15

STAND, YOU CONSIDER THAT HE'S NOT A PROFESSIONAL WITNESS, HE'S

16

NOT TESTIFIED IN COURT BEFORE, IF YOU CONSIDER THAT AND YOU

17

CONSIDER HIS CREDIBILITY AND HIS DEMEANOR ON THE STAND, AND WHEN

18

YOU DO THAT, LADIES AND GENTLEMEN, AT THE END OF THIS YOU WILL

19

FIND THAT THE GOVERNMENT HAS NOT SHOWN BEYOND A REASONABLE

20

DOUBT, THEY HAVE NOT PROVEN THEIR CASE THAT FAR.

21

HE CAME IN HERE TO TAKE RESPONSIBILITY FOR HIS

HE IS NOT A PROFESSIONAL WITNESS.

HE IS HERE KNOWING

AND SO IF YOU CONSIDER HIS DEMEANOR ON THE

THE JUDGE WILL INSTRUCT YOU AFTER ARGUMENTS ARE OVER ON

22

WHAT THE DEFINITION OF "REASONABLE DOUBT" IS.

AND WHAT SHE WILL

23

SAY IS THAT REASONABLE DOUBT -- I'M PARAPHRASING, SO TAKE THE

24

JUDGE'S WORDS VERBATIM, BUT TAKE MINE NOW AS ARGUMENT.

25

REASONABLE DOUBT, A DOUBT SUCH THAT WHEN YOU ARE MAKING

THAT

118A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 23 of 108

623

1

DECISIONS IN THE MOST IMPORTANT OF YOUR PERSONAL AFFAIRS, YOU

2

NEED TO BE THAT CERTAIN OF GUILT BEFORE YOU CAN VOTE GUILTY, THE

3

MOST IMPORTANT OF YOUR PERSONAL AFFAIRS.

4

IN YOUR LIVES THAT ARE IMPORTANT TO YOU, THE DECISION ABOUT HOW

5

TO TREAT A SICK CHILD, IF THE DOCTOR HAS GIVEN YOU ENOUGH

6

INFORMATION.

7

DOCTOR, YES, TREAT MY CHILD THIS WAY.

8

CERTAINTY THAT IS BEYOND A REASONABLE DOUBT AND THE JUDGE WILL

9

TELL YOU THAT IN CLOSING.

10

THINK ABOUT THE THINGS

YOU NEED TO BE THAT CERTAIN BEFORE YOU SAY TO THE
THAT'S THE LEVEL OF

NOW, THE GOVERNMENT'S THEORY THAT THEY HAVE PRESENTED TO

11

YOU THROUGHOUT THIS CASE, OPENING STATEMENT UNTIL CLOSING

12

STATEMENT, IS THAT LEARY ROBINSON COMMITTED ALL OF THESE

13

ROBBERIES AND THAT IN EACH AND EVERY ONE OF THEM HE USED THAT

14

.380 HANDGUN THAT WAS FOUND IN THE HOTEL ROOM, NOT SOME OTHER

15

HANDGUN, THAT PARTICULAR .380 HANDGUN.

16

US THAT THAT SIMPLY CANNOT BE.

17

THINGS THAT TELL US THAT.

18

COREY WEBB WAS THE TELLER AT BANK OF AMERICA ON FEBRUARY 21ST.

19

RIGHT.

20

TOLD YOU, LIKE ALL THE TELLERS DID, THAT THEY ARE TRAINED TO

21

OBSERVE THINGS.

22

SOMEONE COMES IN AND ROBS YOU, STAY CALM, DO WHAT YOU ARE TOLD,

23

BUT DO YOUR BEST TO OBSERVE EVERYTHING YOU CAN ABOUT THE ROBBER

24

AND THE ROBBERY, SO MUCH SO THAT AS SOON AS THE ROBBERY IS

25

FINISHED, THE ROBBER IS OUT THE DOOR, THE FIRST THING THEY DO IS

OKAY.

AND THE EVIDENCE TELLS
THERE'S TWO PRINCIPAL

NUMBER ONE, COREY WEBB'S TESTIMONY.

INTELLIGENT, DYNAMIC YOUNG MAN, GOOD AT HIS JOB.

HE

THEY ARE TRAINED TO BE A TELLER, IS THAT WHEN

119A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 24 of 108

624

1

LOCK THE DOORS.

2

THE SECOND THING THEY DO IS CALL LAW ENFORCEMENT.

THE

3

THIRD THING YOU DO IS CALL THE BANK'S SECURITY DIRECTOR.

AND

4

THE FOURTH THING THAT THAT TELLER DOES IS SIT DOWN WITH A

5

SUSPECT DESCRIPTION FORM THAT THEY KEEP IN THE BANK AND WRITE

6

DOWN THE THINGS THAT HE OR SHE REMEMBERS ABOUT THE ROBBER AND

7

WRITES DOWN THOSE DETAILS.

8

LATER.

9

THEY DO THIS THAT MAXIMIZES THEIR ABILITY TO GET CRITICAL

THIS IS NOT SOMETHING THAT HAPPENS

BANKS GET ROBBED OFTEN AND THEY HAVE A PROCEDURE FOR HOW

10

INFORMATION AS QUICK AS POSSIBLE.

WHAT DID COREY WEBB SAY?

11

SAID A MAN CAME IN AND ROBBED HIM.

IS IT LEARY ROBINSON?

12

THAT'S HIM RIGHT THERE.

13

FAMILIAR WITH GUNS?

14

FAMILIAR WITH GUNS FROM THAT.

15

SHOT THEM, I EVEN LOOKED INTO BUYING ONE FOR MYSELF.

16

FAMILIAR WITH GUNS.

17

ROBBERY AGAINST YOU.

18

LIKE A GLOCK, KIND OF BOXY.

19

DID HE USE A GUN?

HE

YEP,

MR. WEBB, ARE YOU

I AM AND I GREW UP IN THE PROJECTS AND I'M
I'VE HANDLED THEM, HELD THEM,
I AM

TELL US ABOUT THE GUN THAT WAS USED IN THE
BLACK SEMI-AUTOMATIC HANDGUN.

IT LOOKED

THE GOVERNMENT SHOWED HIM THE .380 THAT THEY SAY IS THE GUN

20

USED IN THAT ROBBERY.

AND WHAT DID HE SAY?

21

THAT IS NOT THE GUN THAT WAS USED TO ROB ME.

22

FAMILIAR WITH GUNS, NO IMPEDIMENT.

23

THAT GUN.

24

SAY?

25

SILVER STRIPE.

THEY SHOWED HIM.

IT'S NOT THE GUN.
THIS MAN IS

HE HAS THE ABILITY TO SEE

HE POINTED OUT.

AND WHAT DID HE

HE SAID THE GUN THAT WAS USED TO ROB ME DID NOT HAVE A
THEY SHOWED HIM THE PHOTO.

YOU SEE THE

120A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 25 of 108

625

1

GOVERNMENT PHOTO?

I SURE DO.

IS THAT THE BACK OF YOUR HEAD?

2

IS THAT YOU GETTING ROBBED?

3

STRIPE IN THE PHOTO?

4

I SEE THE SILVER STRIPE.

5

TO ROB ME WAS ALL BLACK AND DID NOT HAVE A SILVER STRIPE.

6

THAT'S NOT THE BEST EVIDENCE, I DON'T KNOW WHAT IS.

7

STANDING TWO OR THREE FEET FROM THE GUN, IS FAMILIAR WITH GUNS,

8

IS TRAINED HOW TO HANDLE HIMSELF IN A ROBBERY TO OBSERVE

9

DETAILS.

IT SURE IS.

DO YOU SEE THE SILVER

WHAT HE SAID WAS, I SEE THE PHOTOGRAPH AND
WHAT I'M TELLING YOU IS THE GUN USED
IF

THIS MAN IS

COREY WEBB IS THE BEST EVIDENCE.

10

THE SECOND THING THAT TELLS YOU THAT THE GOVERNMENT'S

11

THEORY HAS PROBLEMS IS THAT THE .380 -- THEY SAY THE .380 USED

12

TO ROB COREY WEBB WAS A .380 FOUND IN THE HOTEL ROOM WHEN LEARY

13

ROBINSON WAS ARRESTED.

14

WITNESSES SAID ABOUT -- AND THE VIDEO SHOWED ABOUT GETTING --

15

THE STEPS HE WENT THROUGH THE ROBBERY.

16

OPENS THE FOLDER, SLIDES THE GUN OUT AND SHOWS HIM, PUTS THE GUN

17

BACK IN THE FOLDER.

18

PACK.

19

THE GUN, CLOSES THE FOLDER AND THEN LEAVES.

20

EVERYBODY WHO KNEW ABOUT IT, SO YOU'VE HEARD IT ENOUGH -- OR THE

21

BASICS.

22

GO OUT THE DOOR THEY ARE DESIGNED TO STAIN PERMANENTLY ANYTHING

23

THAT THEY COME IN CONTACT WITH.

24

WITH THE THING -- ITEM THAT WAS USED TO ROB MR. WEBB, AND THAT

25

ITEM, THAT GUN, WEAPON, WOULD BE STAINED WITH DYE.

REMEMBER COREY WEBB AND WHAT ALL THE

MR. ROBINSON APPROACHES,

MR. WEBB PREPARES THE MONEY IN THE DYE

MR. ROBINSON TAKES THE MONEY, PUTS IT IN THE FOLDER WITH
I ASKED ABOUT

THOSE DYE PACKS ARE DESIGNED -- THIS WAS -- WHEN THEY

THE DYE PACK WAS IN THE FOLDER

THERE'S JUST

121A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 26 of 108

626

1
2

NO OTHER EXPLANATION FOR IT.

THE DYE PACK EXPLODED.

YOU HEARD FROM DETECTIVE ROMERO THE DYE PACK WAS FOUND IN

3

THE PARKING LOT AT THAT BANK OF AMERICA ON FEBRUARY 21ST.

4

GUN THAT WAS USED TO ROB COREY WEBB WOULD BE COVERED WITH DYE.

5

IT'S JUST THAT SIMPLE.

6

MR. ROBINSON, THE .380, HAS NO DYE ON IT, NONE WHATSOEVER.

7

AGENT CARMAN DID NOT SEEK TO TEST THAT GUN AT ANY POINT.

8

BROUGHT AN AGENT IN HERE TO TELL YOU, OH, WELL, AFTER YOU GET A

9

CONFESSION WE OFTEN STOP TESTING FORENSIC EVIDENCE.

10
11

THE

AND THE GUN THAT WAS FOUND WITH

NEED ONCE WE HAVE A CONFESSION.

THEY

WE SEE NO

NONSENSE.

THEY GOT HIS CONFESSION ON MARCH 29TH.

UP TO A WEEK LATER

12

AGENT CARMAN WAS STILL SEEKING I.D.'S OF MR. ROBINSON AS THE

13

ROBBER IN THESE ROBBERIES.

14

INFORMATION TRYING TO CONFIRM THE CASE.

15

CONFESSION IS THE END OF IT, WE DON'T NEED TO DO ANYTHING ELSE,

16

DON'T BELIEVE THAT.

17

OBVIOUSLY NO DYE ON IT.

18

YOUR OWN EYES AND TELL ME IF THERE IS ANY DYE ON THAT GUN.

19

F.B.I. HAS A LAB THAT'S SPECIFICALLY SET UP TO TRACE AND DETECT

20

ANY TRACE OF THAT DYE.

21

BECAUSE IT WAS NOT THE GUN USED IN THAT ROBBERY.

22

THE FUNDAMENTAL PIECE OF THE GOVERNMENT'S THEORY FALLS APART.

23

ASK YOURSELF -- ADD UP TO THE QUESTIONS ABOUT THE ENTIRE

24

GOVERNMENT'S THEORY.

25

BEEN THAT THE SAME GUN WAS USED ACROSS THE BOARD, ALL THE

HE WAS STILL OUT THERE GATHERING THE
SO WHEN THEY SAY THE

THEY DIDN'T TEST THAT GUN BECAUSE THERE'S
YOU WILL HAVE IT TO LOOK AT AND USE
THE

AND IT KNOWS THERE IS NO DYE ON IT
AND IN FACT,

BECAUSE THEIR THEORY IS AND ALWAYS HAS

122A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 27 of 108

627

1
2

EVIDENCE.
COREY WEBB, GREAT WITNESS.

AND THE SCIENTIFIC EVIDENCE

3

TELLS YOU THAT THE GUN FOUND ON MR. ROBINSON ON THE 29TH WAS NOT

4

THE GUN USED IN THE BANK OF AMERICA ROBBERY ON FEBRUARY 21ST.

5

COREY WEBB WAS WRONG.

6

BANK OF AMERICA ROBBERY, YOU HAVE TO ASK YOURSELF WHAT EVIDENCE

7

DO YOU HAVE THAT A REAL GUN WAS USED IN ANY OF THESE ROBBERIES.

8

MR. ROBINSON ADMITTED HIS PARTICIPATION IN THESE ROBBERIES.

9

THERE'S ABSOLUTELY NO QUESTION HE'S GUILTY OF THE ROBBERIES BUT

10

FOR THE WACHOVIA ROBBERY, AND I'LL TALK ABOUT THAT IN A MINUTE.

11

BUT THE QUESTION OF WHETHER A REAL GUN WAS USED IN THESE

12

ROBBERIES IS VERY MUCH AT ISSUE AND THAT'S FOR YOU TO DECIDE.

13

LEARY TOLD YOU THAT IT WAS A B.B. GUN.

14

A B.B. GUN, BECAUSE WHEN YOU WALK INTO A PLACE TO ROB SOMEBODY

15

YOU HAVE TO SHOW SOMETHING.

16

GOING TO QUESTION YOU.

17

SAY, HEY, BEFORE YOU ROB ME CAN I LOOK JUST TO MAKE SURE THAT'S

18

A GUN?

19

AND IF THAT .380 WAS NOT USED IN THAT

AND

HE TOLD YOU WHY HE USED

YOU SHOW THEM THIS, THEY ARE NOT

NO ONE IS GOING TO STOP AND LOOK AND

NONSENSE.

SHRONDA HALL WORKS FOR THE TACO BELL -- TOLD YOU SHE LOOKED

20

UP FROM HER DESK, SAW MR. ROBINSON STANDING THERE POINTING WHAT

21

LOOKED LIKE A GUN AT HER.

22

SHE HIT THE FLOOR.

SHE DOESN'T NEED TO ASK.

23

TO BE TOLD TWICE.

SHE DOESN'T NEED TO CHECK.

24

SPECIFICALLY ON DIRECT EXAMINATION, DID IT LOOK LIKE A REAL GUN?

25

SHE SAID, I DON'T KNOW.

WHAT DID SHE DO?

AS MS. HOFFER SAYS,
SHE DOESN'T NEED
WHEN ASKED

I'M NOT GOING TO CHECK.

HE POINTED THE

123A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 28 of 108

628

1

GUN AT ME AND I GOT ON THE FLOOR.

2

ACTIONS OF THE MEN AT THE TACO BELL ARE NOT THE ACTIONS OF MEN

3

USING A B.B. GUN, DON'T BELIEVE IT.

4

DESIGNED -- JUDGE FOR YOURSELF BECAUSE YOU'LL HAVE THEM TO LOOK

5

AT -- ARE DESIGNED TO LOOK EXACTLY LIKE HANDGUNS.

6

WHEN YOU JUDGE THOSE, LOOK FOR YOURSELVES BECAUSE YOU'LL HAVE

7

THEM TO LOOK AT.

8

THEM FROM A PERSPECTIVE OF A ROBBERY VICTIM, A GUN BEING POINTED

9

AT YOU HELD BY SOMEBODY ELSE IN WHAT'S OBVIOUSLY A ROBBERY

B.B. GUNS ARE MADE AND

AND ASK --

THEY LOOK -- WHEN YOU CONSIDER THEM, CONSIDER

10

SITUATION.

11

GUN.

12

IT COULD BE THAT GUN.

13

OKAY.

WHEN MS. HOFFER SAYS THE

SO NO WITNESS IDENTIFIED THE GOVERNMENT'S

NO WITNESS IDENTIFIED THAT GUN ON THE STAND.

SEVERAL SAID

IN ALL THE TESTIMONY YOU NEVER HEARD A SINGLE WITNESS, WHEN

14

ASKED TO DESCRIBE THE GUN THAT WAS USED IN THE ROBBERY,

15

DESCRIBED IT AS OTHER THAN A BLACK SEMI-AUTOMATIC-TYPE PISTOL.

16

NOT A SINGLE WITNESS, NOT A SINGLE ONE EVER SAID THE GUN WITH A

17

SILVER STRIPE.

18

TRAINED TO OBSERVE THESE THINGS.

19

IT, YOU WILL SEE THE ONE DISTINGUISHING FEATURE ON GOVERNMENT'S

20

EXHIBIT 42, WHICH IS A .380 FOUND WITH LEARY ROBINSON WITH A

21

SILVER STRIPE ON THE SIDE OF IT.

22

IDENTIFIED THAT SILVER STRIPE.

23

FOUND CANNOT BE THE ONE USED IN THE BANK OF AMERICA.

24

THAT'S THE CASE AND WE ASK WHAT GUN THEN, WHAT ITEM WAS USED IN

25

EACH ONE OF THESE ROBBERIES, ASK YOURSELF IF IT'S POSSIBLE, IF

THE TELLERS ARE TRAINED TO KNOW THESE THINGS,
AND THAT GUN, WHEN YOU LOOK AT

NOT A SINGLE WITNESS

AND WE KNOW THAT THE .380 THEY
AND IF

124A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 29 of 108

629

1

IT'S REASONABLE THAT A B.B. GUN THAT LOOKS JUST LIKE A REGULAR

2

GUN WAS USED.

3

WAS USED UP UNTIL HE ROBBED COREY WEBB GOT COVERED IN DYE AND HE

4

THREW IT AWAY BECAUSE IT'S NO GOOD ANYMORE, WHICH IS WHAT THE

5

DYE PACK IS DESIGNED TO DO.

6

MR. ROBINSON TOLD YOU THAT THE B.B. GUN HE HAD

AS FOR MS. ANDERSON'S TESTIMONY ABOUT THE BANK OF AMERICA

7

ROBBERY ON FEBRUARY 12TH, MS. ANDERSON IS THE TELLER WHO CAME IN

8

AND SAID THAT SHE WAS ROBBED AND MR. ROBINSON FLASHED A GUN UP

9

IN THE AIR.

I WOULD ASK YOU TO LOOK AT THE VIDEO FOR YOURSELVES

10

AND JUDGE WHETHER OR NOT THAT HAPPENED.

FIRST OF ALL,

11

MR. ROBINSON ADMITTED THE ROBBERY TO YOU.

12

CARRIED A B.B. GUN IN THAT ROBBERY.

13

BUT ASK IN MS. ANDERSON'S TESTIMONY IF A GUN WAS FLASHED.

14

AT THE VIDEO FOR YOURSELVES AND YOU DECIDE WHETHER THAT'S EVEN

15

POSSIBLE.

16

THAT IT WAS A REAL GUN.

17

THAN IT WAS BLACK-TYPE GUN THAT WAS FLASHED.

18

IT'S THAT -- NO WITNESS GETS UP AND TESTIFIES AND SAYS, YES, IT

19

LOOKS TO ME LIKE THAT PARTICULAR -- LOOK FOR YOURSELVES AND ASK

20

IF THAT EVEN HAPPENED.

21

LINE HOLDING A NOTE WITH TWO HANDS.

22

ON THE COUNTER WITH HIS LEFT HAND.

23

HIGH.

24

GO BELOW THE COUNTER AGAIN.

25

HAND, IT'S HIS RIGHT HAND THAT COMES UP, TAKES THE MONEY, COMES

HE ADMITTED THAT HE

HE SAYS HE DIDN'T FLASH IT.
LOOK

BUT EVEN IF IT WAS, IT DOES NOT SUPPORT ANY INFERENCE
SHE COULD GIVE NO DESCRIPTION OTHER
NO WITNESS CAN SAY

YOU SEE MR. ROBINSON APPROACH THE TELLER
YOU SEE HIM PLACE THE NOTE
THE COUNTER WAS 54 INCHES

YOU SAW ME MEASURE THAT FROM THE STAND YOURSELF.

HANDS

NEXT TIME YOU SEE MR. ROBINSON'S

125A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 30 of 108

630

1

BACK DOWN, AND HIS RIGHT HAND RESTS EMPTY ON THE COUNTER WHILE

2

HE WAITS TO MAKE SURE -- WHERE IS THE GUN IN ALL THIS TIME?

3

ASK YOURSELVES -- WHEN YOU LOOK AT THAT VIDEO, NUMBER ONE, YOU

4

JUST DON'T SEE A GUN.

5

YOU CAN INFER ABOUT HAND MOTIONS MAKES SENSE.

6

THIS:

7

DAYS IS BECAUSE A TRANSACTION AT A BANK BETWEEN A CUSTOMER AND A

8

TELLER IS AN INHERENTLY PRIVATE THING.

9

SO

AND NUMBER TWO, THE ACTIONS AND THINGS
AND THEN REMEMBER

THE REASON THAT NOTE ROBBERIES ARE SO PREVALENT THESE

THINK ABOUT WHEN YOU GO INTO A BANK.

TONE DROPS, EVERYONE

10

IS GENERALLY QUIET AT A BANK BECAUSE EVERYONE UNDERSTANDS THAT A

11

FINANCIAL TRANSACTION BETWEEN AN INDIVIDUAL AND A TELLER AT A

12

BANK IS A PRIVATE THING.

13

SHOULDER.

14

DON'T GET IN PEOPLE'S BUSINESS WHEN YOU ARE IN A BANK.

15

WHY NOTE ROBBERIES WORK BECAUSE IT LOOKS LIKE YOU'RE EVERYONE

16

ELSE IN A REGULAR BANK TRANSACTION.

17

ROBBERY -- THE CUSTOMER AND EMPLOYEES ALL WALKING AROUND, THE

18

LAST THING THAT THEY WANT TO DO IS MAKE ANY SUDDEN MOTIONS IN

19

FRONT OF A TELLER.

20

WITNESSES SAID.

21

COLLECTED.

22

YOU DON'T LOOK OVER SOMEBODY'S

YOU DON'T LISTEN IN.

EVERYONE RESPECTS THAT YOU JUST
THAT'S

SO SOMEBODY CONDUCTING A

THEY WANT TO CONTINUE JUST LIKE ALL THE

MR. ROBINSON WAS CALM.

HE WAS COOL.

HE WAS

NOBODY ELSE NOTICED ANYTHING UNTOWARDS (SIC).

THE TELLERS KNEW THEY WERE BEING ROBBED BECAUSE THEY

23

WERE -- MR. ROBINSON -- POINTING SOMETHING AT THEM.

NOBODY SAID

24

HE RAN IN THERE SCREAMING -- NONE OF THAT TRADITIONAL STUFF

25

BECAUSE BANKS INHERENTLY ARE A PLACE WHERE PEOPLE RESPECT THE

126A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 31 of 108

631

1

PRIVACY OF A TRANSACTION.

2

A NOTE ROBBERY IS TO MAKE YOUR TRANSACTION WHICH IS A ROBBERY

3

LOOK LIKE EVERYBODY ELSE'S TRANSACTION SO NOBODY NOTICES

4

ANYTHING.

5

MS. ANDERSON SAW A GUN IN THAT CASE.

6

SHE DID SEE A GUN, THERE IS ABSOLUTELY NO EVIDENCE THAT IT WAS A

7

REAL GUN.

8

REAL GUN MEANS A FIREARM.

9

THE WAY TO TAKE ADVANTAGE OF THAT IN

SO ASK YOURSELF UNDER THOSE CIRCUMSTANCES IF
EVEN IF YOU THINK MAYBE

THE JUDGE WILL CHARGE YOU THAT FOR THE 924(C) COUNT A

THE DEFINITION IS A WEAPON THAT IS CAPABLE OF DISCHARGING A

10

PROJECTILE BY MEANS OF AN EXPLOSIVE, AND THAT A B.B. GUN WHICH

11

IS USED TO COMPRESS AIR TO DISCHARGE A PELLET IS NOT A FIREARM

12

UNDER 924(C).

13

FIREARM TO CONVICT ON THE 924(C) COUNTS.

14

US IN TERMS OF WHETHER OR NOT A REAL GUN WAS USED IN THESE

15

ROBBERIES IS THE F.B.I.'S TESTIMONY TO YOU THAT MR. ROBINSON

16

TOLD THEM IN HIS INTERVIEWS THAT HE USED A REAL GUN.

17

REALLY WHAT'S LEFT.

18

FORENSIC EVIDENCE TELLS US THAT.

19

THAT.

20

MR. ROBINSON SAID TO WHICH AGENT.

21

SAID.

22

AT TRIAL.

23

POLICY MATTER THEY CHOOSE NOT TO RECORD THOSE INTERVIEWS.

24

A CHOICE THEY MAKE AND WHEN THEY MAKE THAT CHOICE THEY ARE

25

ASKING YOU TO TRUST THEM TO TELL YOU NOT ONLY THE TRUTH, BUT TO

SO YOU HAVE TO FIND IT WAS A REAL GUN, A REAL
WHAT THAT LEAVES FOR

THAT'S

WE KNOW IT CAN'T BE THE .380 BECAUSE THE

THAT LEAVES THE AGENTS.

COREY WEBB SAID IT WASN'T

MS. HOFFER REFERRED -MR. ROBINSON SAID, HE SAID,

THAT EVIDENCE CAME FROM THE F.B.I. FROM THEIR TESTIMONY
AND WHAT THEY DO WHEN THEY INTERROGATE PEOPLE, AS A
IT'S

127A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 32 of 108

632

1

BE COMPLETELY ACCURATE IN ALL THE IMPORTANT DETAILS.

2

CHOOSE TO DO THAT AND THEY HAVE TO SUFFER THE CONSEQUENCES FOR

3

THAT CHOICE IN CASES LIKE THIS.

4

FOR WHY THEY WOULDN'T RECORD THAT STATEMENT OTHER THAN F.B.I.

5

POLICY.

6

YOU COULD DO IT?

7

BETTER -- NO MORE ACCURATE RECORDING OF WHAT HAPPENED THAN TO DO

8

AN AUDIO OR VIDEO RECORDING OF THE INTERVIEW.

9

YOU HAVE THE EQUIPMENT?
YES.

THEY

THEY GAVE YOU NO GOOD REASON

YES.

F.B.I. POLICY NOT TO.

F.B.I. POLICY NOT TO.

THERE CAN BE NO

AT SOME POINT IN YOUR DELIBERATIONS YOU MAY HAVE QUESTIONS

10

ABOUT EXACTLY WHAT THE TESTIMONY WAS FROM A WITNESS ON THE

11

STAND.

12

BETWEEN SEVERAL OF YOU ABOUT EXACTLY WHAT WAS SAID.

13

THAT YOU MIGHT TRY TO RESOLVE THE LAPSE -- OR THE DIFFERENCES IN

14

MEMORY IS TO ASK THE JUDGE IF WE CAN HAVE A TRANSCRIPT OF THAT

15

WITNESS'S TESTIMONY.

16

THERE'S NO POSSIBILITY.

17

MISUNDERSTANDING OF FAULTY MEMORY, FAULTY DETAILS.

18

RECORDING OF WHAT LEARY ROBINSON SAID IN THOSE INTERVIEWS AND IF

19

THEY HAVE MADE IT, THEY WOULD HAVE PLAYED IT AND THERE WOULD BE

20

NO ISSUE.

21

THERE MAY BE DISAGREEMENTS BETWEEN THE TWO OF YOU OR
ONE WAY

THAT'S WHY THINGS ARE RECORDED SO THAT
IT ELIMINATES ANY POSSIBILITY OF
THERE'S A

IN CROSS-EXAMINATION AGENT MYERS SAID THAT THEY TAKE

22

CONTEMPORANEOUS NOTES, THEY DO THEIR BEST TO TYPE UP THEIR NOTES

23

AS SOON AS THEY CAN AFTER THE INTERVIEW TO REDUCE THE RISK OF

24

FAULTY MEMORY, REDUCE THE RISK OF MISREPRESENTATIONS.

25

REVIEW IT BEFORE THEY SIGN IT TO MAKE SURE IT'S ACCURATE.

THEY BOTH
THEY

128A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 33 of 108

633

1

MAKE CHANGES IF NEEDED.

IT IS NOT A RECORDING, AND IN A CASE

2

LIKE THIS IT OUGHT TO BE BECAUSE THEY ARE ASKING YOU TO TAKE

3

AWAY SOMEONE'S LIBERTY AND PUT THEM IN JAIL, YET THEY CHOOSE NOT

4

TO RECORD THOSE STATEMENTS.

5

YOU -- PUTTING THEIR OWN CREDIBILITY ON THE LINE AND SAY BELIEVE

6

ME WHEN I TELL YOU THIS.

7

NOT A MISTAKE.

8

SCIENTIFIC EVIDENCE IN THIS CASE INDICATES -- DOESN'T SUPPORT

9

THAT.

AND THEY COME IN HERE AND ASK

YES, SOMETIMES THINGS GO WRONG.

IT'S

I'M TELLING YOU THIS IS WHAT'S SAID WHEN THE

SCIENTIFIC EVIDENCE TELLS US THAT.380 WAS NOT USED TO ROB

10

COREY WEBB BECAUSE IT WOULD HAVE DYE ON IT, YET THEIR THEORY IS

11

LEARY ROBINSON TOLD US NOT ACROSS THE BOARD, SO WE HAVE NOT

12

ACROSS THE BOARD.

13

HAVE THE INDICTMENT BEFORE YOU.

14

THE GUN ACROSS THE BOARD, AND THAT WAS SUFFICIENT FOR THEM TO

15

BRING A CASE, WHY ARE THERE NOT 924(C) COUNTS ASSOCIATED WITH

16

EVERY SINGLE ONE OF THE ROBBERIES?

IT'S HIS GUN.

17

MS. HOFFER:

18

MR. SAVIELLO:

19

MS. HOFFER:

20

THE COURT:

21

MR. SAVIELLO:

THINK ALSO ABOUT THIS.

YOU

IF LEARY ROBINSON SAID, I USED

YOUR HONOR, I'M OBJECT TO THAT.
THAT IS IN EVIDENCE, YOUR HONOR.

IT'S IMPROPER.
IT'S ARGUMENT.

I'LL LET HIM.

THEY CHOSE WHAT TO DO.

AND IF LEARY

22

ROBINSON'S STATEMENT WAS SUFFICIENT TO THEM AS THEY TESTIFIED

23

ABOUT, WHY DIDN'T THEY BRING 924(C) COUNTS ON THOSE OTHER BANK

24

ROBBERIES?

25

SOMETHING MORE AND YOU OUGHT TO WANT SOMETHING MORE.

BECAUSE IT'S NOT SUFFICIENT AND YOU OUGHT TO NEED
AGAIN, YOU

129A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 34 of 108

634

1

JUDGE FOR YOURSELVES.

2

SELECTED YOU AS JURORS.

3

COUNT ON THAT.

4

ROBBERY ON FEBRUARY 21ST.

5

ABOUT AIDING AND ABETTING AND WHAT THAT MEANS, AND THE JUDGE

6

WILL CHARGE YOU ON THE LAW OF WHAT AIDING AND ABETTING MEANS.

7

BUT ESSENTIALLY THAT MEANS IF SOMEBODY KNEW ABOUT AND

8

PARTICIPATED IN THE ROBBERIES IN ANY WAY, THEY CAN BE GUILTY --

9

JUST AS GUILTY OF THE CHARGES AS IF THEY WENT IN AND DID THE

10
11

THAT'S WHY YOU'RE HERE.

WE TRUST YOU,

YOU TOLD US YOU WILL DO YOUR JOB AND WE

AND THAT LEAVES US, THEN, WITH THE WACHOVIA
MS. HOFFER TALKED TO YOU A LITTLE BIT

ROBBERIES.
WHAT DO WE KNOW ABOUT THIS STRING OF ROBBERIES?

LEARY

12

ROBINSON IS IN THE BUILDING EVERY SINGLE TIME.

13

THERE'S NOT SOME OTHER PERSON GOING IN AND SAYING I WAS IN THE

14

CAR OR WHATEVER.

15

LEARY ROBINSON GOING BEHIND THE COUNTER AT THE BANK EXCEPT ON

16

FEBRUARY 21ST, THE WACHOVIA.

17

GOT ARRESTED UNTIL HE GOT ON THAT STAND SAID, I DID ALL OF THESE

18

ROBBERIES EXCEPT THE WACHOVIA ON FEBRUARY 21ST.

19

THERE IS ANY LOGICAL REASON WHY HE WOULD EXCLUDE THAT IF IT

20

WASN'T HIM.

21

SHOWS THAT.

22

ALL RIGHT.

IT'S ALWAYS LEARY ROBINSON AT THE COUNTER,

LEARY ROBINSON FROM THE MOMENT HE

ASK YOURSELF IF

IT'S THE ONLY EXPLANATION FOR IT AND THE EVIDENCE

YOU CAN LOOK AT THE PHOTOS FOR YOURSELVES.

YOU LOOK AT THE

23

PHOTOS OF THE ROBBERIES -- SO YOU ARE GOING TO HAVE THESE PHOTOS

24

TO LOOK AT AND YOU ARE GOING TO HAVE TO DECIDE FOR YOURSELVES IF

25

IT WAS LEARY ROBINSON IN THE BANK ON FEBRUARY 21ST.

SO I WANT

130A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 35 of 108

635

1

TO PUT A COUPLE OF THESE UP AND TALK TO YOU ABOUT THEM.

I HOPE

2

YOU CAN SEE THIS BETTER ON YOUR MONITOR.

3

REPRODUCTION ONTO YOUR SCREEN IS NOT AS GOOD AS THE ACTUAL

4

PHOTOS, BUT I THINK YOU CAN SEE IT FAIRLY WELL ON THERE.

5

GOVERNMENT'S THEORY IS THAT THAT IS THE SAME PERSON 30 MINUTES

6

APART DOING THE SAME THING IN TWO DIFFERENT BANKS.

7

ADMITTED THAT YOU CAN'T REALLY SEE THE FACE IN THE WACHOVIA

8

PHOTOS, WHICH IS THE PHOTO ON THE RIGHT HERE WHICH IS OF A

9

SIGNIFICANTLY LESSER QUALITY.

AND, AGAIN, THE

THE

THEY'VE

I WANT YOU TO LOOK AT THESE

10

PHOTOS, BUT BEFORE YOU DO THAT I WANT YOU TO THINK ABOUT WHAT

11

THE GOVERNMENT DID TO TRY TO SUPPORT THEIR THEORY IN TERMS OF

12

INVESTIGATION.

13

ROBBED ALL OF THESE BANKS.

14

THE WACHOVIA ON MARCH 29TH (SIC) WHEN HE GAVE HIS INITIAL

15

STATEMENT.

16

WACHOVIA.

17

THEY'VE KNOWN ABOUT THAT FOR A LONG TIME.

18

OKAY.

THEIR THEORY IS THAT LEARY ROBINSON
LEARY ROBINSON SAID, I DIDN'T ROB

HE SAID THAT ALL THE WAY ALONG.

I DIDN'T ROB THE

ON THE STAND HE TOLD YOU I DIDN'T ROB THE WACHOVIA.

WHAT DID THEY DO INVESTIGATION-WISE TO SUPPORT THEIR THEORY

19

THAT IT WAS HIM?

THEY HAD PHOTOGRAPHS OF THE ROBBERY, CORRECT.

20

WHAT ELSE DID THEY HAVE?

21

KATRINA (SIC) PARKER WHO STOOD TWO FEET FROM THE ROBBER WHILE

22

SHE WAS BEING ROBBED.

23

GENTLEMAN WHO WAS IN THE PARKING LOT AND SAID HE CAME OUT AND

24

WAS WALKING INTO THE BANK AND SAW THE ROBBER -- TOWARDS HIM,

25

TURNED AND GOT IN THE VEHICLE -- TWO EYEWITNESSES TO THE

TWO EYEWITNESSES, THE TELLER,

AND DONALD RUDE, WHO WAS THE OLDER

131A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 36 of 108

636

1

ROBBERY.

ON MARCH 21ST THEY KNEW -- CERTAINLY BY THE END OF THE

2

DAY MATT KARMAN KNEW THAT LEARY ROBINSON HAD ROBBED THE BANK OF

3

AMERICA, WHICH WAS THE SECOND ROBBERY ON THE 21ST, AND SUSPECTED

4

THAT FROM LOOKING AT THE CAMOUFLAGE CLOTHING THE EARLIER ROBBERY

5

THAT DAY WAS ALSO LEARY ROBINSON.

6

BY THEN OF LEARY ROBINSON.

7

NOT ONLY DID HE DO NOTHING, HE DID MORE THAN NOTHING.

8

SPECIFICALLY AVOIDED DOING CERTAIN THINGS.

9

AVOIDED DOING WAS TAKING A PHOTO LINE-UP TO MS. PARKER, THE

HE KNEW.

HE HAD PHOTOGRAPHS

WHAT DID HE DO ABOUT IT?

NOTHING.
HE

BUT ONE THING HE

10

TELLER.

11

TELL ME IF YOU RECOGNIZE -- THEY HAD A SUSPECT.

12

MISTAKE.

13

MS. PARKER, THE TELLER WHO STOOD FACE TO FACE WITH THE ROBBER,

14

OR MR. RUDE WHO WAS IN THE PARKING LOT AND SAW HIM COME OUT.

15

NEVER.

16

LINE-UP.

17

CAPABLE OF TESTIFYING NO IMPEDIMENT IN SEEING THE PERSON.

18

CHOSE NOT TO GO OUT THERE AND SHOW THEM A PHOTO LINE-UP.

19

HE SAID, MA'AM, I'D LIKE YOU LOOK AT THE PICTURES AND
MAKE NO

THEY CHOSE NOT TO SHOW A PHOTO LINE-UP TO EITHER

IT WAS A YEAR AGO.

THEY NEVER SHOWED ANYBODY A PHOTO

TWO PERFECTLY GOOD EYEWITNESSES.

YOU HAVE WITNESSES
THEY

WHAT ELSE DID THEY NOT DO REGARDING THE WACHOVIA ROBBERY?

20

THEY HAVE THIS PHOTOGRAPH, THE THREE PHOTOGRAPHS OF THE ROBBERY

21

IN PROGRESS.

22

YOU'VE SEEN, THEY HAVE SURVEILLANCE PHOTOGRAPHS.

23

INVESTIGATIVE TECHNIQUES IS IF THEY FIND SOMEONE THAT KNOWS THE

24

SUSPECT WELL, A FRIEND, A FAMILY MEMBER, EX-WIFE, THEY TAKE

25

PHOTOGRAPHS FROM THE SURVEILLANCE VIDEOS, THEY GO TO THAT PERSON

LIKE MANY OF THE SURVEILLANCE PHOTOGRAPHS THAT
ONE OF THEIR

132A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 37 of 108

637

1

AND SAY, DO YOU KNOW LEARY ROBINSON?

2

YOU KNOW HIM?

3

SO ON AND SO FORTH.

4

TELL ME, IS THE PERSON YOU RECOGNIZE THE PERSON IN THESE PHOTOS

5

ROBBING BANKS?

6

HEARD THE TESTIMONY.

7

SHOWED THEM SURVEILLANCE PHOTOGRAPHS OF THE ROBBERIES, OF THE

8

ROBBERS ROBBING THE BANKS, SAID, DO YOU KNOW LEARY ROBINSON?

9

THIS HIM?

I'M HIS WIFE.

YES.

YES, I DO?

I KNOW HIM WELL.

HOW WELL DO

I'M HIS FRIEND.

LET ME SHOW YOU A SERIES OF PHOTOGRAPHS.

WELL, YES, I DO.

THAT'S LEARY ROBINSON.

YOU

MATT KARMAN WENT OUT TO MULTIPLE PEOPLE,

IS

SIGN THE PHOTOGRAPHS, THIS IS LEARY ROBINSON,

10

THIS IS LEARY ROBINSON, THIS IS LEARY ROBINSON.

11

SHOW A SINGLE PERSON THE WACHOVIA PHOTOGRAPHS, NOT ONCE.

12

PREPARES HIS FILE TO INTERVIEW THE WITNESSES.

13

THINGS THAT HE'S GOING TO NEED TO GO TALK TO THAT PERSON.

14

SPECIFICALLY EXCLUDED THE WACHOVIA PHOTOS FROM GOING OUT THERE

15

AND TALKING TO THEM BECAUSE IT'S NOT A VERY GOOD PICTURE,

16

BECAUSE IT'S OTHER EVIDENCE TO SUGGEST THAT THAT'S NOT LEARY

17

ROBINSON.

18

POSSIBILITY OF SOMEONE SAYING, NO, NO, NO, THAT'S NOT LEARY

19

ROBINSON.

20

NEVER DID HE
HE

HE GETS THE
HE

HE SPECIFICALLY EXCLUDED THOSE PHOTOS TO AVOID THE

I KNOW LEARY ROBINSON AND THAT'S NOT HIM.

VIRNA ROBINSON WHO KNOWS LEARY ROBINSON TESTIFIED ON THE

21

STAND, AND WHEN SHE GOT UP THERE THE FIRST TIME ANYONE WHO KNOWS

22

HER (SIC) HAD BEEN SHOWN THAT PHOTOGRAPH FROM THE WACHOVIA AND

23

ASKED, IS THAT HIM.

24

SHE SAID I CAN'T SAY.

25

THEY AVOIDED DOING IT UNTIL WE GOT TO TRIAL AND PUT IT ON THE

WHAT DID SHE SAY?

I CAN'T SAY.

ALL RIGHT.

THEY KNEW THAT WAS GOING TO HAPPEN AND

133A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 38 of 108

638

1

STAND.

SO ASK YOURSELVES IF THEY WERE SO SURE WHY THEY DIDN'T

2

DO THOSE THINGS.

AND THEN YOU CAN LOOK FOR YOURSELVES.

3

CAN WE DIM THE LIGHTS A LITTLE BIT?

4

LOOK AT THESE PHOTOGRAPHS.

THANKS.

YOU WILL BE ABLE TO DO THIS A

5

LITTLE BETTER WHEN YOU'RE IN THE BACK WITHOUT THE VIDEO

6

REPRODUCTION.

7

I NOTICED -- AND YOU NOTICE WHATEVER YOU FEEL LIKE.

8

JUDGES.

9

THE HEAD IN RELATION TO THE HAT IN THE TWO PHOTOGRAPHS.

LOOK AT THOSE AND LOOK -- A COUPLE OF THINGS THAT

JUDGE FOR YOURSELVES.

YOU ARE THE

LOOK AT THE SHAPE AND SIZE OF
TO ME

10

IT LOOKS LIKE IN THE WACHOVIA PHOTOGRAPH ON THE RIGHT THE HEAD

11

IS SMALLER.

12

HEAD.

13

THE HAT SEEMS TO LOOM A LITTLE LARGER OVER THE

SECONDLY -- YOU'LL SEE THIS BETTER IN THE ACTUAL

14

PHOTOGRAPHS -- THE SHAPE OF THE FACE.

15

THE WACHOVIA, THE PHOTOGRAPH ON THE RIGHT, THE FACE IS ROUNDER,

16

MORE FULL THAN THE PHOTOGRAPH ON THE LEFT, THE BANK OF AMERICA,

17

THE FACE IS ANGULAR, THE CHIN MORE PRONOUNCED.

18

LOOK AT THE SHOULDERS.

19

PHOTOGRAPHS.

20

WHO ROBBED THE WACHOVIA IN THAT CAMOUFLAGE JACKET AREN'T QUITE

21

AS FULL, SEEM A LITTLE NARROWER.

22

OF AMERICA AND IF THE JACKET IS MORE FILLED OUT.

23

TO ME IT LOOKS LIKE ON

OKAY.

THREE,

AND, AGAIN, YOU'LL HAVE THE SERIES OF

IT LOOKS TO ME LIKE THE SHOULDERS OF THE PERSON

LOOK AT THE PHOTOS OF THE BANK

AND, FOURTHLY, AND MOST IMPORTANT LOOK AT THE UNDERSHIRT

24

THAT THE ROBBER IS WEARING IN THESE PHOTOGRAPHS.

THE WACHOVIA

25

ON THE RIGHT, AS KATRINA (SIC) PARKER TESTIFIED, WEARING THE

134A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 39 of 108

639

1

DARK SHIRT UNDER THE CAMOUFLAGE STUFF.

BANK OF AMERICA, 30

2

MINUTES LATER, SAME JACKET, WHITE T-SHIRT UNDERNEATH.

3

DAY IN ALL THOSE PHOTOGRAPHS.

4

GOVERNMENT'S THEORY MAKES SENSE.

5

LEARY ROBINSON WEARING A BLACK OR DARK UNDERSHIRT ROBBED THE

6

WACHOVIA, GOT IN THE CAR WITH HIS PARTNER, THE GET-AWAY DRIVER,

7

DROVE TO ROSWELL ROAD, STOPPED SOMEWHERE ALONG THE WAY, TOOK OFF

8

ALL THE CLOTHES, TOOK OFF THE DARK T-SHIRT, PUT ON A WHITE

9

T-SHIRT, PUT ALL THE CLOTHES BACK ON, WENT IN AND ROBBED THE

CLEAR AS

SO ASK YOURSELF IF THE
WHAT THEY'RE SAYING, THEN, IS

10

BANK OF AMERICA.

AND ASK YOURSELVES IF THAT'S POSSIBLE.

11

YOU JUDGE FOR YOURSELVES IF THAT'S LEARY ROBINSON ROBBING THE

12

WACHOVIA ON FEBRUARY 21ST, AND I SUBMIT TO YOU THAT IT'S NOT.

13

THE GOVERNMENT HAS FAILED IN THEIR BURDEN AGAIN, ANOTHER

14

CRITICAL LEG, FOUNDATION TO SUPPORT THEIR THEORY THAT IT WAS

15

LEARY ROBINSON ACROSS THE BOARD, USING THE .380 ACROSS THE

16

BOARD.

17

THEORY CAN CRUMBLE BEFORE YOU ASK YOURSELVES ABOUT THAT?

18

THIS IS THE LAST CHANCE YOU WILL HEAR FROM ME.

THAT AGAIN FALLS.

AGAIN,

AND HOW MANY PEGS SUPPORTING THEIR

THE

19

GOVERNMENT WILL HAVE AN OPPORTUNITY TO REBUT OUR CLOSING BECAUSE

20

THEY WILL COME BACK AND HAVE THE LAST WORD.

21

LIKE TO SUM UP A LITTLE BIT.

22

THIS CASE, A NUMBER OF ROBBERIES, A LOT OF EVIDENCE HAS COME IN

23

IN A FAIRLY SHORT TIME.

24

SEEN A LOT OF DOCUMENTS, A LOT OF PICTURES AND THINGS OF THAT

25

SORT.

SO I WOULD JUST

THERE IS A LOT TO TALK ABOUT IN

EVERYONE HAS HEARD A LOT OF TESTIMONY,

SO THIS IS WHAT I WOULD ASK YOU TO REMEMBER.

THE

135A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 40 of 108

640

1

GOVERNMENT PROMISED YOU IN OPENING STATEMENT THAT THEY WOULD

2

PROVE TO YOU CERTAIN THINGS, AND THEY HAVE FAILED IN THOSE

3

PROMISES.

4

SUPPORT THEIR BURDEN AND THEY FAILED IN THE THINGS THEY PROMISED

5

YOU BECAUSE THEY SAID IN OPENING STATEMENT, FOR EXAMPLE, THAT

6

VIRNA ROBINSON NOT ONLY HAD BEEN SHOWN A PHOTOGRAPH OF LEARY --

7

PHOTOGRAPHS OF THE WACHOVIA BANK ROBBERY AND IDENTIFIED LEARY,

8

WHICH WE KNOW SHE DIDN'T BECAUSE SHE TESTIFIED TO THAT.

9

CARMAN TESTIFIED HE DIDN'T SHOW HER THOSE PHOTOGRAPHS, SO THAT'S

10

NOT TRUE AS REPRESENTED IN THEIR OPENING STATEMENT, NUMBER ONE.

11

AND NUMBER TWO, THAT THEY FAILED TO FULFILL THEIR PROMISES.

12

THEY TOLD YOU THE .380 WAS USED ACROSS THE BOARD -- THERE IS

13

JUST OVERWHELMING EVIDENCE THAT IT'S NOT AND COULD NOT HAVE BEEN

14

THE SAME GUN.

15

NOT A GOOD ENOUGH WITNESS, I DON'T KNOW WHAT IT IS.

16

FORENSICS TELL US IT'S NOT THE SAME GUN.

17

STILL STICKING TO THEIR STORY.

18

AND THEY FAILED IN THE PROMISE TO BRING YOU THINGS TO

COREY WEBB TOLD US IT WASN'T THE GUN.

WACHOVIA, WE JUST SPOKE ABOUT THAT.

AGENT

IF HE'S
THE

THE GOVERNMENT IS

-- THAT'S NOT LEARY

19

ROBINSON, SO MUCH SO THAT IF YOU COULD -- YOU KNOW, IF YOU HAD

20

TO FIND NOT GUILTY BEYOND A REASONABLE DOUBT, I WOULD ARGUE THAT

21

YOU COULD -- YOU HAVE TO FIND NOT GUILTY BEYOND A REASONABLE

22

DOUBT.

23

WELL.

24

WHEN YOU JUDGE FOR YOURSELF, YOU DON'T TAKE THE GOVERNMENT AT

25

ITS WORD.

ANYTHING ELSE THAT HE -- THEY FAILED IN THEIR BURDEN AS
WHEN YOU DO ALL THAT, WHEN YOU USE YOUR COMMON SENSE,

YOU DON'T TAKE THE F.B.I. AT ITS WORD AND THEIR

136A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 41 of 108

641

1
2

REPRESENTATIONS TO YOU ABOUT WHAT THEY REMEMBER.
REMEMBER WHEN THEY CHOOSE NOT TO RECORD INTERROGATIONS.

3

THEY DON'T HAVE A POLICY ACROSS THE BOARD OF NOT RECORDING

4

INVESTIGATIONS, DO THEY?

5

HOTEL ROOM AND THEY GO AND FIND IF THERE'S ANYTHING IMPORTANT

6

FOR THEIR CASE IN THE HOTEL ROOM?

7

THEY COME TO COURT WHAT DO THEY BRING?

8

REFER TO THE PICTURES EVERY SINGLE TIME.

9

A THOUSAND WORDS.

WHAT DO THEY DO WHEN THEY SEARCH A

THEY TAKE PICTURES.

AND WHEN

THEIR TESTIMONY AND THEY
WHY?

A PICTURE SPEAKS

IF YOU HAVE ANY QUESTION, ANY REASON TO

10

HESITATE, THE AGENT MAY REMEMBER THINGS CORRECTLY, YOU LOOK AT

11

THE PHOTOGRAPH.

12

ARE YOU GOING TO GET?

13

DOOR OF 463.

14

WHERE YOU CAN SEE THE GUN OVER ON THE BED AND YOU ARE GOING TO

15

GET A PHOTOGRAPH OF THE GUN ON THE BED.

16

GENTLEMEN, IS RECORDING CRITICAL PIECES OF EVIDENCE AT THE TIME

17

THEY HAPPENED SO THAT THERE CAN BE NO MISUNDERSTANDING LATER.

18

THEY DON'T HAVE A POLICY IN THE F.B.I. AGAINST RECORDING

I FOUND THAT GUN ON THE BED IN ROOM 463.

WHAT

YOU ARE GOING TO GET A PHOTOGRAPH OF THE

YOU ARE GOING TO GET A PHOTOGRAPH OF THE ROOM

THAT, LADIES AND

19

PERIOD.

THE ONLY TIME THEY DON'T RECORD IS WHEN THEY DO AN

20

INTERVIEW.

21

STENOGRAPHERS.

22

ARE PUTTING OUR CREDIBILITY OUT THERE.

23

SUFFICIENT FOR YOU.

24

SEND THIS MAN TO PRISON FOR THINGS THAT THEY SAY HE DID.

25

HAVE TO DECIDE WHETHER HE'S GUILTY AND WHETHER THE GOVERNMENT

I ASK YOU TO RELY -- AND THEY SAID WE'RE NOT
WE DON'T TAKE VERBATIM NOTES.

WE SUMMARIZE.

WE

ASK YOURSELF IS THAT'S

YOU INDIVIDUALLY HAVE TO DECIDE WHETHER TO
YOU

137A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 42 of 108

642

1

HAS MET ITS BURDEN.

YOU HAVE TO BE SATISFIED INTERNALLY THAT

2

THEY HAVE PROVEN THEIR CASE.

3

RECORDING OF AN INTERVIEW THAT THEY HAD EVERY OPPORTUNITY TO

4

RECORD WHEN THEY INVESTIGATIVELY (SIC) -- THEY RECORD ALL OTHER

5

KINDS OF THINGS, IT'S THE ONLY THING THEY DON'T RECORD.

6

WHEN YOU LOOK AT THE GOVERNMENT'S CASE, LADIES AND GENTLEMEN,

7

WITH YOUR EYES WIDE OPEN USING YOUR COMMON SENSE, JUDGING FOR

8

YOURSELVES AND NOT TAKING IT AT FACE VALUE, YOU WILL SEE THE

9

PROBLEMS WITH THEIR THEORY.

IF THEY CHOOSE TO NOT BRING YOU A

AND

THERE ARE FUNDAMENTAL PROBLEMS WITH

10

THE WAY THEY PRESENT THEIR CASE AND THE EVIDENCE AS IT IS.

11

WHEN YOU DO THAT YOU WILL FIND LEARY ROBINSON GUILTY OF ROBBING

12

THE TACO BELL, ROBBING ALL THE BANKS EXCEPT THE BANK ON

13

FEBRUARY 21ST, THE WACHOVIA.

14

AND

THERE'S NO EVIDENCE THAT IT WAS HIM IN THE BANK, NOT

15

SUFFICIENT EVIDENCE FOR AIDING AND ABETTING.

HIS TESTIMONY WAS

16

THE OTHER GUY WAS USING THE CAR, HE CAME BACK THAT MORNING AND

17

SAID, HEY, I JUST DID THE WACHOVIA.

18

IT BEFOREHAND, NO EVIDENCE FROM THE GOVERNMENT TO SUGGEST HE DID

19

KNOW ABOUT IT BEFOREHAND.

20

GUILTY OF THOSE CHARGES AND FIND HIM NOT GUILTY OF THE WACHOVIA

21

ROBBERY, AND YOU WILL FIND THAT THE GOVERNMENT HAS FAILED TO

22

PROVE TO YOU BEYOND A REASONABLE DOUBT -- SO THAT THE CERTAINTY

23

WOULD BE THE MOST IMPORTANT OF YOUR PERSONAL AFFAIRS -- THAT

24

LEARY ROBINSON USED A REAL FIREARM IN ANY OF THOSE ROBBERIES.

25

THANK YOU VERY MUCH.

DIDN'T KNOW ANYTHING ABOUT

IF YOU DO ALL THAT, IF YOU FIND HIM

138A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 43 of 108

643

1
2

THE COURT:

(RECESS TAKEN.)

4

THE COURT:

5

INDICTMENT?

6

ONE.

8
9
10

WE CAN GET

WE CAN PRINT ONE OUT.
MR. SAVIELLO:

I MIGHT HAVE ONE, YOUR HONOR, IF YOU

WANT ME TO LOOK.
THE COURT:
WE'VE GOT ONE.

MR. MACK, YOU READY?
MS. WRIGHT WILL PRINT ONE OUT.

(JURY PRESENT.)

12

THE COURT:

13

MR. MACK:

MR. MACK.
THANK YOU, YOUR HONOR.

WATER WENT DOWN THE

WRONG PIPE.

15

THE COURT:

16

MR. MACK:

17

MS. HALL, DO YOU HAVE A CLEAN COPY OF THE

WE NEED TO SEND THEM BACK WITH ONE.

11

14

I'D LIKE TO TAKE ABOUT A

TEN-MINUTE BREAK, SO IF YOU'LL COME BACK AT 25 'TIL 11.

3

7

THANK YOU.

YOU WANT SOME MORE?
THAT'S WHAT DID IT.

GOOD MORNING, MEMBERS OF THE JURY.

GOOD MORNING.
IN A FEW MINUTES YOU

18

WILL GET THIS CASE INTO YOUR HANDS TO DECIDE THE FATE OF

19

MR. STANLEY JOSEPH THOMPSON.

20

OF PROOF, AS MR. SAVIELLO HAS TOLD YOU BEFORE.

21

TO PROVE IN THIS CASE.

22

PROVE ANYTHING, AND JUDGE MARTIN WILL LET YOU KNOW THAT YOU'RE

23

NOT TO HOLD THAT AGAINST HIM THAT HE CHOSE NOT TO TESTIFY, WHICH

24

IS HIS RIGHT.

25

A REASONABLE DOUBT TO PROVE EACH AND EVERY ELEMENT OF THE

NOW, THE GOVERNMENT HAS THE BURDEN
WE HAVE NOTHING

MR. THOMPSON DIDN'T HAVE TO TESTIFY TO

THE GOVERNMENT HAS THE BURDEN TO PROVE -- BEYOND

139A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 44 of 108

644

1

INDICTMENT THAT THEY HAVE ACCUSED MR. STANLEY JOSEPH THOMPSON

2

OF.

3

WAS INVOLVED IN A TACO BELL ROBBERY.

4

NOTICE AND YOU WILL ALSO NOTICE IS THAT HE'S NOT JUST SIMPLY

5

CHARGED WITH ROBBING THE TACO BELL.

6

A PARTICULAR WAY AND IT INTERRUPTED INTERFERENCE WITH COMMERCE.

7

AND SO JUDGE MARTIN WILL LET YOU KNOW -- IS THAT THERE IS AN

8

ELEMENT TO THIS PARTICULAR CHARGE.

9

NOW, WHEN I MET YOU EARLIER I TOLD YOU THAT MR. THOMPSON
BUT THE THING THAT I

HE'S CHARGED IN DOING IT IN

THERE ARE THREE ELEMENTS.

ONE, KNOWING THAT THE DEFENDANT OBTAINED OR TOOK MONEY FROM

10

TACO BELL.

11

VICTIM'S WILL THAT THEY DIDN'T CONSENT TO.

12

ELEMENT OF THIS PARTICULAR CRIME IS THAT AS A RESULT OF THE

13

DEFENDANT'S ACTION, COMMERCE, OR AN ITEM MOVING IN COMMERCE, WAS

14

DELAYED, OBSTRUCTED, OR AFFECTED IN ANY WAY OR DEGREE.

15

YOURSELF WHAT ITEM OF COMMERCE WAS DELAYED, INTERFERED WITH, OR

16

OBSTRUCTED IN ANY MANNER AS A RESULT OF THAT ROBBERY.

17

GOVERNMENT PRESENTED ABSOLUTELY NO EVIDENCE.

18

IT HAPPENED, SO FIND HIM GUILTY.

19

TWO, THAT HE TOOK PROPERTY OR MONEY AGAINST THE
BUT THE THIRD

ASK

THE

THEY SAID, WELL,

WE ALSO SAID IT HAPPENED, BUT THEY CHARGED HIM WITH THE

20

WRONG THING.

AN ARMED ROBBERY, POSSIBLY A ROBBERY OF SOME SORT,

21

POSSIBLY, BUT NOT A ROBBERY THAT'S INTERFERING WITH COMMERCE.

22

THERE WAS NOTHING PERTAINING TO COMMERCE.

23

WITNESS TRIED TO SAY, WELL -- HE WAS ASKED, "WELL, WHAT ABOUT

24

INTERSTATE TRAVELERS?" AND WE OBJECTED.

25

THERE WAS NO EVIDENCE OF INTERSTATE TRAVELERS GOING TO THAT

YOU REMEMBER THEIR

IT DIDN'T COME IN.

140A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 45 of 108

645

1

PARTICULAR STORE.

WELL, WHAT ABOUT THIS, WHAT ABOUT THAT?

2

THERE WAS NOTHING INVOLVING INTERSTATE COMMERCE THAT WAS DELAYED

3

OR OBSTRUCTED FOR ANY WAY (SIC).

4

CLOSED FOUR HOURS.

5

HAD A ROBBERY THAT TOOK PLACE.

6

WITH A B.B. GUN.

7

CHARGED WITH.

8

FOLLOW THE LAW THAT THE JUDGE GIVES YOU.

9

TAKE THE FACTS OF THIS CASE AND APPLY THE LAW TO THOSE FACTS AND

WELL, YEAH, THE STORE WAS

YES, BUT THERE WAS NOTHING IN COMMERCE.

WE

WE HAD A ROBBERY THAT WAS DONE

WE ADMITTED -- BUT THAT'S NOT WHAT HE'S

AND AS A JUROR IN THIS CASE YOU ARE OBLIGATED TO
YOU ARE OBLIGATED TO

10

THAT EVIDENCE AND COME TO A DECISION WHICH FOLLOWS THE LAW.

11

IT'S NOT YOUR FAULT THAT THE GOVERNMENT CHARGED HIM WITH THE

12

WRONG THING, SO DON'T FEEL OBLIGATED.

13

GET IN THE WAY.

14

NOT MEET THAT THIRD ELEMENT.

15

INTERFERENCE WITH COMMERCE, AND AS A RESULT OF THAT, AS A RESULT

16

OF THE WRONG CHARGE, YOU HAVE TO FIND HIM NOT GUILTY OF ROBBERY

17

BY INTERFERING WITH COMMERCE.

DON'T LET YOUR EMOTION

BUT YOU FOLLOW THE LETTER OF THE LAW.

THEY DID

THERE IS NOTHING TO SHOW

18

THE JUDGE WILL ALSO TELL YOU WHAT COMMERCE IS AND SHE WILL

19

LET YOU KNOW WHAT INTERSTATE COMMERCE -- WHICH IS, MEANS OF THE

20

FLOW OF COMMERCE OR BUSINESS ACTIVITIES BETWEEN A STATE, BEING

21

THE STATE OF GEORGIA, AND A POINT OUTSIDE OF GEORGIA.

22

EVIDENCE OF THAT?

23

HIM NOT GUILTY BECAUSE HE'S CHARGED WRONGFULLY, AND THAT'S NOT

24

YOUR FAULT.

25

TALKING ABOUT.

ABSOLUTELY NOT.

WRONG CHARGE.

ANY

BUT YOU FIND

NOW, LET'S LOOK AT THESE ROBBERIES THAT WE'RE
I TOLD YOU FROM THE OUTSET -- I WAS WRONG.

141A

I

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 46 of 108

646

1

SAID THE GOVERNMENT WILL PRESENT 38 WITNESSES AND NOT ONE OF

2

THEM WILL TELL YOU THAT THEY SAW MR. STANLEY JOSEPH THOMPSON AS

3

THE GET-AWAY DRIVER.

4

PRESENT 38 WITNESSES.

5

IN TELLING YOU THAT NOT ONE OF THE GOVERNMENT WITNESSES WOULD

6

COME IN HERE AND TELL YOU THAT MR. STANLEY THOMPSON WAS A

7

GET-AWAY DRIVER.

8

HERE FOR THE GOVERNMENT.

9

ONE.

I WAS WRONG IN THAT THE GOVERNMENT DIDN'T
THEY PRESENTED ABOUT 24.

BUT I WAS RIGHT

YOU CAN LOOK AT EVERY WITNESS THAT CAME IN
NOT ONE SAID HE WAS THE DRIVER, NOT

AND IF YOU LOOK AT EVERY ONE OF THE ONES THAT SAW A

10

GET-AWAY DRIVER, THE S.U.V., THE WINDOWS ARE NOT TINTED, NOT

11

TINTED AT ALL.

12

REDDISH-TAN CAR, LOOK AT THE WINDOWS.

13

AT ALL.

14

THE LITTLE -- WHAT THEY CALL THE PINK CAR, THE
THE WINDOWS AREN'T TINTED

THE GOVERNMENT SAID NOBODY WAS WEARING A MASK, THE GET-AWAY

15

DRIVER WASN'T WEARING A MASK.

THE GET-AWAY DRIVER WAS

16

SUPPOSEDLY SITTING IN THE CAR.

17

WITNESS SEEING THIS CAR, SEEING THIS S.U.V., AND NOT ONE WITNESS

18

CAME IN AND SAID THE GET-AWAY DRIVER RESEMBLED MR. THOMPSON.

19

NOW, IF YOU LOOK AT MR. THOMPSON, HE HAS SOME VERY

20

DISTINGUISHABLE FEATURES THAT YOU WOULD NEVER FORGET.

21

THESE DARK CIRCLES UNDER HIS EYES.

22

WOULD NEVER FORGET HIM.

23

LATER, I SAW THAT GUY BECAUSE HE HAS THE DISTINGUISHING FEATURES

24

OF THOSE DARK CIRCLES ABOUT HIS EYES, UNDERNEATH.

25

NEVER FORGET IT.

AND YOU HAVE WITNESS AFTER

HE HAS

IF YOU SAW HIM ONCE, YOU

IF YOU SEE HIM DOWN THE ROAD 20 YEARS

GUESS WHAT.

YOU WOULD

NOT A SINGLE PERSON WHO WAS

142A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 47 of 108

647

1

ROBBED IN THIS CASE AT THESE BANKS EVER SAID THAT THE ROBBER WAS

2

A TALL, SIX FOOT TWO, SIX FOOT THREE, LIGHT SKINNED ROBBER WHO

3

HAD DARK CIRCLES UNDER HIS EYES.

4

SAY THAT?

5

AND YOU KNOW WHY THEY DIDN'T

BECAUSE IT WAS NEVER MR. STANLEY THOMPSON.

NOW, LET'S LOOK AT THE FIRST ROBBERY.

IT WAS THE ONE AT

6

WACHOVIA, THE ONE THAT HAPPENED ON THE 21ST OF FEBRUARY.

7

THE THING THAT YOU KNOW ABOUT THAT ROBBERY IS THAT, ONE, NOBODY

8

KNOWS WHO ROBBED THAT BANK THAT DAY.

9

PHOTOGRAPH.

NOBODY.

NOW,

WE HAVE A

NOBODY KNOWS WHO'S IN THE PHOTOGRAPH.

THE

10

GOVERNMENT DOESN'T KNOW, SO THEY SAID, WELL, YOU FIGURE IT OUT.

11

WE GOT TWO PEOPLE.

12

YOUR JOB.

13

THE EVIDENCE SAY DID IT?

14

THEY BRING IN MR. ROBINSON'S WIFE.

15

CAN'T SAY THAT'S HIM.

16

BECAUSE THEY SAID IT WAS A DARK SKINNED FELLOW.

17

NOT DARK SKINNED.

18

BEING -- CIRCLES UNDER THE EYES.

19

FIGURE OUT WHICH ONE DID IT.

YOUR JOB IS TO LOOK AT THE EVIDENCE.
YOU DON'T KNOW.

THAT'S NOT
NOW, WHO DOES

THEY DON'T KNOW.

MR. ROBINSON'S WIFE SAID, I

BUT YOU KNOW IT'S NOT MR. THOMPSON
HE'S OBVIOUSLY

THEY SAID IT WAS -- DIDN'T SAY ABOUT THE EYES

THE GOVERNMENT SAYS, WELL, WE'VE GOT FINGERPRINTS.

GUESS

20

WHAT.

-- FINGERPRINTS OFF THE DOOR BECAUSE THE ROBBER DIDN'T

21

HAVE GLOVES ON.

22

MR. THOMPSON.

23

WHO CAME AND TOLD YOU THAT THERE WAS A GET-AWAY DRIVER IN THIS

24

PARTICULAR ROBBERY, NOT A SINGLE ONE.

25

TESTIMONY FROM A WITNESS TELLING YOU THERE WAS A GET-AWAY

NOT ONE OF THOSE FINGERPRINTS MATCHED

GUESS WHAT ELSE.

THERE WAS NOT A SINGLE WITNESS

SO IF THERE'S NO

143A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 48 of 108

648

1

DRIVER, THE GOVERNMENT SAID, WELL, YOU'VE GOT TO ASSUME THERE

2

WAS ONE BECAUSE THAT'S THE THEORY OF OUR CASE.

3

SAID THERE WAS A GET-AWAY DRIVER IN THIS PARTICULAR CASE --

4

FIRST CASE.

5

MR. ROBINSON.

6

DESCRIPTION NEVER FIT MR. THOMPSON.

7

MR. ROBINSON, HIS WIFE WOULD HAVE CERTAINLY SAID BECAUSE SHE

8

SAID WITH EVERY PICTURE, THAT'S HIM, THAT'S HIM, THAT'S HIM.

9

HOW DO YOU KNOW?

NOT ONE WITNESS

AND YOU KNEW IT WASN'T MR. ROBINSON -- IT WASN'T
IT WASN'T EVEN MR. THOMPSON BECAUSE THE

I JUST KNOW.

AND IF IT HAD BEEN

SHE DIDN'T SAY THAT SHE JUST

10

KNEW, BECAUSE SHE DIDN'T KNOW BECAUSE IT WASN'T HIM AND IT

11

WASN'T MR. THOMPSON.

12

FINGERPRINTS DON'T MATCH.

13

SO THERE IS A THIRD ROBBER OUT THERE SOMEWHERE THAT THE

14

GOVERNMENT JUST SAYS, WE DON'T CARE WHO HE WAS.

15

WEARING ROBINSON CLOTHES, SO ROBINSON MUST HAVE BEEN INVOLVED IN

16

SOME KIND OF WAY.

17

CONNECTS MR. THOMPSON -- NOTHING AT ALL -- TO THE WACHOVIA BANK

18

ON FEBRUARY 21ST OF 2007.

19

MR. DONALD RUDE.

20

BECAUSE THEY WERE PARKED -- YOU KNOW, FUNNY PARKED, BACKED INTO

21

A HANDICAP PLACE.

22

PERSON COMING OUT OF THE BANK ONE TIME, BUT HE DOESN'T SEE

23

ANYTHING ABOUT THE DRIVER TO SAY IT WAS MR. THOMPSON OR ANYBODY

24

ELSE.

25

AND SO WHAT DOES THAT TELL YOU?

THE

THE I.D.'S DON'T MATCH THESE FOLKS,

BUT WHAT ABOUT MR. THOMPSON?

THEY WERE

NOTHING

ALSO, YOU'VE GOT TO REMEMBER TOO

HE DROVE UP.

HE SAW THE DRIVER OF THE CAR

HE ACTUALLY WALKS PAST THE CAR AND SEES THE

NOW, WE LOOK AT THE BANK OF AMERICA ON FEBRUARY 21ST.

144A

YOU

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 49 of 108

649

1

KNOW THAT MR. THOMPSON WAS NOT THE ROBBER OF THIS BANK BECAUSE

2

YOU HAVE A VIDEO, VIDEO, PHOTOGRAPHS, AND NONE OF THOSE MATCH

3

MR. THOMPSON.

4

BE MR. THOMPSON BECAUSE WE JUST KNOW IT WAS.

5

AGAIN, ALL 24 WITNESSES THAT THEY PRESENTED, NOT ONE WITNESS

6

SAID THAT'S THE GET-AWAY DRIVER, I SAW HIM WITH MY OWN EYES, I

7

RECOGNIZE HIM BECAUSE OF THOSE CIRCLES UNDER HIS EYES.

8

NEVER FORGET THAT FACE.

9

EVEN THOUGH THE EVIDENCE DOESN'T SHOW IT, IT HAD TO BE HIM.

10
11

AND SO WHEN THE GOVERNMENT SAYS, BUT IT'S GOT TO

NOT ONE.

NOT ONE WITNESS,

I WILL

BUT THEY SAID IT HAD TO BE,
WE

DON'T KNOW, BUT TRUST US.
YOU MIGHT REMEMBER MS. AIMEE RANK.

SHE SAID -- SHE

12

TESTIFIED SHE SAW THE DRIVER IN THE GET AWAY CAR AGAIN PARKED

13

WHERE?

IN THE HANDICAP PARKING.

14

VIEW.

THERE WAS NO TINTED WINDOW.

15

OBSTRUCT HER FROM SEEING THE PERSON IN THAT PARTICULAR CAR.

16

CAME IN AND SHE LOOKED AT THESE GUYS AND SHE COULDN'T SAY, THAT

17

LOOKS LIKE HIM RIGHT THERE, I THINK THAT'S HIM.

18

NOTHING PERTAINING TO MR. THOMPSON BECAUSE HE WAS NOT A GET-AWAY

19

DRIVER AT ANY BANK ROBBERY AT ANY TIME.

THERE WAS NOTHING BLOCKING HER
THERE WAS NOTHING TO
SHE

THERE WAS

20

NOW, LOOK AT THE -- AND AS TO THE COUNT ONE WHICH IS THE --

21

AND COUNT TWO, THE ROBBERY OF THE TACO BELL, BECAUSE THERE IS NO

22

INTERSTATE COMMERCE THAT'S BEING SLOWED UP, INTERRUPTED,

23

ANYTHING LIKE THAT, YOU HAVE TO FIND HIM NOT GUILTY.

24

PARTICULAR ONE INVOLVING THE WACHOVIA BANK, YOU WOULD ALSO HAVE

25

TO FIND HIM NOT GUILTY OF COUNT SIX AND SEVEN BECAUSE THERE'S

ON THIS

145A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 50 of 108

650

1

ABSOLUTELY NOTHING THAT SAYS IT WAS HIM ROBBING, HIM DRIVING

2

AWAY OR HIM DOING ANYTHING.

3

BANK, AGAIN, NOT GUILTY.

4

21ST THAT'S ALLEGED IN COUNTS EIGHT AND NINE, AGAIN, NO EVIDENCE

5

WHATSOEVER, NOTHING, NO FINGERPRINTS, NO I.D.

6

NOTHING.

7

ABSOLUTELY NO EVIDENCE AT ALL, YOU MUST FIND HIM NOT GUILTY.

8
9

SO COUNT SIX AND SEVEN, WACHOVIA

ON THE BANK OF AMERICA ON FEBRUARY

THEY KNOW

AND SO, AGAIN, BECAUSE THERE IS NO EVIDENCE,

NOW, I WANT TO TURN YOUR ATTENTION TO THE BANK ROBBERY OF
THE BANK OF AMERICA ON MARCH THE 14TH OF 2007.

NOW, IN THIS

10

PARTICULAR ONE YOU KNOW, AGAIN, WHO THE ROBBER WAS.

11

WHO THE ROBBER WAS.

12

TOLD YOU WHAT HE DID.

13

A GET-AWAY DRIVER.

14

HAVE YOUR NOTES, BUT IT'S NOT EVIDENCE, BUT I'M GOING TO TELL

15

YOU -- REMIND YOU WHAT THE EVIDENCE SHOWED.

16

MS. PATRICIA MANNING.

17

GOVERNMENT WHO TESTIFIED ABOUT THAT PARTICULAR ROBBERY.

18

NEVER ASKED HER WAS THERE A GET-AWAY DRIVER.

19

HER IF ANYBODY SAW THE CAR, THE S.U.V. OR ANYTHING.

20

HER WHAT THE ROBBER LOOKED LIKE.

21

LOOKED LIKE.

22

EVIDENCE WHATSOEVER THAT THERE WAS EVEN A GET-AWAY CAR INVOLVED.

23

BUT THE GOVERNMENT SAID, WELL, THERE WAS A GET-AWAY CAR INVOLVED

24

IN SOME OF THE OTHERS, SO WE HAVE TO ASSUME THERE WAS A GET-AWAY

25

DRIVER ON EVERY ROBBERY BECAUSE THAT WOULD HAVE TO FIT OUR M.O.

YOU KNOW WHO THE ROBBER WAS.

YOU KNOW

MR. ROBINSON

NOW, WHAT YOU HAVE TO DECIDE IS WAS THERE

AND IF YOU LOOK AT YOUR NOTES -- AND YOU'LL

THEY PUT UP

SHE WAS THE ONLY WITNESS FROM THE
THEY

THEY NEVER ASKED
THEY ASKED

SHE TOLD YOU WHAT THE ROBBER

THOSE DESCRIPTIONS DID NOT FIT MR. THOMPSON.

146A

NO

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 51 of 108

651

1
2

THAT WE HAVE IN THIS CRIME.
MEMBERS OF THE JURY, YOU DON'T GO BY M.O.

YOU GO BY

3

EVIDENCE.

YOU DON'T GO BY WHAT IT FEELS LIKE.

4

EVIDENCE.

IT'S NOT ABOUT SPECULATION.

5

INNUENDOES.

6

WHEN YOU LOOK AT THE EVIDENCE OF THAT ROBBERY ON MARCH THE 14TH

7

IN THAT BANK OF AMERICA, IT IS CLEAR IT WAS NOT MR. THOMPSON AND

8

IT WAS ALSO CLEAR THERE WAS NO EVIDENCE THAT THERE WAS A

9

GET-AWAY DRIVER AND IT'S ALSO CLEAR THERE IS NOTHING CONNECTING

IT'S NOT ABOUT FEELINGS.

YOU GO BY

IT'S NOT ABOUT
IT'S ABOUT THE EVIDENCE.

10

MR. THOMPSON TO THAT ROBBERY.

11

THEY FAILED TO MEET THEIR BURDEN OF PROOF, YOU MUST FIND HIM NOT

12

GUILTY.

13

WILL HAVE BEFORE YOU.

14

AND AS A RESULT OF THAT, BECAUSE

AND THAT WOULD BE ON COUNT TEN OF THE INDICTMENT YOU

NOW, LET'S LOOK AT MARCH 19TH, 2007.

AGAIN, IT'S A BANK OF

15

AMERICA.

AND, AGAIN, YOU KNOW THAT MR. THOMPSON WAS NOT THE

16

ROBBER.

17

MR. THOMPSON TO THIS PARTICULAR CRIME OTHER THAN THE GOVERNMENT

18

SAYING, WELL, THERE HAD TO BE A GET-AWAY DRIVER AND WE BELIEVE

19

IT WAS MR. THOMPSON.

20

YOU HEARD FROM THIS WITNESS STAND IS EVIDENCE.

21

PHOTOGRAPHS IS EVIDENCE.

22

THAT YOU SEE, THAT'S EVIDENCE.

23

IMPORTANT.

24

EVIDENCE?

25

MR. THOMPSON TO THE MARCH 19TH ROBBERY AT ALL.

YOU KNOW THAT THERE'S ABSOLUTELY NOTHING TYING

WHAT THEY BELIEVE IS NOT EVIDENCE.

WHAT

WHAT YOU SEE IN

THAT'S WHAT YOU GO BY.

THE DOCUMENTS

WHAT YOU BELIEVE IS NOT

WHAT DOES THE EVIDENCE SHOW?
THAT'S WHAT'S IMPORTANT.

DO YOU BELIEVE THE

THERE'S NOTHING TYING

147A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 52 of 108

652

1

NOW, ALSO, AGAIN, THE GOVERNMENT ONLY PRESENTED ONE WITNESS

2

FROM THIS ROBBERY WHO WAS MS. VIVIANA GOMEZ.

THEY NEVER ASKED

3

HER, DID YOU SEE HIM GO GET INTO A CAR, THE ROBBER?

4

THE DRIVER GET INTO THE PASSENGER SIDE?

5

CAR?

6

TO WAS THE ROBBER WHO ROBBED HER, NOTHING ABOUT A GET-AWAY CAR,

7

NOTHING ABOUT A GET-AWAY DRIVER.

8

WE KNOW WE PUT UP THAT EVIDENCE, BUT YOU ALL HAVE TO MAKE THE

9

LEAP TO SAY THERE HAD TO BE A GET-AWAY DRIVER BECAUSE,

DID YOU SEE

DID YOU SEE A GET-AWAY

THEY NEVER ASKED HER ABOUT ANY OF THAT.

ALL SHE TESTIFIED

BUT THE GOVERNMENT SAID, WELL,

10

OTHERWISE, IT LETS MR. THOMPSON OUT OF THE CASE COMPLETELY.

11

BUT, MEMBERS OF THE JURY, THERE WAS NO GET-AWAY DRIVER.

12

WAS NO EVIDENCE OF THAT, NO TESTIMONY FROM ANY WITNESS OF THAT.

13

AND WHEN THERE WAS A GET-AWAY DRIVER, GUESS WHAT, NOT ONE SAID

14

IT WAS MR. THOMPSON.

15

JURY, AGAIN, NO EVIDENCE WHATSOEVER, AND ON COUNT 11 YOU MUST

16

FIND MR. THOMPSON NOT GUILTY.

17

THERE

SO AS A RESULT OF THAT, MEMBERS OF THE

NOW, MEMBERS OF THE JURY, IN SPITE OF THE GOVERNMENT HAVING

18

ABSOLUTELY NO EVIDENCE ON THOSE COUNTS TO TIE MR. THOMPSON TO

19

THIS CRIME, THEY JUST SAY, WELL, JUST TRUST US AND BELIEVE US

20

AND GO ALONG WITH US.

21

SYSTEM, STANDARDS THAT YOU'VE TAKEN AN OATH TO UPHOLD, STANDARDS

22

THAT SAID THAT EVERYONE THAT IS ACCUSED IS PRESUMED TO BE

23

INNOCENT UNTIL IT'S OVERCOME WITH SOME SOLID EVIDENCE, SOME

24

SUFFICIENT EVIDENCE, SOME EVIDENCE THAT SAYS OTHERWISE.

25

BELIEVING IT DOESN'T MAKE IT SO.

BUT WE HAVE STANDARDS IN OUR JUDICIAL

JUST

IF YOU'VE GOT SOLID EVIDENCE,

148A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 53 of 108

653

1

DOES THE SOLID EVIDENCE MAKE IT SO?

2

TO YOU SUFFICIENT ENOUGH?

3

THE GOVERNMENT TO.

4

HOLD TODAY.

5

MAKE THEM PROVE A CASE BEYOND A REASONABLE DOUBT, NOT BECAUSE OF

6

WHAT THEY BELIEVE, BUT BECAUSE OF WHAT THE EVIDENCE SAYS.

7

YOU HAVE TO FIND HIM NOT GUILTY ON THOSE COUNTS WE WENT OVER.

8
9

IS THE EVIDENCE PRESENTED

THAT'S THE STANDARD YOU HAVE TO HOLD

THAT'S THE STANDARD THAT YOU TOOK AN OATH TO

BUT WE ASK THAT YOU CARRY OUT THAT STANDARD AND

AND

NOW, LET'S LOOK, MEMBERS OF THE JURY, AT THE OTHER COUNTS.
WHEN YOU LOOK AT THE ROBBERY OF THE SUNTRUST BANK ON

10

FEBRUARY 12TH, 2007, AGAIN, YOU KNOW MR. THOMPSON WAS NOT THE

11

ROBBER.

12

THAT THE GOVERNMENT PUT UP THAT SAID MR. THOMPSON WAS THE

13

GET-AWAY DRIVER.

14

MR. THOMPSON WITH ALL THESE DISTINGUISHABLE FEATURES THAT HE

15

HAS.

16

FINGERPRINTS ON A NOTE FROM THE SCENE OF THAT ROBBERY.

17

AGAIN, THERE'S NOT A SINGLE WITNESS OUT OF 24 WITNESSES

NO DESCRIPTION FROM ANYBODY MATCHES

THE GOVERNMENT SAYS, WELL, WAIT ONE MINUTE.

WE GOT

NOW, IF HE'S THE GET-AWAY DRIVER AND HE'S THE PERSON THAT

18

WROTE THE NOTE, ASK YOURSELF WHY THERE IS NOT A SINGLE

19

FINGERPRINT ON THAT NOTE THAT BELONGS TO MR. THOMPSON, NOT ONE,

20

NOT A SINGLE FINGERPRINT FROM THAT ROBBERY THAT BELONGS TO HIM.

21

THIS IS THE FEBRUARY 12TH AT THE SUNTRUST BANK.

22

HE'S THE ONE WHO'S WRITING ALL THE NOTES AND THEY SAID THAT'S

23

HOW WE GOT HIM, THAT'S WHAT YOU HAVE TO BELIEVE, THEN, THAT

24

KNOCKS THEIR THEORY COMPLETELY OUT OF THE WATER.

25

HAVE BEEN AT LEAST A FINGERPRINT WHEN HE'S WRITING, I MEAN,

AND SO NOW IF

THERE WOULD

149A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 54 of 108

654

1

SOMETHING ON THAT NOTE ACCORDING TO THEIR THEORY.

2

COMPLETELY TELLS YOU AND IT BLOWS THEIR THEORY OUT OF THE WATER

3

THAT MR. THOMPSON IS NOT A GET-AWAY DRIVER.

4

WRITING NOTES.

5

AND THEIR OWN EVIDENCE SHOWS THAT AND PROVES THAT HE DID NOT

6

PARTICIPATE ONE WAY OR ANOTHER.

7

A RESULT, MEMBERS OF THE JURY, OF THAT PARTICULAR ROBBERY ON

8

FEBRUARY THE 12TH OF THE WACHOVIA BANK, YOU HAVE TO FIND HIM NOT

9

GUILTY.

10

THAT

MR. THOMPSON IS NOT

MR. THOMPSON IS NOT HANDING A NOTE TO ANYBODY.

THAT'S THEIR EVIDENCE.

AND AS

NOW, LOOK AT THE ROBBERY THAT HAPPENED ALSO ON FEBRUARY THE

11

12TH THAT WAS AT THE BANK OF AMERICA.

AGAIN, WE KNOW HE WASN'T

12

THE ROBBER.

13

GET-AWAY DRIVER.

AGAIN, NO DESCRIPTION MATCHING HIM, NOTHING

14

TYING HIM TO IT.

BUT THE GOVERNMENT SAYS WAIT A MINUTE, WAIT A

15

MINUTE, WAIT A MINUTE.

16

NOW.

17

BACK OF A NOTE.

18

FINGERPRINTS A YEAR LATER.

19

MAKE SURE ALL THE FINGERPRINTS SHOWED UP, HE DID THE FINGERPRINT

20

ANALYSIS WITH THE AFIS SYSTEM, THE AUTOMATIC FINGERPRINT

21

IDENTIFICATION SYSTEM, WITH THAT TECHNICIAN ON FEBRUARY 13TH,

22

THE DAY AFTER THE ROBBERY.

23

MCENTYRE, DID YOU FIND ANY FINGERPRINT WHATSOEVER ON THAT NOTE

24

THAT BELONGED TO MR. STANLEY THOMPSON?

25

WELL, DID YOU SCAN IT IN?

AGAIN, NOT ONE OUT OF 24 WITNESSES SAID HE WAS THE

OUR THEORY IS STARTING TO COME INTO PLAY

HIS FINGERPRINTS WERE FOUND ON -- ALLEGEDLY FOUND ON THE
AND YOU REMEMBER OFFICER ALLEN, OKAY -BUT REMEMBER INSPECTOR MCENTYRE, TO

AND I SAID, MR. MCENTYRE, DETECTIVE

HE SAID, NO, WE DIDN'T.

DID YOU CHECK IT?

YES, WE DID.

150A

DID

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 55 of 108

655

1

YOU FIND ANYTHING?

NO, WE DID NOT.

ARE YOU SURE?

WE DIDN'T

2

FIND IT.

3

FIND ANY FINGERPRINTS THAT MATCHED MR. THOMPSON.

4

YEAR LATER, I'M GETTING READY FOR TRIAL AND NOW, OH, I JUST

5

HAPPEN TO SEE A PARTIAL FINGERPRINT, A THIRD FINGERPRINT NOW ON

6

THE BACK THAT DETECTIVE MCENTYRE, WHO HAS OVER 20 YEARS OF

7

EXPERIENCE IN INVESTIGATING HOMICIDES AND BANK ROBBERIES, WHO

8

DEVELOPED THE FINGERPRINTS, AND THE AGENT'S TECHNICIAN, SOMEHOW

9

IN ALL OF THEIR EXPERIENCE THEY COULD NOT SEE A FINGERPRINT THAT

WE FOUND TWO THAT MATCHED MR. ROBINSON, BUT WE DIDN'T
THEN ALMOST A

10

WAS DEVELOPED BY DETECTIVE MCENTYRE ALLEGEDLY ON THE BACK OF

11

THIS PAPER.

12

WAS THE FINGERPRINT?

13

AND SOME KIND OF WAY IT HAD TO BE PRESSED DOWN SO THAT ONLY THE

14

RIGHT PORTION OF THE FINGERPRINT SHOWED UP.

15

HOLD A PIECE OF PAPER.

16

SOMETHING.

17

IT WASN'T SO.

18

AND THEN I WANT YOU TO KNOW -- I SAID, WELL, HOW
HE SAID, WELL, IT WAS A LEFT INDEX FINGER

THAT'S A ODD WAY TO

THAT'S AN ODD WAY TO TRY TO WRITE

THAT'S AN ODD WAY TO HAND SOMEBODY A NOTE.

THE GOVERNMENT SAID, WELL, HE WROTE THE NOTE.

BECAUSE

HE HAD TO

19

WRITE THE NOTE WITH HIS INDEX FINGER LIKE THIS.

HE HAD TO WRITE

20

IT EVEN THOUGH HIS FINGERPRINTS ARE NO WHERE ELSE ON THE NOTE.

21

IT'S ON THE BACK SIDE OF A SHEET OF PAPER.

22

BECAUSE IT'S ON THE BACK SIDE, THEN OBVIOUSLY HE HAD TO BE THE

23

GET-AWAY DRIVER AND HE ALSO HAD TO WRITE THE NOTE EVEN THOUGH IT

24

JUST WAS HIS LEFT INDEX FINGER.

25

CAN'T HOLD A PIECE OF PAPER, BUT YET HE STILL HAD TO WRITE IT.

THEY SAID, WELL,

HE CAN'T HOLD A PENCIL, HE

151A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 56 of 108

656

1

IMPOSSIBLE.

2

THEORY THEY ARE GOING TO USE.

3

OR NONE OF THE NOTES.

4

WRITTEN ANY OF THE NOTES, BUT THEY KEEP ARGUING THAT IT'S

5

BECAUSE HIS FINGERPRINT IS LIKE THIS ON THE BACK.

6

IMPOSSIBLE.

SEE, THEY CAN'T PICK AND CHOOSE THE
EITHER HE WROTE ALL OF THE NOTES

THE EVIDENCE SHOWED SO FAR THAT HE HASN'T

I ALSO TOLD YOU THAT OFFICER RICH WAS ANOTHER TECHNICIAN

7

WHO WAS SUPPOSED TO DO A VERIFICATION OF THIS THIRD FINGERPRINT.

8

HE SAID HE DID IT.

9

REPORT IN THIS CASE?

I ASKED HIM, NOW, OFFICER, DIDN'T YOU DO A
YES, I DID.

10

EVERYTHING?

11

PUT IN YOUR SUMMARY THAT OFFICER RICH WAS NOT ABLE TO IDENTIFY

12

THE THIRD FINGERPRINT?

13

RIGHT.

14

FOUND THE THIRD FINGERPRINT BEFORE I DID THE REPORT.

15

WAIT A MINUTE, OFFICER ALLEN.

16

THIRD FINGERPRINT ALONG WITH YOUR REPORT AT THE SAME TIME TO THE

17

GOVERNMENT ON THE SAME DAY?

18

SAID, YOU KNEW ABOUT THE THIRD FINGERPRINT WHEN YOU PREPARED

19

YOUR REPORT.

20

MISTAKE.

21

YES, I DID.

DID YOU DO A SUMMARY OF

LOOK AT YOUR SUMMARY, SIR.

DIDN'T YOU

HE LOOKED AT IT AND SAID, YEAH, YOU

AND THEN HE SAYS, OH, BUT I KNOW WHY THAT HAPPENED.

I

I SAID,

ISN'T IT TRUE THAT YOU FAXED THE

HE SAID, WELL, YEAH, I DID.

I

HE SAID, WELL, YEAH, I GUESS I MUST HAVE MADE A

HE WASN'T MAKING A MISTAKE.

HE KNEW THAT OFFICER RICH DID

22

NOT VERIFY THAT THIRD FINGERPRINT.

THE GOVERNMENT KNEW ABOUT

23

OFFICER ERIC RICH, BUT THEY FORGOT -- THEY JUST CHOSE NOT TO

24

BRING HIM IN TO CORROBORATE THIS THIRD FINGERPRINT THAT

25

ALLEGEDLY SHOWS UP A YEAR LATER.

WHY?

DO YOU THINK OFFICER

152A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 57 of 108

657

1

ALLEN WOULD FALSIFY A REPORT THAT HE GIVES TO THE GOVERNMENT

2

THAT SAYS IT WASN'T SO, THAT THE THIRD FINGERPRINT WASN'T

3

VERIFIED?

4

IS SUSPICIOUS, THAT THIRD FINGERPRINT, MEMBERS OF THE JURY --

5

EVEN IF HE SAID, WELL, IT BELONGS TO MR. THOMPSON, YOU CAN'T

6

WRITE WITH IT, YOU CAN'T HOLD A PIECE OF PAPER WITH IT, YOU

7

CAN'T DO ANYTHING.

8

STUFF THAT WHEN HE'S WRITING, WHY ISN'T THERE A THUMB PRINT?

9

WHY ISN'T THERE SOMETHING ELSE PERTAINING TO HIM ON THAT NOTE?

10

I DON'T THINK SO.

AND BECAUSE THAT THIRD FINGERPRINT

WHY AREN'T THERE MORE FINGERPRINTS?

THE GOVERNMENT SAID HE WROTE THE NOTE.

WHY --

HOW DO YOU WRITE A

11

NOTE, MEMBERS OF THE JURY, AND NOT HAVE ANY FINGERPRINTS ON THE

12

FRONT?

13

HAVE A FINGERPRINT ON THE FRONT AND THE BACK?

14

YOU KNOW, UNLESS YOU ARE HOUDINI, AND EVEN HOUDINI CAN'T DO

15

THAT.

16

BEING MR. THOMPSON IS FALLING APART AND THEY KNOW IT.

17

SAY, WELL, MAYBE WE DON'T QUITE HAVE HIM ON THAT.

18

AS A RESULT OF THAT LACK OF EVIDENCE YOU HAVE TO FIND HIM NOT

19

GUILTY OF THAT BANK ROBBERY, OF BEING ASSOCIATED WITH THE BANK

20

ROBBERY AS A GET-AWAY DRIVER ON FEBRUARY 12TH (SIC) OF 2007,

21

WHICH LEADS US TO THE LAST ONE.

HOW DO YOU WRITE A NOTE -- HAND SOMEBODY A NOTE AND NOT
YOU CAN'T DO IT,

AND SO THEIR THEORY ABOUT A GET-AWAY DRIVER, THAT -- IT
THEN THEY

AND SO -- BUT

22

THE LAST ROBBERY YOU RECALL, MEMBERS OF THE JURY, WAS THE

23

ROBBERY THAT TOOK PLACE AT THE SUNTRUST BANK ON MARCH THE 26TH

24

OF 2007.

25

DESCRIPTION MATCHED HIM, PEOPLE LOOKED AT THE GET-AWAY DRIVER.

AGAIN, YOU KNOW THAT HE WAS NOT THE ROBBER, NO

153A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 58 of 108

658

1

THEY SEE THE GET-AWAY DRIVER.

2

HERE AND SAYS THE GET-AWAY DRIVER WAS MR. THOMPSON.

3

GOVERNMENT SAID, WELL, OKAY, THEN.

4

INDEX FINGER, SO -- BUT WE'VE GOT A THUMB PRINT, TWO THUMB

5

PRINTS ON THE SHEET NOW, SO THAT MEANS THAT HE WAS THE GET-AWAY

6

DRIVER BECAUSE THERE'S TWO THUMB PRINTS.

7

BUT GUESS WHAT?

NOT ONE COMES IN
THE

YOU CAN'T WRITE WITH YOUR

I ASKED THEIR EXPERT, I SAID, WELL, THE THUMB PRINTS, WERE

8

THEY LIKE THIS?

WAS IT SOMEBODY HOLDING A TABLET LIKE THIS?

9

SHE SAID, YES, THAT'S QUITE POSSIBLE.

SHE SAID IT HAD TO BE

10

SOMETHING LIKE THAT BECAUSE THERE ARE NO FINGERPRINTS ANYWHERE

11

ELSE ON THE NOTE, ON THE BACK SIDE, ANY ON THE FRONT SIDE THAT

12

BELONGS TO MR. THOMPSON.

13

THE NOTE.

14

YOU ARE HOLDING A TABLET.

15

TABLET, WOULDN'T YOU HAVE TO PUT YOUR FINGERPRINT ON IT TO START

16

WRITING ANOTHER NOTE OR YOU WRITE IT LIKE THIS?

17

GOING TO HAPPEN.

18

SAID HE TORE IT OUT AND GAVE IT TO MR. ROBINSON.

19

ARE THE FINGERPRINTS OR A THUMB PRINT OR AN INDEX FINGER WHERE

20

HE TORE IT OUT AND GAVE IT TO ANYBODY?

21

THE GOVERNMENT SAID, WELL, HE WROTE

HOW DID HE WRITE A NOTE LIKE THIS, WITH TWO THUMBS?
EVEN IF HE TOOK HIS HAND OFF THE

SOMETHING IS

THERE WOULD BE SOMETHING THERE.

THEN THEY
WELL, WHERE

HEAVEN FORBID SOMEBODY TAKE YOUR NOTEPAD TODAY, TEAR OFF A

22

SHEET OF PAPER, GO USE IT IN A BANK ROBBERY AND YOUR THUMB PRINT

23

SHOW UP.

24

SOMEBODY ELSE TORE THE PAPER OFF AND TOOK IT TO THE BANK AND

25

WROTE A NOTE, AND GIVE ME THE MONEY, I GOT A GUN, I'M GOING TO

YOU KNOW YOU DIDN'T DO IT, BUT YOU DON'T KNOW THAT

154A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 59 of 108

659

1

ROB YOU, GET ALL THE BANK MONEY.

BUT YET YOU CAN BE ARRESTED.

2

YOUR THUMB PRINT IS ON IT.

3

EXPLAIN, BUT I NEVER WENT TO THE BANK.

4

FINGERPRINTS GET THERE?

5

HAD -- WAS HOLDING A TABLET.

6

THEY TORE A PAGE OUT OF MY TABLET.

7

PRINT IS ONLY ON, LIKE, A TABLET LIKE SO.

8

THERE WOULD BE ANOTHER FINGERPRINT.

9

WOULD BE ANOTHER FINGERPRINT.

HOW DO YOU EXPLAIN?

WELL, I CAN'T

THEN, BUT HOW DID YOUR

WELL, I DON'T KNOW.

YOU KNOW, MAYBE I

MAYBE THEY TOOK MY TABLET.
I DON'T KNOW.

MAYBE

BUT MY THUMB

IF I HAD TORN IT OUT,

IF I HAD WROTE ON IT, THERE

AND, MEMBERS OF THE JURY, YOU

10

KNEW THAT WHEN YOU HAD -- DOING THE ROBBERY, YOU KNEW YOU

11

PARTICIPATED IN THE ROBBERY, IT HAPPENED BECAUSE A

12

TABLET SOMEBODY -- A SHEET OF PAPER SOMEBODY TORE OUT YOUR

13

TABLET.

14

BECAUSE SOMEBODY TORE OUT A PIECE OF PAPER OUT OF A TABLET THAT

15

HE THEN HAS DOES NOT MEAN HE'S A GET-AWAY DRIVER, DOES NOT MEAN

16

THAT HE PARTICIPATED IN ANY MANNER, DOES NOT MEAN THAT HE EVEN

17

HAD KNOWLEDGE SOMEBODY TORE A TABLET -- A PIECE OF PAPER OUT OF

18

A TABLET.

19

THE THUMB PRINT MEANS YOU WERE THERE.

20

MEAN ANYTHING.

21

IT DOWN, SOMEBODY TOOK THE SHEET OF PAPER, WROTE ON IT, TORE IT

22

OUT AND TOOK IT SOMEWHERE.

23

CARE WHO IT IS.

24

I'M NOT PARTICIPATING.

25

THAT'S THE SAME THING MR. THOMPSON IS SAYING.

IT'S

AND BECAUSE OF THAT THE GOVERNMENT SAYS, WELL, BUT
THE THUMB PRINT DOESN'T

THE THUMB PRINT MEANS THAT I HAD A TABLET, I PUT

I DON'T KNOW WHO IT IS.

I DON'T

AND IT DOESN'T MATTER TO ME WHO IT IS BECAUSE

THERE IS NOTHING TO SAY HE PARTICIPATED, NOTHING TO SAY HE

155A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 60 of 108

660

1

WAS THE GET-AWAY DRIVER AT ALL EVEN IN THIS ROBBERY THAT THEY

2

COME THE CLOSEST TO HAVING ANY FINGERPRINT ON.

3

THE JURY, THEY WANT YOU TO MAKE THAT BOLD LEAP TO SAY

4

FINGERPRINTS EQUAL GET-AWAY DRIVER.

5

THERE'S NO EVIDENCE TO SUPPORT IT, AND AS A RESULT WE ASK THAT

6

YOU FIND HIM NOT GUILTY ON THAT AS WELL.

7

AND, MEMBERS OF

YOU CAN'T MAKE IT BECAUSE

WELL, THEN THEY SAY -- THE GOVERNMENT SAYS, WELL, OKAY.

8

KNOW HE HAD TO BE THERE BECAUSE WE FOUND A TABLET THAT HAD

9

NUMBERS BEING DIVIDED BY -- ONE NUMBER BEING DIVIDED BY TWO.

WE

10

THEY SAID, OH, WELL, THAT'S IT, 2308.

11

EXACT NUMBER FROM THE BANK, BUT IT'S CLOSE ENOUGH FOR HORSE

12

SHOES.

13

WITH SOMEBODY'S LIFE.

IT'S NOT A GAME.

14

TAKEN IN ANY ROBBERY.

2311 IS WHAT THEY SAY -- OR 2304 IS NOT

15

TAKEN FROM ANY ROBBERY.

16

WELL, MAYBE THEY GOT SHORTED.

17

THE JURY, YOU DON'T EVEN KNOW WHAT THE NUMBER MEANS.

18

REALLY DON'T.

19

DON'T KNOW WHAT ANY OF THOSE NUMBERS ARE.

20

GOVERNMENT SAYS WE DON'T KNOW WHAT THOSE NUMBERS ARE, WE DON'T

21

KNOW WHAT THEY REPRESENT, BUT Y'ALL NEED TO GO AND TELL US WHAT

22

THEY REPRESENT.

23

WE KNOW IT'S NOT THE

WELL, WE ARE NOT PLAYING HORSE SHOES.

WE ARE PLAYING

2308 IS NOT WHAT WAS

2311 IS WHAT THEY SAID.

THEY SAID, OH,

AND THEN I SAY, AGENT MYERS, TELL

WHAT'S THE 400 SUBTRACTED?

WELL, I

I DON'T KNOW.

I

BUT YET THE

HOW CAN YOU TELL WHAT THEY REPRESENT WHEN THEY DON'T EVEN

24

KNOW WHAT THEY REPRESENT?

YOUR JOB IS NOT TO SPECULATE ON THE

25

EVIDENCE, BECAUSE THERE WAS NOBODY WHO SAID WHAT THOSE NUMBERS

156A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 61 of 108

661

1

MEANT.

THERE WAS NOBODY THAT SAID THESE ARE THE NUMBERS THAT

2

WERE USED BY THESE GUYS TO DIVIDE UP THE MONEY.

3

THEY COULD HAVE BEEN EVEN THOUGH IT'S NOT THE RIGHT NUMBER.

4

THINKING IT COULD HAVE BEEN, THAT'S NOT WHY WE'RE HERE.

5

DOES THE EVIDENCE SHOW?

6

ARE FOR WHATSOEVER AND THEY CAN'T TELL YOU OTHERWISE BECAUSE

7

THEY DON'T KNOW EITHER.

8

YOU:

9

ALTHOUGH WE REALLY DON'T KNOW WHO IT IS, Y'ALL GOT TO HELP US

WELL, WE THINK

WHAT

THAT NOBODY KNOWS WHAT THOSE NUMBERS

AND THEN THE GOVERNMENT SAYS THIS TO

ALTHOUGH WE HAVE NOT IDENTIFIED THE GET-AWAY DRIVER,

10

OUT.

11

OTHER STUFF, WE PROVED IT BY PUTTING MR. ROBINSON UP, WHICH I

12

THOUGHT WAS QUITE INTERESTING.

13

THEY SAY IT WAS MR. THOMPSON BECAUSE EVEN IF WE HAD PROVEN

MR. ROBINSON GOT UP AND TOLD YOU WHAT HAPPENED.

HE NEVER

14

TOLD YOU THAT MR. THOMPSON WAS INVOLVED AS THE GET-AWAY DRIVER.

15

HE NEVER TOLD YOU THAT HE WROTE A NOTE.

16

HE WAS INVOLVED AS A GET-AWAY DRIVER.

17

WELL, HE TOLD US THAT.

18

REFUSED -- HE SAID, I DIDN'T WRITE THIS.

19

TOLD THEM.

20

ANYTHING ABOUT THOMPSON BEING THE ROBBER, BEING INVOLVED.

21

NEVER TOLD THEM THAT J.T. WAS STANLEY THOMPSON.

I NEVER TOLD

22

THEM ANY OF THAT, SO I'M NOT GOING TO READ THIS.

THAT'S WHAT

23

THEY WROTE, SO LET THEM READ IT.

24
25

HE NEVER TOLD YOU THAT

AND THE GOVERNMENT SAID,

HE LOOKS AT WHAT THEY WROTE DOWN.

THEY ARE MAKING UP STUFF.

NOW, YOU THINK ABOUT THAT.

HE

THIS IS NOT WHAT I

I NEVER TOLD THEM
I

HE WAS ADAMANT ABOUT IT.
WHY IS IT IN A WORLD THAT WE

HAVE ALL THESE TECHNOLOGICAL ADVANCES -- AND YOU KNOW A TAPE

157A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 62 of 108

662

1

RECORDER DOESN'T COST MUCH, A VIDEO CAMERA DOESN'T COST MUCH.

2

WHY IS IT THE GOVERNMENT WON'T ALLOW YOU TO WRITE YOUR OWN

3

STATEMENT?

4

ANY CONFESSION?

5

RECORDING OF ONE?

6

WHY NOT?

7

RECORD SO THERE IS NO DOUBT ABOUT WHAT IS SAID?

8

GOVERNMENT WANT TO DO THAT?

9

THEIR OWN NOTES, TYPE THEIR OWN REPORT AND THEY NEVER LET

THEY SAY HE CONFESSED.
NO?

WHERE IS IT?

DID HE SIGN ONE?

NO.

NO.

DID HE WRITE

IS THERE A TAPE

IS THERE A VIDEO RECORDING OF ONE?

WHY NOT MAKE IT EASY FOR YOU?

NO.

WHY NOT PERFECT THE
WHY DOESN'T THE

WHY IS IT THEY WANT TO JUST WRITE

10

MR. ROBINSON REVIEW IT TO SEE IF IT WAS CORRECT, IF HE AGREED

11

WITH IT.

12

THAT MATTER ON ANYTHING.

13

SAID, WELL, TRUST US, WE'RE THE GOVERNMENT.

14

THEY NEVER LET HIM REVIEW IT TO SIGN IT OR ANYTHING OF
THEY JUST DID WHAT THEY WANTED AND

NOW, AGENT MYERS SAID, I WASN'T IN THE ROOM ALL THE TIME,

15

BUT I HEARD WHAT WAS GOING ON.

IF SHE HEARD WHAT WAS GOING ON,

16

SHE WOULD TELL -- IF SHE WAS OUTSIDE THE ROOM SHE WAS DOING

17

SOMETHING.

18

ROOM.

19

PREPARED BY ANOTHER AGENT, AGENT CARMAN.

20

WITH SUCH AUTHORITY, HE TOLD US THAT THEY WERE BOTH ARMED AT THE

21

TACO BELL AND THEY BOTH USED GUNS AND IT'S RIGHT THERE IN HIS

22

302.

23

DID YOU GET THIS FROM?

24

SAY ANYTHING ABOUT GUNS BEING INVOLVED WHEN THEY ARE BOTH ARMED

25

AT THE TACO BELL, THAT HE AND STANLEY THOMPSON ROBBED THAT TACO

SHE WAS DISTRACTED FROM WHAT WAS GOING ON INSIDE THE

FINALLY SHE DIDN'T EVEN PREPARE THE REPORT.

REMEMBER I GAVE HER THE 302?

IT WAS

AND THEN SHE TESTIFIED

I SAID, WHERE IN THE WORLD

LOOK AT THE FIRST PARAGRAPH.

DOES HE

158A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 63 of 108

663

1

BELL?

2

SHE SAID, WELL, NO, IT DOESN'T SAY THAT.

WHAT ELSE DID THEY MAKE A MISTAKE ON?

WHAT OTHER STATEMENT

3

WAS MADE THAT WAS NOT RECORDED?

WHAT STATEMENT WAS RECORDED

4

THAT WAS NOT MADE?

5

THAT WHEN IT'S SO EASY TO GIVE YOU A PERFECT RECORDING, SO EASY

6

TO GIVE IT TO YOU SO THEY WOULDN'T HAVE TO GO THROUGH ALL THE HE

7

SAID, SHE SAID.

8

HE GOT UP THERE AND ADMITTED TO WHAT HE DID, BUT DON'T BELIEVE

9

HIM.

YOU SHOULD NOT BE PUT IN THE POSITION LIKE

SHE SAID, WELL, DON'T BELIEVE HIM, EVEN THOUGH

WELL, IF YOU ARE NOT GOING TO BELIEVE HIM, YOU CAN'T --

10

BUT THE GOVERNMENT SAYS, WELL, FIND HIM GUILTY BECAUSE HE

11

ADMITTED TO IT.

12

NOT ALL OF WHAT HE SAID, BELIEVE THIS OR DON'T BELIEVE THAT.

13

SO THEY SAY BELIEVE SOME OF WHAT HE SAYS BUT

LET'S LOOK AT THAT.

THEY SAID BELIEVE THAT MR. STANLEY

14

THOMPSON WAS THE ONE WHO WAS WRITING THE NOTES.

WHERE ARE THE

15

FINGERPRINTS?

16

THREE NOTES.

17

NOTE, A THUMB -- A INDEX FINGER SUPPOSEDLY ON THE BACK, ANOTHER

18

ONE JUST A THUMB PRINT.

19

NOTE?

20

ROBBED THE BANK ON (SIC) WACHOVIA THE 21ST.

21

PICTURE.

22

LIGHT SKIN, TALL BLACK MAN.

23

CIRCLES UNDER -- THESE DARK FEATURES UNDER HIS EYES.

24

CAME UP HERE AND SAID THAT'S HIM BACK THERE.

25

RIGHT HERE, THEY SAW HIM RIGHT HERE, THEY SAW HIM RIGHT, THEY

WHERE ARE THE FINGERPRINTS TO INDICATE THAT?
ONE NOTE, ZERO FINGERPRINTS ALL TOGETHER.

NO WHERE.

ONE

WHERE IS THE EVIDENCE THAT HE WROTE THE

THEY SAID, WELL, MAYBE IT WAS MR. THOMPSON WHO
DISTINGUISHING

NOT ONE PERSON TOLD YOU THAT THEY WERE ROBBED BY A
NOT ONE SAID HE HAD THESE
NOT ONE

BUT THEY SAW HIM

159A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 64 of 108

664

1

SAW HIM RIGHT HERE.

HE TOLD YOU THAT.

AND SO WHAT I'M SAYING

2

TO YOU TODAY, WHAT THE GOVERNMENT WROTE IS WHAT THEY WANTED TO

3

WRITE.

4

TOLD THEM.

5

STAND AND WHAT HE TOLD YOU WAS CORROBORATED BY THE EVIDENCE.

6

BUT THE THINGS THAT THE GOVERNMENT SAYS HE TOLD THEM IS NOT

7

CORROBORATED BY ANY EVIDENCE WHATSOEVER.

IT WAS THEIR THEORY OF THE CASE.

IT WAS NOT WHAT HE

WHAT HE TOLD YOU, WHAT HE TOLD YOU ON THIS WITNESS

8

THE GOVERNMENT TOLD YOU IN THEIR CLOSING THAT IN -- THAT

9

MR. THOMPSON WAS SEEN DRIVING THE GET-AWAY CAR, HE WAS CAUGHT

10

DRIVING THE S.U.V.

11

BECAUSE IF HE'S THE ONE WHO'S INVOLVED IN THESE ROBBERIES, BANK

12

ROBBERIES, WHY DIDN'T THEY JUST HALL BUGGY?

13

IT WHEN THE POLICE GOT BEHIND HIM?

14

TO GET AWAY?

15

BANK OR THEY GOT ME.

16

THE POLICE OFFICER A QUESTION?

17

I THOUGHT THAT WAS VERY INTERESTING.

THEN

WHY HE DIDN'T FLOOR

WHY DIDN'T HE FLEE AND TRY

NO, OH, MAN, THEY GOT ME.

I BEEN (SIC) ROBBED A

WHY WOULD HE JUST SIMPLY PULL OVER AND ASK

MEMBERS OF THE JURY, SOMEBODY WHO HAS BEEN INVOLVED IN A

18

ROBBERY IS NOT GOING TO PULL OVER.

SOMEBODY THAT'S JUST ROBBED

19

A BANK IS NOT GOING TO PULL OVER.

20

CRIMINAL, THEY SHOT SOMEBODY, IS NOT GOING TO PULL OVER.

21

ARE GOING TO FLEE AND THEY ARE GOING TO LUDE AND THERE WILL BE A

22

HIGH-SPEED CHASE ALL OVER METRO ATLANTA.

23

WHY NOT?

24

PULLED OVER, NOT INVOLVED IN A ROBBERY, NOT INVOLVED IN

25

ANYTHING, SO HE PULLS OVER.

SOMEBODY WHO DID SOMETHING
THEY

WE DIDN'T HAVE THAT.

BECAUSE HE WASN'T GUILTY OF ANYTHING.

THAT'S WHY HE

THE GOVERNMENT SAID, OH, BUT WE

160A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 65 of 108

665

1

FOUND A GUN, THE GUN, THE .380 IN A ROOM THAT WAS REGISTERED TO

2

MR. THOMPSON.

3

SAW MR. THOMPSON IN THAT ROOM ONE TIME, ROOM 463 ONE TIME.

4

GOVERNMENT SAID, WELL, MA'AM, HOW MANY TIMES YOU SAW HIM AROUND

5

THE PLACE?

6

MONTH, SEE HIM ABOUT TEN TIMES.

7

ONE TIME.

8

CLEANED, HE'S NOT THERE BUT ONE TIME.

9

BUT NOW REMEMBER STEPHANIE TOLD YOU THAT SHE ONLY
THE

WELL, I SAW HIM ABOUT TEN TIMES, IT WAS ALMOST A

WHY IS THAT?

SHE ONLY SAW HIM IN THE ROOM

SHE GOES AROUND -- TIME TO GET THE ROOM
WHY IS THAT?

WELL, YOU REMEMBER THE DETECTIVE THAT TOLD US THAT WHEN

10

THEY DID A SEARCH OF THE CAR, AGENT CARMAN, WHEN THEY SEARCHED

11

THAT S.U.V. THEY FOUND A RECEIPT BELONGING TO MR. THOMPSON.

12

WAS A COMCAST CABLE T.V. BILL.

13

HAVE THE INTOWN SUITES AS THE ADDRESS?

14

BUT -- I DON'T REMEMBER.

15

SHE WOULD REMEMBER THAT, YOU WOULD HAVE RECORDED IT, YOU WOULD

16

HAVE GATHERED THAT AS A PIECE OF EVIDENCE.

17

HOLD IT AS A PIECE OF EVIDENCE, HE DIDN'T RECORD IT BECAUSE THAT

18

COMCAST BILL BELONGING TO MR. THOMPSON WAS NOT FOR INTOWN

19

SUITES.

20

WELL, 373 WAS REGISTERED IN SOMEBODY ELSE'S NAME, WASN'T IT,

21

MR. LLOYD CARTER?

22

YOU KNOW HE LIVED THERE?

23

IT

I ASKED, DID THAT COMCAST BILL
HE SAID NO.

I SAID,

I SAID, BUT IF IT HAD INTOWN SUITES,

YEAH.

HE DIDN'T

THEY SAID, BUT THE ROOM WAS REGISTERED IN HIS NAME.

OH, MR. CARTER DIDN'T LIVE THERE.

BUT HOW DO

ONE THING YOU KNOW FOR SURE, JUST BECAUSE A ROOM IS

24

REGISTERED IN YOUR NAME DOESN'T MEAN YOU LIVE THERE.

25

SAID, WELL, HE DOESN'T LIVE THERE.

MR. CARTER

THEY DON'T KNOW WHO LIVED IN

161A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 66 of 108

666

1

THAT ROOM.

AND JUST BECAUSE SOMEBODY ALLOWED YOU TO USE THEIR

2

CREDIT, GO DOWN THERE AND SIGN UP FOR THE ROOM FOR YOU, DOESN'T

3

MEAN ANYTHING OTHER THAN YOU SIGNED UP FOR THE ROOM FOR THEM AND

4

YOU ARE RESPONSIBLE FOR GETTING MONEY FROM THEM TO PAY FOR IT.

5

THEY SAID, WELL, BUT WE FOUND THE GUN IN ROOM 463.

6

HOW THE GUN GOT THERE, MEMBERS OF THE JURY.

7

THE ROOM WITH THE GUN.

8

TOLD US.

9

IT IN ROOM 473.

MR. ROBINSON WAS IN

HE HAD A STAND-OFF WITH THE F.B.I.

HE

THEY SAID, WELL, BUT WE FOUND THE SAFE WITH MONEY IN
THEY DID NOT FIND ANYTHING IN THAT ROOM

10

PERTAINING TO THE SAFE.

11

463.

12

THEY MISSTATED THE FACT AGAIN.

13

BUT YOU KNOW

THE SAFE WAS ACTUALLY IN ROOM 367, NOT

AND IF YOU LOOK BACK AT THE EVIDENCE IT WILL SHOW THAT.

NOW, THINK ABOUT THIS.

NO SAFE WAS FOUND IN THAT ROOM.

IF YOU KNOW YOU JUST LET SOMEBODY

14

ELSE USE THE ROOM, YOU KNOW, YOU SIGNED TO PUT THEM UP, AND IF

15

YOU KNEW THAT YOU WERE ROBBING THE PLACE AND YOU GOT STUFF

16

STASHED AWAY IN THAT ROOM, WHY IN THE WORLD WOULD YOU CONSENT TO

17

A SEARCH?

18

WOULD YOU DO THAT OTHER THAN THE FACT THAT, YOU KNOW WHAT, I

19

DON'T HAVE ANYTHING TO HIDE?

20

I DON'T KNOW WHAT'S IN THE ROOM, BUT IT DOESN'T BELONG TO ME.

21

AND SO HE CONSIDERS AND SAYS GO SEARCH.

22

WOULD YOU DO THAT IF YOU'VE GOT A SAFE, WHICH WASN'T THERE, IF

23

YOU'VE GOT MONEY, WHICH WASN'T THERE, IF YOU'VE GOT A GUN, WHICH

24

WASN'T THERE, IF YOU'VE GOT CLOTHING THAT WASN'T THERE, WHY

25

WOULD YOU DO IT?

WHY WOULD YOU SAY, OH, GO SEARCH IT, YOU KNOW?

WHY

I DON'T HAVE ANYTHING IN THE ROOM.

I DON'T CARE.

WHY

BECAUSE YOU KNOW YOU HAVE NOTHING TO HIDE,

162A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 67 of 108

667

1

BECAUSE YOU KNOW YOU WASN'T INVOLVED IN ANYTHING.

2

SEARCH, I DON'T CARE.

3

A SEARCH AND THEY DIDN'T FIND A SAFE IN THAT ROOM.

4

SAFE IN 367.

5

IT'S NOT MY ROOM ANYWAY.

HE SAID, GO

AND SO THEY DID
THEY FOUND A

MEMBERS OF THE JURY, WHEN YOU TAKE ALL EVIDENT EVIDENCE,

6

THE DIRECT EVIDENCE THAT HAS BEEN PRESENTED BY THE GOVERNMENT,

7

THERE'S NOTHING THAT TIES HIM, MR. THOMPSON, TO THIS CASE.

8

SO WHAT YOU'RE LEFT WITH, MEMBERS OF THE JURY, IS WHAT WE CALL

9

CIRCUMSTANTIAL EVIDENCE.

OKAY.

AND

WELL, YOU SAY THE

10

CIRCUMSTANCES, THE THUMB HERE, THE INDEX FINGER HERE, HE'S

11

DRIVING HERE, ALL OF THESE CIRCUMSTANCES IS NOT A COINCIDENCE.

12

SO THE CIRCUMSTANTIAL EVIDENCE SAYS HE IS THE GET-AWAY DRIVER.

13

I DON'T THINK SO.

14

OF THE ROBBERY.

15

OF THE THINGS YOU'VE LEARNED IF NOTHING ELSE IS CIRCUMSTANTIAL

16

EVIDENCE IS THE WEAKEST EVIDENCE OF ALL.

17

THE CIRCUMSTANTIAL EVIDENCE SAYS HE IS PART

I DON'T THINK IT IS.

THERE WAS A MAN WHO HAD 12 SONS.

MEMBERS OF THE JURY, ONE

THIS MAN HAD TEN YOUNGER

18

SONS AND HE SENT THE 11TH CHILD -- HE SAID, GO AND LOOK AFTER

19

THOSE, GO TELL THEM THAT DADDY WANT THEM TO COME HOME.

20

11TH CHILD WAS THE FAVORITE CHILD OF THIS MAN.

21

HIM A BEAUTIFUL COAT AND EVERYTHING AND THE OTHER BROTHERS WERE

22

JEALOUS, ENVIOUS OF HIM.

23

BROTHERS TO TELL HIM WHAT DADDY SAID, THEY SAW HIM AND THEY JUST

24

WENT INTO A RAGE.

25

DADDY LOVES, THE ONE THAT THINKS HE'S GOING TO BE THIS AND THAT

THIS

THE MAN BOUGHT

AND WHEN HE WENT TO GET HIS OTHER TEN

THEY SAID, OH, THERE HE IS, THE ONE THAT

163A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 68 of 108

668

1

AND ALL OF THAT.

WE ARE GOING TO SHOW HIM HE'S NOTHING.

2

THEY DECIDED THAT THEY WOULD KILL THIS BOY, THEIR OWN BROTHER.

3

AND THEN THE OLDEST ONE SAID, NO, WE CAN'T KILL HIM.

4

DADDY'S FAVORITE.

5

WELL, LET'S SELL HIM, SELL HIM INTO SLAVERY.

THEY SAID, WHAT

6

ARE WE GOING TO TELL DADDY WHEN WE GET HOME?

THE TEN BROTHERS

7

SAID, WELL, I TELL YOU WHAT, LET'S TAKE THAT COAT OFF OF HIM,

8

LET'S TEAR IT UP, LET'S BEAT IT UP, LET'S KILL A HOG AND POUR

9

THE BLOOD ON IT.

SO DON'T GO TELL DADDY.

TO DADDY.

11

DADDY, DADDY, YOUR FAVORITE SON IS DEAD.

12

WE'LL TAKE IT

THEY COME BACK WITH THAT BEAUTIFUL COAT.

LOOK AT THE CIRCUMSTANTIAL EVIDENCE.

THAT'S

AND THEN THEY SAID,

AND THEN WE GOT THE EVIDENCE.

10

AND SO

DADDY,

IT'S STRONGER IN THIS

13

STORY THAN IN THIS CASE.

14

GOT TEN EYEWITNESSES THAT SAYS YOUR SON IS DEAD.

15

EYEWITNESSES THAT SAYS THAT YOUR SON WAS KILLED BY A WILD BORE.

16

WE'VE GOT THE GOAT, THE BLOOD ON IT.

17

CIRCUMSTANTIAL EVIDENCE, DADDY, BUT YOU'VE GOT TO BELIEVE US.

18

YOUR FAVORITE SON IS DEAD.

19

CIRCUMSTANTIAL EVIDENCE AND FOR MANY YEARS HE WINED AND DINED IT

20

AWAY.

21

DISCOVERED HIS SON IS ALIVE.

22

THE CIRCUMSTANTIAL EVIDENCE SAYS WE'VE
WE'VE GOT TEN

WE KNOW IT'S ALL

AND THAT FATHER BELIEVED THAT

BUT THEN AS FATE WOULD HAVE IT, YEARS LATER, HE

MEMBERS OF THE JURY, DON'T BE WRONGED BY THE CIRCUMSTANTIAL

23

EVIDENCE.

DON'T MAKE THE SAME TRAGIC MISTAKE WITH

24

CIRCUMSTANTIAL EVIDENCE.

25

AND BECAUSE THE GOVERNMENT HAS FAILED TO PRESENT THEIR CASE,

IT'S WEAK AND IT'S OF NO VALUE AT ALL.

164A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 69 of 108

669

1

PRESENT ENOUGH EVIDENCE, SUFFICIENT EVIDENCE BEYOND A REASONABLE

2

DOUBT TO SAY THAT MR. STANLEY THOMPSON IS GUILTY OF ANY OF THIS,

3

WE ASK THAT YOU FIND HIM NOT GUILTY ON ALL CHARGES, INCLUDING

4

THE FIRST CHARGE ONLY BECAUSE IT'S CHARGED WRONG.

5

HE DIDN'T DO IT, BUT THEY CHARGED HIM WRONG.

6

FIND HIM NOT GUILTY ON THAT, TOO.

7

THE COURT:

8

WE DIDN'T SAY

FOLLOW THE LAW AND

THANK YOU.

THANK YOU, MR. MACK.

MS. HOFFER.

9

MS. HOFFER:

10

THANK YOU, YOUR HONOR.

FIRST OF ALL, MR. MACK HAS MISSTATED SEVERAL THINGS THAT

11

HAPPENED IN THE TRIAL.

12

AS THE JUDGE WILL TELL YOU ON INTERSTATE COMMERCE, IS NOT THAT

13

WE HAVE TO PROVE THAT SOMETHING CAME FROM OUT OF STATE, ALTHOUGH

14

WE HAVE PROVED THAT.

15

WAS ENGAGED IN AN INDUSTRY WHICH IS IN INTERSTATE COMMERCE, AND

16

CLEARLY WE HAVE PROVED THAT.

17

INTERSTATE COMMERCE, WHAT DOES THAT MEAN?

18

HAPPEN BETWEEN THE STATES IN THIS COUNTRY.

19

CERTAINLY MISSTATED THE LAW ON THAT, BUT YOU WILL HAVE THE LAW

20

GIVEN TO YOU BY THE JUDGE AND YOU WILL HAVE THE LAW OUT WITH

21

YOU.

22

HE'S MISSTATED THE LAW TO YOU.

THE LAW,

ALL YOU HAVE TO PROVE IS THAT THE BUSINESS

TACO BELL, A NATIONAL FRANCHISEE.
IT MEANS THINGS THAT
MR. MACK HAS

MR. MACK HAS ALSO MISSTATED THE EVIDENCE THAT OCCURRED IN

23

THIS TRIAL BEFORE YOU BY SWORN WITNESSES.

HE TOLD YOU THAT

24

DETECTIVE MCENTYRE NEVER SAID HE FOUND ANY FINGERPRINTS.

WELL,

25

DETECTIVE MCENTYRE PROCESSED THE NOTES FOR FINGERPRINTS.

HE

165A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 70 of 108

670

1

FOUND LATENTS AND THEN HE GAVE THEM TO THE FINGERPRINT ANALYST

2

TO DETERMINE WHETHER OR NOT THEY MATCHED.

3

JOB WAS NOT TO FIND THE PRINTS OR TO ANALYZE THE PRINTS, AND HE

4

DIDN'T DO THAT.

5

BECAUSE HE IS TRYING TO DISTRACT YOU.

6

TO LEAVE YOUR COMMON SENSE AT THE DOOR.

7

MISDIRECT YOU FROM THE REAL EVIDENCE.

8

EVIDENCE ON STANLEY JOSEPH THOMPSON.

9

LOT OF EVIDENCE AGAINST STANLEY JOSEPH THOMPSON.

10

DETECTIVE MCENTYRE'S

BUT MR. MACK WOULD HAVE YOU BELIEVE THAT
HE IS TRYING TO TELL YOU
HE IS TRYING TO

HE SAYS THERE'S NO
HE IS WRONG.

THERE IS A

HE ALSO MISCHARACTERIZED CIRCUMSTANTIAL EVIDENCE AND TOLD

11

YOU THAT IT HAS NO VALUE.

HOWEVER, THE JUDGE WILL TELL YOU

12

CIRCUMSTANTIAL EVIDENCE CAN BE GIVEN JUST AS MUCH WEIGHT AS

13

DIRECT EVIDENCE.

14

TOLD YOU IT HAS NO VALUE.

15

LAW.

16

WHO COMPARED THE LATENT FINGERPRINTS, AND HE'S THE ONE THAT

17

FOUND THE EXTRA PRINT THAT HIS PARTNER DIDN'T FIND THE YEAR

18

BEFORE.

19

ERROR.

20

POLICE DEPARTMENT AND HE DIDN'T REALLY HAVE THE POLICY OF

21

CHECKING AND RECHECKING.

22

DIDN'T TURN THE PAPER OVER TO FIND THE THIRD PRINT, BUT THE

23

THIRD PRINT WAS THERE.

24

PHYSICAL EVIDENCE IN THIS CASE, BECAUSE THE PHYSICAL EVIDENCE IN

25

THIS CASE SHOWS YOU THAT STANLEY JOSEPH THOMPSON IS GUILTY.

IT'S UP TO YOU, THE JURY, TO DECIDE THAT.

HE

THAT'S A COMPLETE MISSTATEMENT OF THE

HE ALSO TALKED ABOUT THE TESTIMONY OF OFFICER RON ALLEN

HE TOLD YOU ABOUT THAT.

HE TOLD YOU THERE WAS HUMAN

HIS PARTNER, MR. BISHOP, WAS A 30-YEAR VETERAN OF THE

HE WAS SORT OF OLD-FASHIONED.

HE

MR. MACK IS ASKING YOU TO DISREGARD THE

166A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 71 of 108

671

1

STANLEY JOSEPH THOMPSON -- WE ARE NOT ASKING YOU TO BELIEVE

2

SOMETHING RIDICULOUS LIKE HE WROTE A NOTE WITH HIS INDEX FINGER

3

OR HIS TWO THUMBS.

4

TO DO WITH HOW THEY WERE WRITTEN.

5

NOTES AND TURNED IT OVER AND HANDED IT TO MR. ROBINSON JUST LIKE

6

THAT.

7

WHEN YOU'RE WRITING A NOTE SOMETIMES YOU MAKE A MISTAKE.

8

MIGHT WANT TO TEAR IT UP.

9

WHEN ALL OF THIS IS GOING ON YOUR FINGERPRINTS ARE LIKELY TO BE

THE LOCATION OF THE FINGERPRINTS HAS NOTHING
HE COULD HAVE WRITTEN THE

HE COULD HAVE HANDLED THE PAPER ON DIFFERENT OCCASIONS.

YOU MIGHT WANT TO WRITE A NEW NOTE.

10

IN DIFFERENT PLACES, NOT NECESSARILY IN ONE PLACE.

11

PROVE ANYTHING.

12

AND HE CANNOT ESCAPE THAT FACT.

13

YOU

THAT DOESN'T

THE FACT IS THE FINGERPRINTS WERE ON THE NOTES

THE PHYSICAL EVIDENCE IS AGAINST HIM.

14

TACO BELL.

15

EVIDENCE THAT HE WAS IN THE TACO BELL.

16

F.B.I. ON THE DAY THAT HE WAS ARRESTED HE HAD A GET-AWAY DRIVER.

17

HE DID NOT NAME HIM.

18

THOMPSON.

19

THE F.B.I. AND THE U.S. ATTORNEY'S OFFICE ON SEPTEMBER 18TH OF

20

2007, HE SIGNED THIS LETTER, I HAVE READ THIS PROFFER AGREEMENT

21

CAREFULLY.

22

SUPPOSED TO TELL THE TRUTH.

23

TOLD THE F.B.I. HE HAD A PARTNER, IT WAS J.T.

24

PHOTO.

25

THAT IS THE PHYSICAL EVIDENCE.

WE HAVE HIM IN THE
THAT IS YOUR DIRECT

LEARY ROBINSON TOLD THE

HE HAS NOT WANTED TO NAME STANLEY JOSEPH

HOWEVER, WHEN HE GOT BACK TO OFFERING A PROFFER TO

I UNDERSTAND AND VOLUNTARILY AGREE TO IT.

IT WAS J.T.

HE WAS

WELL, AT THAT POINT HE TOLD YOU HE
HE WAS SHOWN A

IT WAS STANLEY JOSEPH THOMPSON.

KEVIN DUNBAR OVERHEARD A TELEPHONE CONVERSATION BETWEEN THE

167A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 72 of 108

672

1

TWO DEFENDANTS DISCUSSING THE ROBBERY IN WHICH THEY USED SOMEONE

2

ELSE'S CAR, THE WHITE PONTIAC.

3

ACCORDING TO KEVIN DUNBAR, DIDN'T WANT TO BE CAUGHT UP IN THIS

4

ROBBERY BECAUSE THEY USED HIS CAR.

5

OVERHEARD BY KEVIN DUNBAR.

6

THE OWNER OF THE WHITE PONTIAC,

THAT WAS THE CONVERSATION

THAT'S DIRECT EVIDENCE.

LEARY ROBINSON WAS IN THE BEST POSITION TO KNOW WHO THE

7

GET-AWAY DRIVER WAS.

MR. MACK SAYS NOBODY EVER SAW HIS FACE.

8

THAT'S NOT UNUSUAL.

9

SITTING IN A CAR AND YOU CAN'T ALWAYS SEE THEIR FACE.

IT'S NOT UNUSUAL TO NOT NOTICE SOMEBODY

10

THEY ARE LOOKING DOWN?

11

FACE?

12

FIRST REASON IS HE DECIDED NOT TO GO IN THE BANKS.

13

THE TACO BELL.

14

WHAT IF

WHAT IF THEY HAVE THEIR HAND ON THEIR

THERE ARE A MILLION REASONS WHY NOBODY SAW HIS FACE.

THE

HE DID GO IN

PHYSICAL EVIDENCE IS NOT ALWAYS AVAILABLE TO THE F.B.I. OR

15

TO POLICE OFFICERS.

THEY HAVE TO TAKE WHAT THEY CAN GET.

16

TAKE THE EVIDENCE FROM THE CRIME SCENE.

17

SEND WHAT THEY CAN OFF TO THE LAB.

18

N.C.I.S.

19

HAD A LAB LIKE THAT.

20

WHAT THEY CAN DO, BUT IT'S HOLLYWOOD.

21

ARE REAL POLICE OFFICERS, REAL F.B.I. AGENTS.

22

AGENTS HAVE TO FOLLOW THEIR POLICY.

23

RECORD.

24

THEIR NOTES.

25

THEY WRITE IT UP.

THEY ANALYZE IT.

THEY
THEY

IT'S NOT LIKE C.S.I. OR

N.C.I.S. IS ONE OF MY FAVORITE SHOWS.

I WISH THAT WE

I WISH THAT WE HAD THE CAPABILITY OF DOING
THIS IS REAL LIFE.

THESE

AND THE F.B.I.

THEIR POLICY IS TO NOT

THEY DO WHAT THEY'VE BEEN TAUGHT TO DO.

THEY WRITE

THEY LISTEN TO THE PERSON QUESTIONING, AND THEN
DO YOU THINK THE F.B.I. AGENTS MADE UP THIS

168A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 73 of 108

673

1

STUFF?

2

THIS CASE.

3

LEARY ROBINSON MADE A CONFESSION ON THE DAY HE WAS ARRESTED.

4

SAID HE HAD THE GUN.

5

ROBBERIES.

6

GUNS AVAILABLE TO THE DEFENDANTS.

7

TACO BELL.

8

ARE NOT SAYING OUR THEORY IS HE USED THE HIGH POINT IN ALL OF

9

THE ROBBERIES.

10

YOU HAVE EVERY REASON TO BELIEVE THE F.B.I. AGENTS IN
YOU HAVE EVERY REASON NOT TO BELIEVE LEARY ROBINSON.
HE

HE SAID HE USED IT IN ALL OF THE

BUT OBVIOUSLY THEY HAD TWO GUNS.

THERE WERE TWO

THEY USED TWO GUNS IN THE

THEY COULD HAVE USED THE GUNS INTERCHANGEABLY.

WE

WE DIDN'T SAY HE USED IT ON THE ONES WHERE WE

DIDN'T HAVE ANY EVIDENCE OF THE GUN.

11

LADIES AND GENTLEMEN, WE BASE OUR THEORY ON THE FACTS, ON

12

THE EVIDENCE.

THE PHOTOGRAPHS CLEARLY SHOW THAT HIGH POINT GUN.

13

THERE IS NO REASON NOT TO BELIEVE KELLIE ANDERSON.

14

GUN.

15

CHANGED HIS STORY TO A B.B. GUN SIX MONTHS LATER AND ON THE

16

STAND CHANGED HIS STORY TO, NO, NO GUN.

17

TO DISBELIEVE LEARY ROBINSON, THE COLD BANK ROBBER WHO DOESN'T

18

CARE ABOUT THE VICTIMS.

19

DIDN'T WORRY ABOUT THEM.

20

GUN?

21

AND HERE IS THE THING ABOUT THE GUN.

22

RECOGNIZE THE GUN.

23

DEFENDANT.

24

YOU HAVE A GUN PUT TO YOUR FACE, REMEMBER WHAT KELLIE ANDERSON

25

SAID.

SHE SAW A

THERE IS EVERY REASON NOT TO BELIEVE LEARY ROBINSON WHO

THERE IS EVERY REASON

HE TOLD YOU THAT.

HE TESTIFIED, NO, I

WELL, WHY WOULD HE GO IN WITH A B.B.

HE WASN'T WORRIED ABOUT THEM.

HE TOOK HIS REAL GUN IN.
THE VICTIMS DO NOT HAVE TO

THEY DON'T EVEN HAVE TO RECOGNIZE THE

HALF OF THEM DIDN'T.

IN A SITUATION LIKE THAT WHEN

SHE SAW THAT GUN, SHE SAW THE NOTE, AND SHE LOOKED DOWN.

169A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 74 of 108

674

1

SHE DIDN'T WANT TO LOOK AT HIM ANYMORE.

THESE PEOPLE ARE IN A

2

SITUATION WHERE THEIR ADRENALINE IS RUSHING.

3

THEY ARE NOT SURE WHAT TO DO.

4

TELLER TRAINING.

5

POSITION TO HAVE A PHOTOGRAPHIC MEMORY.

6

RECOGNIZE THE DEFENDANT.

7

DON'T HAVE TO RECOGNIZE THE GUN.

8

USED IS SUFFICIENT FOR YOU TO BELIEVE THAT THERE WAS A GUN USED.

9

THE REASON THAT WE SHOWED THE GUN IS THAT THE GUN IN OUR HANDS,

THEY ARE SCARED.

THEY ARE TRYING TO REMEMBER THEIR

BUT, LADIES AND GENTLEMEN, THEY ARE NOT IN A

SOME DIDN'T.

SOME OF THE VICTIMS DID
THAT'S REAL LIFE.

THEY

THE TESTIMONY THAT A GUN WAS

10

THE DEFENDANT'S GUN, ROBINSON'S GUN, IS IN THE PHOTOGRAPHS.

11

IT'S IN THE PHOTOGRAPHS.

12

SAME GUN, YOU CAN CERTAINLY BELIEVE THAT THEY HAD TWO GUNS WHICH

13

THEY TOOK INTO THE TACO BELL.

14

SO THERE WERE AT LEAST TWO GUNS.

15

AND IF YOU DON'T BELIEVE IT WAS THE

AND SHRONDA HALL SAW BOTH GUNS,

AS TO MR. SAVIELLO'S ARGUMENT THAT WE SHOULD HAVE SENT --

16

OR THE F.B.I. SHOULD HAVE SENT THE GUN TO THE LAB, THERE WAS

17

REALLY NO NEED.

18

MAKE.

19

AND THERE'S ALSO NO EVIDENCE THAT THE GUN WAS ACTUALLY IN THE

20

PORTFOLIO WITH THE DYE PACK WHEN IT WENT OFF.

21

TESTIMONY TO SHOW YOU THAT THAT GUN EVER EVEN CAME IN CONTACT

22

WITH THE RED DYE.

23

PARKING LOT.

24

HAD TO HAVE RED DYE STAIN ON IT.

25

IT DOESN'T MATTER THAT THE GUN DOESN'T HAVE THE RED STAIN ON IT

NOW, HERE IS THE BALANCE THAT THE F.B.I. HAS TO

FIRST OF ALL, YOU SAW THE GUN.

THERE'S NO RED DYE ON IT

THERE'S BEEN NO

THE MONEY, THE DYE PACK WAS LEFT IN THE

THERE IS NO REASON FOR YOU TO ASSUME THAT THAT GUN
AND IT DOESN'T MATTER ANYWAY.

170A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 75 of 108

675

1

OR DOES HAVE RED STAIN ON IT.

2

TO MAKE WHEN YOU ARE AN AGENT CONDUCTING AN INVESTIGATION.

YOU

3

HAVE TO DO WHAT YOU THINK IS NECESSARY TO PROVE THE CASE.

AGENT

4

CARMAN GOT A CONFESSION.

5

HE'S NOT REQUIRED TO STOP THEN.

6

HE CAN.

7

CONFIRMING THE IDENTIFICATION.

8

THE PHOTOGRAPHS TAKEN FROM THE ROBBERIES MATCH LEARY ROBINSON.

9

THIS IS THE BALANCE THAT YOU HAVE

AND, YES, HE DIDN'T STOP THEM THEN.
HE WANTS TO MAKE THE BEST CASE

HE WENT TO VIRNA ROBINSON.

IS THIS YOUR HUSBAND?

HE'S

HE'S CONFIRMING THE FACT THAT

SOME OF THE FINGERPRINTS WERE PROCESSED BY COBB COUNTY

10

BECAUSE COBB COUNTY WAS WORKING THESE ROBBERIES AT THIS TIME.

11

SOMEWHERE IN HERE THE F.B.I. GOT INVOLVED, AND SO ON THE LAST

12

ROBBERY THEY DECIDED TO SEND THE PRINTS TO THE F.B.I.

13

SAYING -- IS THE DEFENSE ASKING YOU TO IGNORE TWO DIFFERENT

14

FINGERPRINT ANALYSTS THAT FOUND THE FINGERPRINTS OF STANLEY

15

JOSEPH THOMPSON ON THESE DEMAND NOTES?

16

HE'S IN THE TACO BELL IN THIS PHOTO.

17

ON THE 2/12 BANK OF AMERICA AND THE 3/26.

18

ARE THEY

THERE ARE TWO OF THEM.

WE'VE GOT HIS FINGERPRINTS

THE RED CHEVY BLAZER WAS USED IN SEVERAL OF THE ROBBERIES.

19

HE WAS ARRESTED IN THE RED CHEVY BLAZER WITH CLOTHING FROM THE

20

ROBBERY.

21

HOTEL ROOM WHERE LEARY ROBINSON WAS HANGING OUT.

22

GENTLEMEN, THERE IS EVERY REASON TO BELIEVE THAT STANLEY JOSEPH

23

THOMPSON IS GUILTY IN THIS CASE.

24

ASSUME -- WE DO NOT ASK YOU TO ASSUME HE WAS INVOLVED.

25

ASKING YOU TO RELY ON THE EVIDENCE, TO RELY ON THE

IT'S HIS HOTEL ROOM WHERE THE GUN WAS FOUND.

IT'S HIS

LADIES AND

AND WE ARE NOT ASKING YOU TO
WE ARE

171A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 76 of 108

676

1

CIRCUMSTANTIAL, YES, AND THE DIRECT EVIDENCE IN THIS CASE

2

BECAUSE THOSE TOGETHER AND ALL OF THE EVIDENCE TOGETHER

3

INDICATES THAT STANLEY JOSEPH THOMPSON IS GUILTY, NOT JUST ONE

4

LITTLE PIECE, NOT JUST ONE FINGERPRINT, NOT JUST ONE TABLET

5

WHERE OBVIOUSLY THEY'RE TRYING TO DIVIDE UP THE MONEY, NOT JUST

6

BEING ARRESTED IN THE GET-AWAY CAR WHICH HE OBVIOUSLY HAD

7

CONTROL OVER.

8

ARE A MILLION REASONS WHY HE DIDN'T FLEE.

9

TO GET IN A CAR CHASE.

AND THE ARGUMENT THAT WHY DIDN'T HE FLEE?

THERE

MAYBE HE DIDN'T WANT

MAYBE HE DIDN'T THINK HE WAS GOING TO

10

GET ARRESTED FOR THE BANK ROBBERIES AT THAT TIME OR THE TACO

11

BELL.

12

WHO KNOWS WHAT COULD HAVE HAPPENED.

13

MAYBE HE THOUGHT HE WOULD JUST WAIT AND SEE.

NOW, LEARY ROBINSON.

IF HE FLED,

HE COULD HAVE BEEN SHOT.

UNDERSTAND THAT IT'S HARD TO MAKE

14

THIS BALANCE ON WHAT TO BELIEVE WHEN.

YOU HAVE TO TAKE IT ALL

15

TOGETHER AND LOOK AT WHAT MAKES SENSE.

16

MADE A STATEMENT WHICH WAS PRETTY COMPLETE.

17

ROBBERIES.

18

WHERE THEY WERE AND HE HAD A GET-AWAY DRIVER THAT HE WOULDN'T

19

NAME.

20

CHANGED TO A B.B. GUN.

21

UP UNTIL THAT TIME.

22

HE THREW THE B.B. GUN AWAY AFTER HE USED IT IN THIS ROBBERY,

23

WENT BACK TO HIS GIRLFRIEND'S HOUSE AND GOT HIS HANDGUN.

24

BECAUSE HE WANTED TO USE IT IN THE ROBBERIES.

25

THE STORY CHANGED.

WHEN HE WAS ARRESTED HE
HE IDENTIFIED THE

HE COULDN'T REMEMBER THE DATES, BUT HE REMEMBERED

THEN IN SEPTEMBER HE'S SUPPOSED TO TELL THE TRUTH,
WE NEVER HEARD ANYTHING ABOUT A B.B. GUN

BUT HE DID SAY THAT HE THREW THE GUN AWAY,

WHY?

SO AT SOME POINT

THE STORY CHANGED AGAIN ON THE STAND, I

172A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 77 of 108

677

1

DIDN'T USE THE GUN IN THAT ROBBERY.

HE'S DEPENDING ON THE

2

PHOTOGRAPHS WHERE YOU CAN'T SEE THE GUN.

3

SAYS, OH, I DIDN'T USE THE GUN AND IT WASN'T EVEN ME.

4

IT WASN'T HIM, IT WAS STANLEY JOSEPH THOMPSON.

5

ROBBERIES, LADIES AND GENTLEMEN.

6

MINUTES APART, SAME CLOTHING, CAMO JACKET WITH THE ROBINSON NAME

7

TAG ON IT.

8

TOYOTA, THE DRIVER WAS A BLACK MALE, 45 MINUTES LATER.

9

TOYOTA WAS THERE.

THAT'S THE ONE HE
WELL, IF

LOOK AT THESE

THEY ARE 45 MINUTES APART, 45

THE ROBBER LEFT, GOT IN THE PASSENGER DOOR OF THE
THE

THE ROBBER GOT OUT OF THE PASSENGER SIDE,

10

CAMO CAP AND JACKET.

11

LIKELY AND TRUE THAT STANLEY JOSEPH THOMPSON USED ROBINSON'S

12

CLOTHING, GUN AND CAR IN THIS ROBBERY.

13

ROBINSON GAVE HIM HIS CLOTHES, HIS CAR --

14

THE COURT:

15

MS. HOFFER:

16

THE COURT:

17

MS. HOFFER:

IT IS ENTIRELY POSSIBLE AND PROBABLE AND

AIDING AND ABETTING.

MS. HOFFER.
-- TO DO THE ROBBERY.
MS. HOFFER, YOU ARE OVER YOUR TIME.
OKAY.

I'LL WRAP IT UP, YOUR HONOR.

18

LADIES AND GENTLEMEN, WE ARE ASKING YOU TO RELY ON THE EVIDENCE.

19

REASONABLE DOUBT IS NOT A DOUBT BEYOND ANYTHING YOU COULD EVER

20

PROVE, BECAUSE THAT'S NOT REAL LIFE.

21

REASON AND COMMON SENSE.

22

BASED ON YOUR ANALYSIS OF THE EVIDENCE, THEN YOU HAVE OVERCOME

23

ANY REASONABLE DOUBT IN THIS CASE AND I ASK YOU TO FIND THE

24

DEFENDANTS GUILTY.

25

YOU JUST HAVE TO USE

IF YOUR VERDICT IS GUILTY AND IT IS

THANK YOU.

THE COURT:

THANK YOU, MS. HOFFER.

173A

Case 1:07-cr-00138-TWT-JSA Document 148 Filed 08/14/08 Page 108 of 108

708

C E R T I F I C A T E

UNITED STATES OF AMERICA
NORTHERN DISTRICT OF GEORGIA
I, MONTRELL VANN, CCR, CSR, RPR, RMR, CRR, OFFICIAL COURT
REPORTER OF THE UNITED STATES DISTRICT COURT, FOR THE NORTHERN
DISTRICT OF GEORGIA, DO HEREBY CERTIFY THAT THE FOREGOING 707
PAGES CONSTITUTE A TRUE TRANSCRIPT OF PROCEEDINGS HAD BEFORE THE
SAID COURT, HELD IN THE CITY OF ATLANTA, GEORGIA, IN THE MATTER
THEREIN STATED.
IN TESTIMONY WHEREOF, I HEREUNTO SET MY HAND ON THIS, THE
18TH DAY OF JUNE 2008.

__________________________________
MONTRELL VANN, CCR,CSR,RPR,RMR,CRR
OFFICIAL COURT REPORTER
UNITED STATES DISTRICT COURT

174A

Case 1:07-cr-00138-TWT-JSA Document 145 Filed 08/14/08 Page 1 of 102

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

UNITED STATES OF AMERICA,

)
)
PLAINTIFF, )
VS.
)
)
LEARY ROBINSON, ET AL.,
)
)
DEFENDANTS. )
)
)
_____________________________)

DOCKET NUMBER
1:07-CR-138-BBM-1,2
ATLANTA, GEORGIA
FEBRUARY 26, 2008

VOLUME ONE OF FOUR
TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE BEVERLY B. MARTIN,
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF:

KATHERINE HOFFER & JAMILA HALL
UNITED STATES ATTORNEY'S OFFICE
ATLANTA, GEORGIA 30303

FOR DEFENDANT ROBINSON:

TIMOTHY SAVIELLO
FEDERAL DEFENDER PROGRAM
ATLANTA, GEORGIA 30303

FOR DEFENDANT THOMPSON:

ROBERT MACK
MACK & HARRIS
STOCKBRIDGE, GEORGIA

OFFICIAL COURT REPORTER:

30281

MONTRELL VANN, CCR,RPR,RMR,CRR
2394 UNITED STATES COURTHOUSE
75 SPRING STREET, SW
ATLANTA, GEORGIA 30303
(404)215-1549

175A

Case 1:07-cr-00138-TWT-JSA Document 145 Filed 08/14/08 Page 2 of 102

2

1

I N D E X

2

PAGE

3

PLAINTIFF'S WITNESSES

4

CURTIS MCGUIRE, JR.

5
6
7
8

DIRECT EXAMINATION BY MS. HALL

20

SHRONDA HALL
DIRECT EXAMINATION BY MS. HOFFER
CROSS-EXAMINATION BY MR. SAVIELLO
CROSS-EXAMINATION BY MR. MACK
REDIRECT EXAMINATION BY MS. HOFFER

25
35
38
40

9
DONELL GIBSON
10
11
12
13
14
15

DIRECT EXAMINATION BY MS. HOFFER
CROSS-EXAMINATION BY MR. MACK
REDIRECT EXAMINATION BY MS. HOFFER
RECROSS-EXAMINATION BY MR. MACK

41
56
58
60

LAYTON WHITMAN
DIRECT EXAMINATION BY MS. HALL
CROSS-EXAMINATION BY MR. SAVIELLO
CROSS-EXAMINATION BY MR. MACK
REDIRECT EXAMINATION BY MS. HALL

61
77
82
86

16
PHYLLIS JAMES
17
18
19

DIRECT EXAMINATION BY MS. HALL
CROSS-EXAMINATION BY MR. SAVIELLO
REPORTER'S CERTIFICATE

92
97
102

20
21
22
23
24
25

176A

Case 1:07-cr-00138-TWT-JSA Document 145 Filed 08/14/08 Page 16 of 102

16

1

BANKS.

2

HE DID NOT CARRY A REAL GUN ON ANY OF THOSE ROBBERIES.

3

YOU.

4
5

HE DID NOT ROB THE WACHOVIA ON FEBRUARY 21ST, 2007 AND

THE COURT:

THANK

THANK YOU, MR. SAVIELLO.

MR. MACK.

6

MR. MACK:

THANK YOU, YOUR HONOR.

7

GOOD AFTERNOON, LADIES AND GENTLEMEN OF THE JURY.

AS YOU

8

KNOW, I REPRESENT MR. STANLEY JOSEPH THOMPSON IN THIS CASE.

9

THE EVIDENCE THAT WE EXPECT TO COME BEFORE YOU TODAY DURING THE

AND

10

TRIAL OF THIS CASE WILL SHOW YOU THIS:

11

THE TACO BELL ON FEBRUARY THE 8TH OF 2007.

12

AND IT'S GOING TO SHOW THAT MR. THOMPSON DID IN FACT TAKE THE

13

MONEY FROM THE TACO BELL ON FEBRUARY THE 8TH OF 2007.

14

NO DISPUTE IN THAT.

15

GOVERNMENT WANTS YOU TO BELIEVE THAT MR. THOMPSON PARTICIPATED

16

IN SEVEN OTHER BANK ROBBERIES.

17

IN ANY BANK ROBBERY.

18

THAT MR. THOMPSON WAS AT
YOU WILL SEE A VIDEO

THERE'S

BUT WHERE THE DISPUTE COMES IS THAT THE

MR. THOMPSON DID NOT PARTICIPATE

THE EVIDENCE WILL SHOW YOU THIS.

THE GOVERNMENT TOLD YOU IN THEIR OPENING THAT NO ONE EVER

19

WORE A MASK, NOT ONE OF THE 30-SOMETHING WITNESSES THEY WOULD

20

BRING BEFORE YOU WILL SAY THAT MR. THOMPSON WAS A GET-AWAY

21

DRIVER.

22

SAW HIM IN THE S.U.V., I SAW HIM HIDING, I SAW HIM DOING

23

ANYTHING AS IT RELATES TO EACH ONE OF THESE BANK ROBBERIES.

24

ONE WILL TELL YOU THAT.

AND SO MR. THOMPSON JUST WANTS YOU TO

25

LISTEN TO THE EVIDENCE.

MR. THOMPSON WANTS YOU TO UNDERSTAND

NOT ONE WITNESS WILL SAY THAT I SAW HIM IN THE CAR, I

177A

NO

Case 1:07-cr-00138-TWT-JSA Document 145 Filed 08/14/08 Page 17 of 102

17

1

THAT HE HAD NO PARTICIPATION IN ANY OF THESE THINGS.

2

ONE WITNESS WHO WAS AT THE ROBBERY, NOT ONE WITNESS WHO SAW THE

3

PEOPLE COMING IN, GOING OUT, NOT ONE WHO SAW PEOPLE DRIVING THE

4

GET-AWAY CAR, THE GET-AWAY TRUCK, NOT A SINGLE ONE OF THOSE

5

WITNESSES WILL IDENTIFY MR. STANLEY JOSEPH THOMPSON AS BEING

6

INVOLVED WHATSOEVER.

7

END OF THIS CASE WE ASK THAT YOU COME BACK AND FIND HIM NOT

8

GUILTY ON ALL OF THE GUN CHARGES, NOT GUILTY ON EACH ONE OF

9

THOSE BANK ROBBERIES.

10
11
12
13
14
15
16
17

THE COURT:

AND NOT

AND AT THE END OF THE EVIDENCE AND AT THE

THANK YOU.
THANK YOU, MR. MACK.

YOUR FIRST WITNESS, PLEASE, FOR THE GOVERNMENT.
MS. HALL:

YES.

THANK YOU, YOUR HONOR.

THE

GOVERNMENT CALLS CURTIS MCGUIRE -MR. SAVIELLO:

YOUR HONOR, MAY WE APPROACH ON AN

EVIDENTIARY MATTER?
THE COURT:

YOU MAY.

(BENCH CONFERENCE.)

18

THE COURT:

DID YOU ALL KNOW HE WAS GOING TO DO THAT?

19

MR. SAVIELLO:

THE GOVERNMENT IS GOING TO SHOW

20

MR. MCGUIRE A SERIES OF PHOTOS DURING THE BANK ROBBERY,

21

SPECIFICALLY THE GOVERNMENT'S EXHIBIT NUMBER 59 SUB E, F, G, H

22

AND J WERE PHOTOS THAT WERE NOT PROVIDED IN DISCOVERY.

23

WERE SHOWED TO MY CLIENT IN SOME DISCUSSIONS WITH HIM WHEN HE

24

WAS ARRESTED BY F.B.I. AGENT CARMEN.

25

SPECIFICALLY, SAID I'VE SEEN OTHER PHOTOS THAN THE ONES WE HAVE.

THEY

HE ASKED HIM ABOUT THEM

178A

Case 1:07-cr-00138-TWT-JSA Document 145 Filed 08/14/08 Page 102 of 102

102

C E R T I F I C A T E

UNITED STATES OF AMERICA
NORTHERN DISTRICT OF GEORGIA
I, MONTRELL VANN, CCR, CSR, RPR, RMR, CRR, OFFICIAL COURT
REPORTER OF THE UNITED STATES DISTRICT COURT, FOR THE NORTHERN
DISTRICT OF GEORGIA, DO HEREBY CERTIFY THAT THE FOREGOING PAGES
CONSTITUTE A TRUE TRANSCRIPT OF PROCEEDINGS HAD BEFORE THE SAID
COURT, HELD IN THE CITY OF ATLANTA, GEORGIA, IN THE MATTER
THEREIN STATED.
IN TESTIMONY WHEREOF, I HEREUNTO SET MY HAND ON THIS, THE
16TH DAY OF MAY 2008.

__________________________________
MONTRELL VANN, CCR,CSR,RPR,RMR,CRR
OFFICIAL COURT REPORTER
UNITED STATES DISTRICT COURT

179A

180A

181A

182A

183A

